<html>
<title> - BEYOND SECLUSION AND RESTRAINT: CREATING POSITIVE LEARNING ENVIRONMENTS FOR ALL STUDENTS</title>
<body><pre>[Senate Hearing 112-924]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 112-924

BEYOND SECLUSION AND RESTRAINT: CREATING POSITIVE LEARNING ENVIRONMENTS 
                            FOR ALL STUDENTS

=======================================================================

                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                                   ON

           EXAMINING CREATING POSITIVE LEARNING ENVIRONMENTS 
                            FOR ALL STUDENTS

                               __________

                             JULY 12, 2012

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



      Available via the World Wide Web: http://www.gpo.gov/fdsys/


                         U.S. GOVERNMENT PUBLISHING OFFICE 

93-331 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001











          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                       TOM HARKIN, Iowa, Chairman

BARBARA A. MIKULSKI, Maryland         MICHAEL B. ENZI, Wyoming
JEFF BINGAMAN, New Mexico             LAMAR ALEXANDER, Tennessee
PATTY MURRAY, Washington              RICHARD BURR, North Carolina
BERNARD SANDERS (I), Vermont          JOHNNY ISAKSON, Georgia
ROBERT P. CASEY, JR., Pennsylvania    RAND PAUL, Kentucky
KAY R. HAGAN, North Carolina          ORRIN G. HATCH, Utah
JEFF MERKLEY, Oregon                  JOHN McCAIN, Arizona  
AL FRANKEN, Minnesota                 PAT ROBERTS, Kansas 
MICHAEL F. BENNET, Colorado           LISA MURKOWSKI, Alaska
SHELDON WHITEHOUSE, Rhode Island      MARK KIRK, Illinois
RICHARD BLUMENTHAL, Connecticut
                                    
                      Pamela Smith, Staff Director
                 Lauren McFerran, Deputy Staff Director
     Frank Macchiarola, Republican Staff Director and Chief Counsel

                                  (ii)

  









                            C O N T E N T S

                               __________

                               STATEMENTS

                        THURSDAY, JULY 12, 2012

                                                                   Page

                           Committee Members

Harkin, Hon. Tom, Chairman, Committee on Health, Education, 
  Labor, and Pensions, opening statement.........................     1
Isakson, Hon. Johnny, a U.S. Senator from the State of Georgia...     3

                               Witnesses

Crimmins, Daniel, B.A., M.A., Ph.D., Director, Center for 
  Leadership in Disability, Georgia State University, Atlanta, GA     4
    Prepared statement...........................................     6
George, Michael, Director, Centennial School, Bethlehem, PA......    11
    Prepared statement...........................................    13
Pitonyak, Cyndi, Coordinator of Positive Behavioral Interventions 
  and Supports, Montgomery County Public Schools, Christiansburg, 
  VA.............................................................    28
    Prepared statement...........................................    30
Jackson, Deborah (Debbie), Parent, Easton, PA....................    40
    Prepared statement...........................................    44

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Autism National Committee....................................    61
    National School Boards Association...........................    64
    Consortium for Citizens With Disabilities (CCD), letter......    66
    Response to questions of Senator Murray by:
        Daniel Crimmins, B.A., M.A., Ph.D........................    67
        Michael George...........................................    71
        Cyndi Pitonyak...........................................    75
        Deborah (Debbie) Jackson.................................    81
        .........................................................

                                 (iii)

  

 
                    BEYOND SECLUSION AND RESTRAINT:
                       CREATING POSITIVE LEARNING
                     ENVIRONMENTS FOR ALL STUDENTS

                              ----------                              


                        THURSDAY, JULY 12, 2012

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:33 a.m. in 
room SD-106, Dirksen Senate Office Building, Hon. Tom Harkin, 
chairman of the committee, presiding.
    Present: Senators Harkin and Isakson.

                  Opening Statement of Senator Harkin

    The Chairman. The hearing of the Senate Committee on 
Health, Education, Labor, and Pensions will come to order.
    I welcome all of you to today's hearing entitled, ``Beyond 
Seclusion and Restraint: Creating Positive Learning 
Environments for All Students.''
    Today's witnesses will help us explore the evidence-based 
practices that are most effective in supporting the learning of 
students who have challenging behaviors. We will learn how 
these practices can be employed in classrooms, at the school 
building level, at the district level, and even at a State 
level to address the educational needs of all students, and to 
keep all students and staff safe.
    We are in the fourth decade of the implementation of IDEA, 
and the third decade of ADA, two pieces of landmark legislation 
that opened the doors of all aspects of society to people with 
disabilities.
    In 1975, IDEA made school available to students who had 
been prohibited or discouraged from attending. IDEA recognized 
that all students deserve access to a good education provided 
in the least restrictive environment possible. However, all too 
often, students are not receiving the education IDEA envisioned 
because of the use of antiquated procedures such as seclusion 
and restraint.
    In the case of one Iowa family that I have heard from, 
their son was being secluded for up to 3 hours a day, and they 
did not even find out about the use of this procedure until 
after it had been used for 3 years; 3 years without access to 
academic instruction for major portions of his school day.
    Now the use of these outdated and outmoded techniques means 
that students may have access to the school building, but are 
being excluded from instruction at a great cost to them and to 
society. As we will hear today, the use of seclusion and 
restraint often escalates the challenging behaviors that these 
procedures are meant to reduce, resulting in less time for a 
student to spend on academic tasks.
    When we debate issues related to education, whether it is 
student assessments or teacher evaluations, we always say the 
stakes are high. But for students who are secluded and 
restrained, the stakes are very, very high; sometimes as high 
as life and death.
    For instance, in December 2011, Christopher Baker of 
Kentucky, a 9-year-old with autism, was stuffed in a duffel bag 
by school personnel and secluded from his classmates. He was 
not discovered until his own mother came to school and found 
him in the bag.
    In January in a Connecticut school district, many children 
were afraid to go to school because of the seclusion rooms that 
were used in their building.
    And again in April 2012, at the Leake and Watts School in 
Yonkers, NY, 16-year-old Corey Foster was restrained by school 
staff members who were trying to remove him from a basketball 
court. Corey stopped breathing, went into cardiac arrest, and 
died.
    Corey's mother, whom I just met, Sheila Foster, is here 
today. Ms. Foster, I would like to publicly say to you what I 
said to you in private, to offer my condolences to you and to 
your family for your loss. But I thank you for your courage in 
being here, and for doing all you are doing to raise the 
awareness of Corey's case and this issue. Please continue to do 
so. More people have to know what happened.
    Sadly, Corey's story is all too familiar. Over 10 years 
ago, Tanner Wilson, a young Iowan with autism, was retrained, 
also went into cardiac arrest, and died. Since then Tanner's 
mother, Karen Wilson, has worked tirelessly to limit the use of 
restraint and to promote positive approaches. Her work resulted 
in a law in Iowa popularly known as ``Tanner's Law,'' which 
restricts the use of prone restraints and any restraint that 
limits a student's ability to breathe. These restrictions, 
however, only apply to child psychiatric facilities, not 
schools.
    Some argue that these injuries, and trauma, and deaths are 
limited and isolated, but unfortunately, this is not the case.
    New information released by the U.S. Department of 
Education in March 2012 said there were almost 39,000 incidents 
of restraint that occurred during the 2009-10 school year. So 
it is occurring across the country, but also data shows it is 
disproportionately used with students of color and students who 
have disabilities.
    According to the Civil Rights Data Collection, of those who 
were restrained, almost 70 percent were students with 
disabilities. Hispanic students are secluded at twice the rate 
of their population, and African-American students are 
mechanically retrained at over twice their rate also in terms 
of their population.
    Fortunately, there are proven alternatives around the 
country, and this morning, we are going to highlight some of 
those positive approaches.
    To address these concerns, I have introduced S. 2020, which 
limits the use of these procedures, providing States with funds 
to implement training to encourage schools to use preventative, 
positive behavioral interventions and supports.
    There is broad national support for prohibiting seclusion 
and restraints. We received this week two letters. The first 
was from the Consortium for Citizens with Disabilities urging, 
``Leadership to protect the safety of children in our 
schools.'' Over 50 national organizations signed this letter 
asking limitations on the use of seclusion and restraint.
    The second letter was from more than 150 national and local 
organizations that advocate limiting the use of restraints only 
to emergency situations. All of these groups advocate the use 
of positive, preventative supports and interventions which will 
be the focus of our hearing today.
    Again, I want to thank all of you for being here. I want to 
thank Senator Enzi and his staff for their collaborative work 
in putting together this hearing. This is truly a bipartisan 
approach, and that is the attitude in which we are conducting 
our business, and I thank those who have worked on our staff to 
do that.
    Let me say at the outset, that I have been informed that we 
are going to start voting at a quarter to 12, so that leaves us 
about 1 hour and 15 minutes. But we have one panel and I will 
introduce that panel right now.
    I am sorry. Senator Isakson, please.

                      Statement of Senator Isakson

    Senator Isakson. Thank you, Senator Harkin.
    I would not presume to make an opening statement when 
someone like yourself, who is the preeminent expert on 
individuals with disabilities. And I want to let the audience 
know that you should have heard Senator Harkin just about 2 
hours ago testify before the Senate Foreign Relations 
Committee. He is an outstanding advocate on behalf of 
individuals with disabilities, and I commend you for all that 
you have done.
    My reason for being here is I am a home State boy and we 
have a home State professional who is going to testify, and 
they told me that I could introduce him. Is that OK?
    The Chairman. Absolutely, Senator Isakson, and I apologize. 
I was just focused. I want to thank Senator Isakson for all of 
his help and support in moving this hearing forward also.
    And I will yield to him for the purposes of introduction.
    Senator Isakson. Thank you, Mr. Chairman.
    Mr. Chairman, Georgia State University is a preeminent 
university in the field of education and special education.
    As the chairman of the State Board of Education from 1996 
to 1999, I worked with doctor, then president, Dr. Patton and 
other members of the College of Education on many, many issues 
dealing with students with disabilities and the IDEA.
    I am really privileged today to introduce to you, and the 
entire committee, and the audience, Dr. Daniel Crimmins, who 
serves as Director of the Center for Leadership in Disability 
at Georgia State University where he is also a clinical 
professor in the Institute of Public Health.
    Dr. Crimmins has focused his career on advancing the rights 
of children and adults with disabilities by heightening the 
capabilities of organizations to provide evidenced-based 
behavioral and educational interventions. He played an 
instrumental role in Georgia's 2010 adoption of State 
regulations lending the use of restraint to emergency 
situations and banning seclusion altogether in public schools 
in its entirety.
    Dr. Crimmins is an expert in the field and most appropriate 
to testify before the committee today. He has a B.A., M.A., and 
Ph.D. from the State University of New York in Binghamton, and 
it is my pleasure today to introduce Dr. Crimmins to the 
committee.
    The Chairman. Thank you very much, Senator Isakson.
    And then going down the panel here, I will introduce them, 
and then start our testimony.
    Dr. Michael George, director of the Centennial School at 
Lehigh University in Bethlehem, PA, a private school for 
students with the most challenging behaviors serving students 
ages 5 to 22.
    Prior to his position at Lehigh, Dr. George served as the 
Supervisor of Special Education Programs in the Lane Education 
Service District in Oregon, and has extensive research 
experience in effective special education programs.
    Miss Cyndi Pitonyak is coordinator of Positive Behavioral 
Interventions and Supports for the Montgomery County public 
school district in southwest Virginia. She has been a special 
educator for 36 years and has taught children from preschool 
age through young adulthood. She is also an instructor at 
Radford University, has served on State and national training 
teams in the area of positive behavior supports, and has 
provided training to teachers and parents in both England and 
Ireland.
    Next, we have Miss Deborah Jackson, a single parent to 9-
year-old Elijah. By the time Elijah was 5 years old, Miss 
Jackson found herself unable to care for him due to his 
tantrums and violence. She tried interventions with three 
school-based programs, all of which used seclusion and 
restraints, and all of which worsened his behavior.
    She then enrolled Elijah in Centennial School. The positive 
behavioral supports and interventions allowed him to re-enroll 
in his local public school. Miss Jackson, I understand you have 
had to take unpaid leave to be here today. We appreciate you 
taking the time and making the sacrifice to share your story 
with us.
    Thank you all very much for being here. Each of your 
testimonies will be made a part of the record in their 
entirety, and we will start with Dr. Crimmins and go down the 
line. And if you could sum up in 5 to 7 minutes, we would be 
most appreciative.
    Dr. Crimmins, welcome. Please proceed.

  STATEMENT OF DANIEL CRIMMINS, B.A., M.A., Ph.D., DIRECTOR, 
CENTER FOR LEADERSHIP IN DISABILITY, GEORGIA STATE UNIVERSITY, 
                          ATLANTA, GA

    Mr. Crimmins. Good morning, Mr. Chairman.
    Thank you, thank the Ranking Member, and I particularly 
thank Senator Isakson for his warm introduction. It is an honor 
to be here.
    I am the director of the Center for Leadership in 
Disability at Georgia State University, and we are a university 
center for excellence in developmental disabilities with the 
mission of bringing effective practices to our States.
    I would also like to mention that I did have the privilege 
of serving and working for Senator Jim Jeffords in 2003 for 1 
year, and I will say that I got to sit in the back row, and 
prepare some of the kinds of background documents that you 
Senators use, and I never imagined that I would be on this side 
of the table. So it is an honor to be here.
    I do have a full set of written testimony that has been 
submitted for the record, and I will try to highlight that as 
we go through today.
    Obviously, we are here to talk about the issue of restraint 
and seclusion, and I think that part of my highlights are going 
to be the fact that the State of Georgia, in 2008, implemented 
a set of rules to eliminate the use of seclusion and 
significantly limit the use of restraint for all special 
education students. In 2010, our State's Board of Education 
adopted a broader rule to apply to all schools and all children 
in the State.
    Just briefly, seclusion involves the use of having a child 
in a room that they cannot exit, essentially without adult 
assistance or permission, and restraint can come in different 
forms: chemical restraint, mechanical restraint, and different 
kinds of physical restraint. Our Georgia rule, in fact, 
eliminated the use of chemical restraint, mechanical restraint, 
and most forms of physical restraint.
    Though seclusion and restraint are in widespread use, as 
you noted in your opening statement, Mr. Chairman, they are 
really not evidenced-based techniques. The vast majority of 
professionals feel that these techniques are not effective 
means of changing student behavior and have no therapeutic or 
educational value. In fact, seclusion and restraint can 
escalate children's arousal, deepen negative behavior patterns, 
and undermine children's trust and capacity for learning.
    Moreover, the danger presented by these techniques is well-
documented. Children have been traumatized, have harmed 
themselves, and even committed suicide. And tragically, many of 
these are children who were not exhibiting behaviors that 
presented a risk to themselves or to others.
    The seclusion and restraint in other settings are regulated 
by Federal regulation: nursing and psychiatric facilities, 
hospitals, and group homes. And while some States have passed 
laws to regulate their use in schools, only 16 have laws 
limiting the restraints to emergencies involving immediate 
danger of physical harm.
    Mr. Chairman, I know you have been presented with folks 
telling you that these are necessary procedures to maintain 
discipline in the schools. I would like to speak then a little 
bit more about the fact that schools can, and many schools, and 
my other panelists you will hear from will give you evidence 
and examples that that is not so. But first, let me speak to 
one example, one impetus that I think did move the need in 
Georgia.
    A boy named Jonathan King hung himself in a seclusion room 
in Georgia. I use his name because it appeared in the press 
many times, and his parents were very active with us when we 
worked toward the passage of a State rule.
    Jonathan was 13-years-old. He had been in his school for 29 
days. He had been secluded 19 times for an average of 90 
minutes, and for 2 days, he remained in the seclusion room for 
the entire day. An 8-by-8 room, his parents did not know he was 
there. He came home and said, ``I did have to go to time-out 
today.'' They did not know what that meant at that time.
    The program that he attended was part of a statewide 
regional special education program that dealt with the most 
challenging students and students with high levels of 
aggression, self injury, with classifications such as severe 
behavior disturbance and autism.
    The State Department of Education did adopt a regulation 
that did not allow seclusion and restraint in special education 
settings. They implemented that in 2008. The State school board 
adopted a rule that did not allow these procedures to be used 
across the State in 2010. So we are now 2 years into that 
implementation.
    Mr. Chairman, I would say, though, that these cannot be put 
into place without training. Seclusion and restraint are 
dangerous practices. They lack empirical evidence to support 
their continued use, but their alternative is a set of 
procedures that look at positive behavior intervention and 
supports.
    There is a large and growing literature that shows that 
these can be effective, that they can result not just in the 
reduction of behavior, but in academic gains, social gains, and 
also gains in things like staff morale and confidence in the 
school.
    In summary, the issue of seclusion and restraint has gained 
widespread attention in the last several years with numerous 
exposes, several government reports, and proposed Federal 
legislation. There is reason for concern and a compelling need 
to address the problems raised by the use of seclusion and 
restraint as so-called therapeutic and educational 
interventions.
    While a growing number of States do have laws regulating 
the use of seclusion and restraint, these are still in the 
minority and children continue to suffer the consequences. It 
can be done. Regulations have been in place in Georgia for 
almost 4 years now for students in special education and for 2 
years for those in general education settings. Most 
importantly, the problem needs to be addressed for students 
like Jonathan King. Doing so will contribute to the improved 
school achievement by all students and enhanced morale for 
school personnel and families.
    Thank you, Mr. Chairman and Senator Isakson.
    [The prepared statement of Mr. Crimmins follows:]
        Prepared Statement of Daniel Crimmins, B.A., M.A., Ph.D.
                                summary
    My testimony addresses four issues related to the hearing topic.
    First, I provide brief definitions of seclusion and the different 
forms of restraint (chemical, mechanical, and physical).
    Second, I provide background regarding the problem of restraint and 
seclusion. The use of seclusion and restraint is widespread with nearly 
40,000 incidents of physical restraint reported during the 2009-10 
school year with 70 percent of those incidents being with students with 
disabilities and a disproportionate number being African-American and 
Hispanic students. There are numerous evidence-based alternatives to 
restraint and seclusion. The creation of minimum standards for the use 
of seclusion and restraint are necessary to create consistency and 
ensure that students across the Nation are afforded the same 
protections.
    Third, I discuss the adoption of a rule by the Georgia State Board 
of Education in July 2010 that banned the use of seclusion and 
restricted the use of restraints for all students in all schools. I 
note some of the events that lead to the adoption of the Georgia rule 
and the early experience of schools in complying with it.
    Fourth, I reiterate that eliminating seclusion and restraint will 
require a commitment to staff training in positive behavior supports, 
de-escalation strategies, and crisis management; these are the positive 
alternatives to restraint and seclusion. I also emphasize that within 
the broader area of positive behavior supports that training must focus 
on the development of individualized solutions that are likely to be 
needed by students who have historically been subjected to seclusion 
and restraint.
                                 ______
                                 
                              introduction
    Good morning Chairman Harkin, Ranking Member Enzi, and members of 
the committee. I am truly honored to have this opportunity to speak 
with the committee about the very important issue of seclusion and 
restraint in our Nation's schools. I am the director of the Center for 
Leadership in Disability at Georgia State University. Our Center is 
part of a national network of University Centers for Excellence in 
Developmental Disabilities (UCEDDs) that works with people with 
disabilities, their families, schools, State and local government 
agencies, and community providers to provide training, technical 
assistance, service, research and information sharing.
    I am a psychologist by training who has spent a significant portion 
of my career working with families and teachers in developing solutions 
to children's persistent behavior problems. Briefly, the answer to 
problem behavior is a threefold approach based on understanding why it 
occurs, preventing it from happening through changes in the way we 
interact with the child, and replacing it by teaching more appropriate 
and acceptable behaviors. This is not always easy, because it requires 
a commitment to being proactive in preventing behaviors rather than 
reactive to behaviors occurring. However, it is an approach proven to 
be effective, safe, and respectful of all. Positive Behavior 
Intervention and Supports is a decisionmaking framework that guides the 
use of evidence-based practices for improving academic and behavior 
outcomes; it represents the alternative to the use of restraint and 
seclusion. And, in what is now a more-than-30-year career, I have had 
the opportunity to see this approach implemented in hundreds of 
classrooms and schools.
    The use of seclusion and restraint in schools is widespread. And, 
the same threefold approach can be used to solve the problem of the 
continuing use of these techniques. Schools must understand the 
situations in which behaviors occur and these procedures are used, put 
in place systemic changes to prevent the occurrence of challenging 
behaviors, and develop a new set of strategies to replace the use of 
seclusion and restraint by school personnel. My testimony today will 
focus on the importance of finding those replacements for seclusion and 
restraint in the schools. As an example, I will refer to the adoption 
of a rule by the Georgia State Board of Education in July 2010 that 
banned the use of seclusion and restricted the use of restraints in all 
schools; I will also note briefly some of the events that lead to the 
adoption of the rule and the early experience of schools in complying 
with it. I will also refer to the transition away from the use of 
seclusion and restraint in children's mental health programs over the 
past decade. And, finally, I will speak to the need for training to 
bring about this important change in the way we work with children.
                 definition of restraint and seclusion
    I want to share with you, briefly, what seclusion and restraint 
are. Seclusion is the isolation of a child in a room or space from 
which the child is physically prevented from leaving. Seclusion should 
be distinguished from time out, which may involve separating the 
student from a group in a non-locked setting.
    Restraint can be of several types. Chemical restraint involves 
using prescribed medication to stop behavior by slowing a child's 
movements or dulling the ability to think. Mechanical restraint 
involves the use of straps, tape, cuffs, wraps, helmets, or other 
devices to prevent movement or sensory input to the child, often by 
pinning a child's torso, arms, legs or head to a chair, bed, wall or 
floor--this might take the form of restraining a child to a chair using 
duct tape, or placing a helmet on a student's head that produces white 
noise. The term does not include positioning devices or restraints used 
for safety when traveling, such as seatbelts. The third type of 
restraint is physical restraint, which occurs when an adult physically 
holds the child and prevents him or her from moving. The child is kept 
in the restraint position by one or more staff person's arms, legs, or 
body weight.
    Seclusion and restraint are not evidence-based techniques. The vast 
majority of professionals agree that these techniques are not effective 
means of changing student behavior and are of no therapeutic or 
educational use. In fact, seclusion and restraint can escalate a 
child's arousal, deepen negative behavior patterns, and undermine the 
child's trust and capacity for learning. Moreover, the danger presented 
by these techniques is well documented--children have been traumatized, 
injured, and even killed after being restrained, and children in 
seclusion have harmed themselves and even committed suicide.\1\ 
Tragically, many of these students were not exhibiting behaviors that 
presented a risk of harm to themselves or others. All too often, 
seclusion and restraint are used for non-dangerous behaviors, to force 
compliance, or for convenience.
---------------------------------------------------------------------------
    \1\ Government Accountability Office. (2009). Seclusions and 
restraints: Selected cases of death and abuse at public and private 
schools and treatment centers. Retrieved from http://1.usa.gov/gaors7.
    National Disability Rights Network. (2009). School is not supposed 
to hurt. Retrieved from http://www.napas.org/images/Documents/
Resources/Publications/Reports/SR-.
    National Disability Rights Network. (2012). School is not supposed 
to hurt: The U.S. Department of Education must do more to protect 
school children from restraint and seclusion. Retrieved from http://
www.napas.org/images/Documents/Resources/Publications/Reports/
School_is_Not_Supposed_to_Hurt_3_v7.pdf.
---------------------------------------------------------------------------
    And the children themselves are not the only ones being hurt; 
school personnel are frequently injured when implementing restraint 
procedures, and the other students in the classroom can be traumatized 
by witnessing these techniques. This was evidenced by recent stories 
about ``scream rooms'' in Connecticut--the term refers to the screams 
students heard coming from seclusion rooms where their classmates were 
being held.
                 prevalence of restraint and seclusion
    The use of seclusion and restraint is widespread. New data from the 
U.S. Department of Education show nearly 40,000 students were 
physically restrained during the 2009-10 school year, with nearly 70 
percent being students with disabilities and a disproportionate number 
being African-American and Hispanic students.\2\ These techniques are 
not limited to a handful of schools or even a handful of States. They 
are being used widely by school personnel who too often are not trained 
to use them safely and who are not adequately trained in positive 
strategies to guide behavior.
---------------------------------------------------------------------------
    \2\ U.S. Department of Education, Office for Civil Rights, Civil 
Rights Data Collection. (March, 2012). Revealing new truths about our 
Nation's schools. Retrieved from http://www2.ed.gov/about/offices/list/
ocr/docs/crdc-2012-data-summary.pdf.
---------------------------------------------------------------------------
    Seclusion and restraint are regulated by either Federal statute or 
regulation in nursing facilities, hospitals, psychiatric facilities, 
and group homes. While some States have passed laws to regulate their 
use in schools, only 16 have laws limiting restraint to emergencies 
involving an immediate risk of physical harm.\3\ Furthermore, 26 States 
have no legal requirements that schools inform parents that their child 
was restrained or secluded.\4\
---------------------------------------------------------------------------
    \3\ Butler, J. (2012). How safe is the schoolhouse? An analysis of 
State seclusion and restraint laws and policies. (Autism National 
Committee). Retrieved from http://www.autcom.org/pdf/
HowSafeSchoolhouse.pdf.
    \4\ Id.
---------------------------------------------------------------------------
    There are numerous evidence-based alternatives to restraint and 
seclusion. Through the use of Positive Behavioral Interventions and 
Supports, de-escalation techniques, conflict management, and other 
positive strategies, the use of dangerous and dehumanizing seclusion 
and restraint techniques can be virtually eliminated. School personnel 
need training in these positive strategies, which are much more 
effective at guiding behavior while also maintaining a safe and 
supportive educational environment.
                 it can be done--the georgia experience
    You are likely to hear that seclusion and restraint are necessary 
procedures to maintain discipline in the schools. But these techniques 
are strictly regulated in other settings with great success, and 
additionally, some States have made significant progress toward 
reducing and even eliminating their use in schools. I would like to 
speak briefly about a rule adopted by the Georgia State School Board in 
July 2010 that prohibited the use of seclusion and most forms of 
restraint for all students in all of our Georgia schools.
    But first, let me speak briefly to one impetus for that regulation, 
which unfortunately was grounded in tragedy. In 2004, a boy named 
Jonathan King hung himself in a seclusion room in a Georgia school.
    I use his name because it has appeared in the press many times 
since his death, and his parents were staunch and very public advocates 
for the adoption of the rule in Georgia. Jonathan was 13 years old at 
the time of his death. He attended a regional special education program 
because he had a history of challenging behaviors. He attended the 
program for only 29 days, but during that time he was secluded 19 times 
for an average of almost 90 minutes, including on two different 
occasions when Jonathan was kept in seclusion for more than 7 hours.\5\ 
The seclusion room measured 8 feet by 8 feet and had dark paper 
covering the window. Jonathan's parents never knew he spent hours at a 
time in seclusion, because at that time in Georgia, parents did not 
need to be notified when these techniques were being used on their 
children. In Jonathan's case, when his mother would ask how his school 
day went, he did tell her that he had to go to timeout; she had no idea 
that meant that he was being kept in a separate locked room for hours 
at a time.
---------------------------------------------------------------------------
    \5\ Goodmark, C. (2010). A tragic void: Georgia's failure to 
regulate restraint and seclusion in schools. John Marshall Law Journal, 
3(2), 251-85. Retrieved from http://www.john
marshall.edu/academics/LawJournalPublications/A_Tragic_Void.pdf.
---------------------------------------------------------------------------
    The program that Jonathan attended was part of a statewide network 
of regional special education programs developed to educate students 
who cannot be served by their local school systems. As in many States, 
this network in Georgia is part of the continuum of services, offering 
comprehensive educational and therapeutic support services to students 
who might otherwise require even more restrictive placements, such as a 
residential program. In general, students in these programs have the 
special education classifications of severe emotional and behavioral 
disorders or autism, and the placement decision is made as part of the 
student's Individualized Education Program. More specifically, students 
with dangerous forms of aggression, high levels of self-injurious 
behavior, or out-of control tantrums would be referred to their 
regional programs.
    In 2007, the Georgia Department of Education (GaDOE), which 
provides administrative oversight to the regional alternative education 
programs, conducted a safety review of all programs and determined that 
the use of seclusion was not appropriate and the use of restraints had 
to be reviewed.
    In October 2008, GaDOE finalized Guidelines on the Use of Restraint 
and Monitored Seclusion, which were developed with stakeholder input 
and disseminated to school systems throughout the State. This new 
guidance applied to all special education students in Georgia, 
including those in the regional programs, and banned the use of 
seclusion and limited the use of restraints. While there were 
complaints at the time that the guidance was too prescriptive and was 
likely to create issues in student control, GaDOE received few 
complaints after the guidance went into effect. In fact, many of the 
regional programs reported decreases in the use of restraints in that 
some of their use involved students' resistance to being brought to 
seclusion. Of significance was that this guidance was implemented in 
the programs serving students with the most disruptive and difficult-
to-manage behaviors in the State.
    In 2009, the GaDOE began work to develop a State Education Rule 
that would regulate the use of seclusion and restraint for all 
students. This rule was distributed in draft form and revised based on 
stakeholder input from parents, advocates, teachers, administrators, 
superintendents, and school boards. The draft rule was presented at 
multiple public meetings across Georgia, was considered by the Georgia 
State Board of Education at a regular public meeting in May 2010, and 
was adopted in July 2010.\6\ The rule has the force of law in Georgia. 
In the 2-years in which it has been in effect, DOE has received few 
complaints about its implementation.
---------------------------------------------------------------------------
    \6\ Georgia Code 160-5-1-.35, Seclusion and Restraint for All 
Students. Retrieved from http://archives.gadoe.org/_documents/doe/
legalservices/160-5-1-.35.pdf.
---------------------------------------------------------------------------
    Seclusion was eliminated and restraints significantly limited 4 
years ago for special education students and 2 years ago for all 
students in all schools in Georgia. Over these 4 years, Georgia 
educators in public school programs serving children with the most 
significant behavioral challenges learned new, alternative ways to 
support these students, while keeping them, their peers, and their 
teachers safe. If Georgia schools can manage to make this transition, 
so can other States.
        it can be done--the example of children's mental health
    We have powerful examples of large systems that serve children 
making the transition away from the use of seclusion and restraint. 
Prominent among these is the transition in facilities and programs 
serving children with mental health concerns, where there are 
presumptively a large number of children in behavioral crises.
    In 1999, the then-titled General Accounting Office issued its first 
report on this subject in the context of mental health services \7\; in 
that same year, the National Association of State Mental Health Program 
Directors (NASMHPD) called for the prevention and elimination of 
seclusion and restraint in mental health facilities.\8\ In 2000, the 
Children's Health Act was passed which established protections for the 
use of restraint and seclusion with children in public and private 
general hospitals, nursing facilities, intermediate care facilities and 
other health care facilities receiving support from Federal funds. The 
law restricts restraint and seclusion to situations where the physical 
safety of the patient or a staff member is at risk, and requires close 
medical supervision when they are used. The law states that restraint 
and seclusion can only be imposed on an individual with the written 
order of a physician or other licensed practitioner that specifies the 
duration and circumstances under which the restraints may be used 
(except in specific emergency circumstances). Finally, the Children's 
Health Act requires that an adequate number of trained staff be 
available to evaluate patients and write treatment plans and that 
adequate training be provided to staff both in using restraints and in 
alternatives to the use of restraints.
---------------------------------------------------------------------------
    \7\ General Accounting Office, (September, 1999). Mental Health: 
Improper restraint or seclusion use places people at risk. Retrieved 
from http://www.gao.gov/archive/1999/he99176.pdf.
    \8\ National Association of State Mental Health Program Directors 
(NASMHPD), Position Statement on Seclusion and Restraint (July 13, 
1999).
---------------------------------------------------------------------------
    Over the past decade, children's mental health facilities have made 
the commitment and undertaken the training to enable them to reduce the 
use of seclusion and restraint.\9\ A major lesson learned in this 
transition within the field of children's mental health was that the 
use of restraint and seclusion in an individual facility came to be 
regarded more as a matter of ``culture . . . than clinical necessity.'' 
The related lesson was that changing culture requires more than words 
and good intentions; it requires leadership and a willingness to learn 
from one's experiences and to act accordingly.\10\
---------------------------------------------------------------------------
    \9\ Substance Abuse and Mental Health Services Administration 
[SAMHSA]. (2005). Roadmap to seclusion and restraint free mental health 
services. DHHS Pub. No. (SMA) 05-4055. Rockville, MD: Center for Mental 
Health Services, Substance Abuse and Mental Health Services 
Administration.
    \10\ ``Focus on the States--Pennsylvania Leads the Way in Reducing 
the Use of Seclusion and Restraint,'' NETWORKS, Summer 1999; 
``Seclusion and Restraint Debate Gains Momentum,'' NETWORKS, Summer 
1999.
---------------------------------------------------------------------------
    As a result of this transition, the Substance Abuse and Mental 
Health Services Administration (SAMHSA) has documented benefits from 
reducing restraint and seclusion. In its report, The Business Case for 
Preventing and Reducing Restraint and Seclusion Use,\11\ SAMHSA found 
that the shift created real cost savings within the system; these cost 
savings would likely translate to schools. Some of the costs associated 
with restraint and seclusion include lost work time (the teacher is not 
teaching when implementing these techniques), lost educational time 
(the student is not learning while being restrained or secluded), 
increased health costs, and increased workers compensation claims. 
Adding these costs to the trauma, injury, and even death that have 
occurred as a result of restraint or seclusion makes the case that 
these techniques are very costly to all involved. If America's 
children's mental health programs can manage to make this transition, 
so can our schools.
---------------------------------------------------------------------------
    \11\ Substance Abuse and Mental Health Services Administration. 
(2011). The business case for preventing and reducing restraint and 
seclusion use. HHS Publication No. (SMA) 11-4632. Rockville, MD: 
Substance Abuse and Mental Health Services Administration.
---------------------------------------------------------------------------
    supporting the transition--the need for training and technical 
                               assistance
    Seclusion and restraint are harmful and dangerous practices that 
lack empirical evidence to support their continued use. Their use is 
particularly problematic as there is an alternative, the approach 
called Positive Behavioral Interventions and Supports, which has a 
large and growing base of empirical evidence showing effectiveness with 
students in schools across Georgia and the Nation.
    I recognize that the shift away from using seclusion and restraint 
as behavior control strategies will take time, and schools will need 
support in this process. Statewide training efforts in positive 
behavioral supports, de-escalation, and crisis management will be 
needed; these are the positive alternatives to restraint and seclusion.
    There are, for example, more than 17,000 schools in the United 
States, including nearly 300 schools in Georgia, using Positive 
Behavioral Interventions and Supports with excellent outcomes. The 
benefits of Positive Behavioral Interventions and Supports include 
reduction in problematic and disruptive behaviors, increased academic 
achievement scores, and improved school climate and morale--all at 
significant savings in financial costs as well as the psychological 
wear-and tear on all involved.\12\
---------------------------------------------------------------------------
    \12\ Sugai, G., & Simonsen, B. (2012). Positive Behavioral 
Interventions and Supports: History, defining features, and 
misconceptions. Storrs, CT: Center for Positive Behavioral 
Interventions and Supports.
---------------------------------------------------------------------------
    Even as an emergency procedure, if restraint is used for repeated 
incidents of student disruptiveness, restraint has become a de facto 
component of a behavior plan. School personnel will require training to 
ensure that they are able to break the cycle of reacting to a behavior 
with physical restraint. One concern is that students may have learned 
to use their challenging behaviors to avoid demands or seek attention, 
and, thus, their behaviors may have become a form of communication for 
the student. Related to this, oftentimes behaviors that result in 
restraint are quite predictable, and, as such, many behavioral 
incidents are avoidable if the time is taken to understand the 
situations that trigger them. With this knowledge, trained personnel 
can use de-escalation techniques to prevent most incidents from 
becoming dangerous. This is a more humane and eminently safer method of 
handling difficult behaviors for all.
    I do wish to strongly recommend that training and technical 
assistance reflect the need for intensive and individualized supports 
for students with the most persistent and challenging behaviors. These 
supports are based on a three-step process--the first is understanding 
the challenging behavior by conducting a functional behavioral 
assessment, which documents triggers and contexts for behaviors in the 
school environment. The second and third steps are incorporated into a 
behavior intervention plan, which identifies strategies to prevent 
problem behavior and to teach positive alternatives such as social-
skills and self-regulation as replacement skills. It is critical that 
school personnel receive training and support in providing 
individualized positive behavior supports.
                                summary
    The issue of seclusion and restraint in schools has gained 
widespread attention in the last several years with numerous exposes, 
several government reports, and proposed Federal legislation. There is 
reason for concern, and a compelling need to address the problems 
raised by the use of seclusion and restraint as so-called therapeutic 
and educational interventions.
    While a growing number of States do have laws regulating the use of 
seclusion and restraint, these are still in the minority. And children 
continue to suffer the consequences.
    It can be done. Similar regulations have been in place in Georgia 
for almost 4 years now for students in special education and for 2 
years for those in general education settings. We are anticipating the 
first statewide data on implementation at the end of the summer. But, 
we do understand that initial implementation has gone smoothly and 
without significant problems or complaints.
    Most importantly, the problem needs to be addressed for students 
like Jonathan King. In doing so, it will contribute to improved school 
achievement by all students and enhanced morale for school personnel 
and families.

    The Chairman. Thank you, Dr. Crimmins.
    My hat's off to the State of Georgia for all you have done. 
This is true leadership. Thank you very much.
    Dr. George.

   STATEMENT OF MICHAEL GEORGE, DIRECTOR, CENTENNIAL SCHOOL, 
                         BETHLEHEM, PA

    Mr. George. Chairman Harkin, and Ranking Member Enzi, and 
members of the Senate HELP committee.
    I want to thank you for inviting me here today, and to 
speak with you on the important topic of seclusion and physical 
restraint in this country. With your indulgence, I would like 
to share a brief story that illustrates what I believe is 
possible in this area.
    The story begins 14 years ago, when I first arrived at the 
Centennial School of Lehigh University. As the new 
administrator, I was unsettled by the amount of violence I was 
witnessing at the School. Like many other day schools in this 
country for students with emotional and behavioral 
disabilities, Centennial students who misbehaved were 
physically escorted to one of two seclusion time-out rooms; 
rooms that were filled from the moment the school doors opened 
in the morning until school dismissed in the afternoon, and on 
most days, even longer.
    And again, like many other day schools in this country, the 
use of physical restraint was commonplace. During the first 20 
days of that school year, there were 112 physical restraints, 
usually basket holds involving two to three persons; loud, 
messy, and violent affairs that effectively shutdown any 
instruction occurring in the vicinity.
    Data I asked to have collected from the previous school 
year showed that the 76 students enrolled that year spent an 
average of 787 minutes per day in seclusion time-out and had 
been subjected to 1,064 physical restraints. Moreover, the data 
showed that there had been 31 assaults on teachers that year; 
16 of which were so serious, they resulted in referrals to law 
enforcement. In fact, police were called to the school 39 times 
that year because of violent and destructive behaviors, and 22 
teachers visited emergency rooms for injuries that occurred on 
the job. By the end of the first 40 school days of that school 
year, the number of physical restraints had more than doubled 
to 233.
    It was within that context that we began a process for 
transforming our school environment. We began with a vision of 
what we wanted the school to be like in the future, and then 
develop goals and procedures based on positive behavioral 
teaching approaches that would help us fulfill that vision. The 
results were nothing short of dramatic.
    During the last 40 days of school that year, only one 
physical restraint was conducted at the school. We closed one 
of the seclusion time-out rooms at mid-year. We closed the 
second one at the end of the year.
    In short, within 6 months with largely the same group of 
students and teachers, we went from conducting 233 physical 
restraints during the first 40 days of the school year to only 
1 physical restraint during the last 40 days of the school 
year. And effectively broke a 20-year trend of seclusion and 
physical restraint at the Centennial School.
    Today, physical restraints at the School are rare, and the 
restraints of today bear little resemblance to the restraints 
of 13 years ago, and probably would not even have been recorded 
as physical restraints back then. Students are seldom, if ever, 
secluded.
    Serious assaults of teaching staff are virtually 
nonexistent, and police are infrequent visitors to the 
building. As compared to 14 years ago, truancy is down by 50 
percent, and the rate of suspensions is down by 88 percent. The 
one thing that has not changed over all these years is the type 
of student we enter into the program.
    We have learned some important lessons from our experiences 
at Centennial School. The first is that as a field, we have the 
technical knowledge necessary to reform chaotic and violent 
school environments, and to end the over-reliance on seclusion 
and physical restraint. We learned that a positive teaching 
approach to student discipline, one that teaches and 
acknowledges pro-social behaviors, is more productive and 
efficient than the traditional punishment paradigms.
    A second lesson we learned is that institutionalizing the 
use of seclusion and physical restraint is more costly than 
reliance on positive behavioral teaching approaches, especially 
in terms of staff costs. Significant dollars are saved at 
Centennial School every year as we no longer hire crises staff 
or one-to-one aides to manage student behaviors.
    A third lesson we learned is that teachers are more likely, 
not less likely, to be seriously injured with the use of 
physical restraint. For example, during the year of over 1,000 
physical restraints, 82 percent of the 22 serious injuries to 
Centennial staff occurred as a direct result of physically 
restraining students. The next year as restraints declined, so 
did injuries to teaching staff.
    And a fourth lesson we learned from this experience is that 
students with significant emotional and behavioral 
disabilities, just like their nondisabled peers, wish to 
succeed in school. We learned that they can learn to make good 
choices. They can learn to manage their behavior if we, the 
adults, take the time to teach them to do so.
    I would like to end my testimony with the following 
observation: change is often the result of a new vision for 
doing some things differently than they have been done in the 
past. I believe the proposed legislation on seclusion and 
physical restraint sets forth a realistic vision for the future 
and harbors the promise for much-needed and meaningful change. 
And I wish to acknowledge Chairman Harkin and the members of 
this committee for their leadership in this important area.
    Thank you.
    [The prepared statement of Mr. George follows:]
                  Prepared Statement of Michael George
                                summary
    Dr. George's written testimony describes positive behavioral 
teaching approaches that led to a dramatic decrease and virtual 
elimination of the need for seclusion and physical restraint in a day 
school for children and youth with the most significant emotional, 
social and behavioral needs. Based on his experiences, he argues that 
the practices of seclusion and physical restraint are expensive, place 
teachers and students at risk for greater injury, and may contribute to 
the poor academic and social outcomes associated with children and 
youth with emotional and behavioral disabilities. George shares lessons 
he learned from his experience that may inform the current debate on 
the use and overuse of seclusion and physical restraint in our schools. 
He ends by advocating that Federal legislation would regulate the use 
of seclusion and physical restraint and hold school officials 
accountable for the use of the practices.
                                 ______
                                 
    Thank you for allowing me to be here today and share with you an 
account of my recent work and that of my colleagues at Centennial 
School of Lehigh University. My testimony today describes positive 
behavioral teaching approaches that led to a dramatic decrease and 
virtual elimination of the need for seclusion and physical restraint in 
a school for children and youth with the most significant emotional, 
social and behavioral needs; and shares lessons learned from the 
experience that may inform the current debate on the use and overuse of 
seclusion and physical restraint in our schools.
                 centennial school of lehigh university
    Centennial School is an Approved Private School, funded by the 
Commonwealth of Pennsylvania and governed by Lehigh University that 
serves children and youth classified with emotional disturbance and 
autism as defined under the Individuals with Disabilities Education 
Improvement Act.\1\ As an alternative to public school education, it is 
one of over 10,000 alternative schools in the country.\2\
---------------------------------------------------------------------------
    \1\ Individuals with Disabilities Education Improvement Act, Pub. 
L. No. 108-446 (2004).
    \2\ Carver, P.R. & Lewis, L. (2010). Alternative schools and 
programs for public school students at risk for educational failure: 
2007-08 (NCES 2010-026). U.S. Department of Education, National Center 
for Education Statistics. Washington, DC. Government Printing Office.
---------------------------------------------------------------------------
    Centennial School is unique in that it provides a well-documented 
case study on how the use of positive behavioral approaches can 
decrease and virtually eliminate the need for the practices of 
seclusion and physical restraint in a school that serves students with 
some of the most challenging emotional and behavioral needs.
    Students are commonly admitted to alternative schools, like 
Centennial, because their behaviors interfere with the learning of 
others; sometimes even after carefully planned interventions by well-
intentioned educators have been designed, implemented and ultimately 
proven unsuccessful. For many students, placement in alternative 
schools represents one final chance for meaningful help. One would 
hope, therefore, that alternative school education would do a better 
job of educating youngsters at-risk of failure than traditional public 
school settings. But all too often that is not the case.
    For nearly two decades researchers have raised concerns about the 
quality of education in self-contained settings: the paucity of 
academic curriculum, the over-reliance on behavior management, the lack 
of integrated mental health services, the poor connections with 
families and the lack of attention to transition services.\3\ There is 
little evidence of widespread improvement over the years. Today there 
is growing concern about the use and possible abuse of seclusion and 
restraint for controlling students' behaviors.
---------------------------------------------------------------------------
    \3\ Knitzer, J., Steinberg, Z., & Fleisch, B. (1990). At the 
schoolhouse door: An examination of programs and policies for children 
and youth with behavioral and emotional problems.
---------------------------------------------------------------------------
    The Centennial School stands as a testament to the benefits that 
accrue from the use of positive behavioral approaches as replacements 
for the practices of seclusion and restraint with children and youth 
with disabilities. There are many themes woven into the Centennial 
School story. It is a story about institutional change and the 
development of new arrangements for fulfilling the promises of a free 
appropriate public education for children and youth with behavioral and 
emotional disabilities; it is a story about changing the lives of young 
people and instilling in them hope for their futures. And finally 
Centennial is a story about the challenges facing educators today in 
meeting their responsibilities for implementing research-based 
practices that can lead to the creation of nurturing and caring school 
environments for serving some of the Nation's neediest youngsters.
                              the students
    Students who attend Centennial School are referred from 40 
surrounding local area school districts and range in ages from 6 
through 21 years. Local school districts refer students to Centennial 
School after a determination is made that their needs have not been met 
in previous placements that include the local school districts, 
Intermediate Units, residential treatment facilities, and hospitals. 
Children and youth who enter Centennial School have a wide range of 
learning problems but share one trait in common: chronic challenging 
behavior and score in the first percentile on behavior rating scales, 
meaning their behavior is more severe than 99 percent of the 
population.
    Some Centennial students enter directly from residential treatment 
facilities, like Trisha, a 10-year-old child with seven failed foster 
placements in her brief life; others like Thomas, come by way of 
Intermediate Units (i.e., specially designed service options for low-
incidence populations), and others, like Carlos, come from other 
alternative schools. Nearly every student who comes to Centennial 
School has been physically restrained and placed in seclusion time-out, 
often repeatedly, in their previous settings.
    Centennial School serves about 100 students and their families 
during the course of the school year at an annual tuition rate of 
$39,700. The ethnic profile of the student body reflects the 
surrounding community at large; the majority of students are Caucasian 
with about 13 percent African-American, and 11 percent Hispanic 
American. This year, about 42 percent of the students receive free and 
reduced lunches, although in some past years the percentage has 
exceeded 80 percent. Upon entry to Centennial School, nearly all of the 
students when asked will indicate their hatred of school.
                            problem defined
    In 1997-98 data show that Centennial School staff relied heavily on 
the use of seclusion and physical restraint as a response to violence 
within the school setting, a trend that can be traced back by word of 
mouth for the previous 20 years.\4\ Not unlike practices at many other 
alternative schools for children and youth with emotional and 
behavioral disabilities, the 76 students in attendance that year were 
physically restrained 1,064 times, typically with basket holds, 
involving two to three adults. Afterwards, students were physically 
escorted to a time-out room. Time-out was conducted in one of two, 
locked time-out rooms that were occupied as soon as the schoolhouse 
doors were open in the mornings until the final bus pulled away in the 
afternoons. Such methods continue to be employed and in some cases 
routinely employed in alternative schools around the country today 
because many professionals in the field believe them to be helpful.\5\
---------------------------------------------------------------------------
    \4\ These were not mean spirited people. They were dedicated 
individuals who believed they were implementing best practices and 
working with the best interests of students and families in mind while 
seeking to ensure a safe environment in the school. In fact, they had 
been trained to conduct restraints only when students' behaviors were 
an imminent danger to themselves and others and there certainly was 
much violent student behavior to which they felt they needed to 
respond, including 31 assaults against teachers that year. As one 
administrator said, ``This is the way you have to work with these 
children.''
    \5\ Those who believe seclusion and restraint to be helpful use the 
term therapeutic and would disagree with the term ``punishment''. 
Although I've met many administrators who view seclusion and restraint 
as therapeutic, I've never met a student who did. See Fogt, J.B., 
George, M.P., Kern, L., White, G.P., & George, N.L. (2008). Physical 
restraint of students with behavioral disorders in day-treatment and 
residential settings, Behavioral Disorders, 34, 4-13.
---------------------------------------------------------------------------
    One result of the nearly six physical restraints each day was that 
the noise level in the school setting was loud, punctuated with intense 
or screaming voices, pounding on the time-out room walls, slamming of 
doors, and frequent shouts of ``crisis'' from teachers and other 
support personnel. According to the data collected that year, the high 
usage of seclusion and physical restraints did not decrease the need 
for those practices in the future.
    Accompanying the high levels of seclusion and restraint were high 
rates of police involvement, suspensions, and emergency 
hospitalizations. Vandalism to the building was commonplace as was 
destruction of classroom equipment and materials. Truancy was high as 
were staff absences from work.
    The school was densely staffed with 71 adults, nearly 50 percent of 
them males, a hiring practice adopted in part because of the high 
frequency of seclusion and restraint.\6\ Included in that number were 6 
crisis staff, 11 one-to-one aides and 5 mental health workers hired to 
assist with particularly violent children. One elementary classroom, 
for example, was comprised of six children and six adults.
---------------------------------------------------------------------------
    \6\ A former Centennial teacher whom I recently met told me that he 
was hired to stand at the door to keep students in the room.
---------------------------------------------------------------------------
    A token economy was in place but students seldom carried point 
sheets. Students didn't complete homework; nor were they much engaged 
in academic tasks at school.\7\ Parents seldom entered the building and 
when they did, it was primarily for disciplinary meetings or for annual 
Individualized Education Program (IEP) meetings.
---------------------------------------------------------------------------
    \7\ Time on task data averaged approximately 11 to 13 percent 
across classrooms.
---------------------------------------------------------------------------
    The year I arrived at the school, 1998, began very much like the 
one before it. During the first 20 days of school, 112 physical 
restraints were conducted. By the end of the first 40 days, the number 
of physical restraints was up to 233. If left unabated the rate of 
restraints would have easily exceeded 1,000 for yet another school 
year.
                           school-wide change
    Fundamental to the change process was creation of a new vision and 
goals for the school and the development of a team process for 
assessing the school environment, introducing research-based practices, 
evaluating implementation, and making adjustments for improving 
outcomes, when necessary, a process that remains in place to this day.
    The team was encouraged to envision a welcoming and caring school 
environment that students would be eager to attend; where students 
would speak politely to teachers, encourage one another, make friends, 
complete schoolwork and even complete homework. Teachers were asked to 
envision the type of environment in which they would like to work and 
to describe how they would like to be treated by the students as well 
as by their colleagues. They were exhorted to examine current practices 
and how those practices might be inadvertently contributing to the very 
problems they came to work everyday to solve.
    The team discussions eventually resulted in a new vision for the 
school, ``to make Centennial School a place where students, parents and 
teachers want to be and where they can learn new skills that would 
benefit them now and into the future.'' Given the circumstances at the 
time, the vision was ambitious; but having a vision of the future 
helped to unify staff commitment to change and had other advantages as 
well.
    To make the achievement of the vision a reality, staff committed to 
the accomplishment of three goals: (a) To develop an engaging and 
stimulating curriculum, (b) to create a safe, civil learning 
environment, and (c) to include parents as partners in their children's 
education.\8\ Success in meeting the goals would be measured by a 
decrease in episodes of seclusion and physical restraint.
---------------------------------------------------------------------------
    \8\ U.S. Secretary of Education Richard Riley had recently proposed 
the three objectives as worthy pursuits for America's public schools at 
the First White House Conference on Mental Health in 1999.
---------------------------------------------------------------------------
    The next 8 months witnessed the gradual introduction of a number of 
research-based behavioral strategies, data collection systems for 
monitoring the effectiveness of those strategies, and modifications to 
the organizational structure for supporting the new practices. Included 
below are brief descriptions of the major components of the new 
program, not all of which were implemented during the first year, by 
the way.
             beliefs, roles and establishing a new culture
    We began by changing our beliefs about students. Rather than 
viewing the students as incapable or unwilling to behave in school, 
Centennial teachers now talk about students as learners who can meet 
the expectations set for them; who can think before they act, who can 
make positive changes in their lives, who can learn to manage 
themselves, and who can be held accountable, once they have been taught 
to do so. Perceiving students as capable learners who can make good 
choices in social situations is beneficial and productive from an 
educational perspective as it lends itself to the process of teaching.
    Teachers strive to make Centennial School the most rewarding and 
enjoyable part of a student's day. School is to be a place where 
students experience success, build relationships and have fun.
    Centennial teachers build on students' strengths, reinforcing the 
behaviors they wish to see occur more frequently in the future. So, for 
example, rather than focus on cursing and administer punishments in an 
attempt to eliminate it, teachers acknowledge polite statements 
students make in an effort to increase the likelihood the behavior will 
occur with greater frequency in the future.
    Centennial teachers understand that behavioral change sometimes 
takes a long time and are encouraged to take the long view of the 
change process. Teachers are encouraged to think about students as the 
successes they will be in the future and not as the failures they have 
been in the past. Teachers refer to students who are experiencing 
behavioral difficulties as ``works in progress'' and treat misbehaviors 
as correctable errors. Teachers understand that the best approach is 
one of ``gentle pressure, relentlessly applied.''
    Centennial teachers are mindful of the importance of language. 
Centennial teachers strive to use only positive or neutral statements 
when teaching lessons \9\ and practice stating directives positively, 
telling students how to succeed.
---------------------------------------------------------------------------
    \9\ An example of a neutral statement is, ``Open your book to page 
27.'' A positive statement is an affirmation or acknowledgement of 
something done well, for example, ``Good job raising your hand to ask a 
question.''
---------------------------------------------------------------------------
    Teachers praise students publicly and prompt, correct, and warn 
students privately.
    Centennial teachers avoid the use of sarcasm at all times and 
commit to never speak disparagingly about students and parents or even 
their co-workers.
    Teachers shake hands with students when they meet them for the 
first time, just like they would do if introduced to them in the 
community.
    Centennial teachers value teamwork and collegial support: they 
observe one another in class, share data on one another's classroom 
performances, and strive for consistency with one another in the 
implementation of school-wide, class-wide and individualized 
interventions.
    Teachers understand that a good day is one when they faithfully 
follow the procedures that are in place because that is the one thing 
over which they have full control.
    Centennial teachers know they make positive differences in the 
lives of children. They collect student performance data that tells 
them so.
                  engaging and stimulating curriculum
    Teaching proper school and classroom behavior within the context of 
sound academic curricula is the most ``sacred'' thing Centennial 
teachers do in the day. The academic curriculum supplies the milieu for 
teaching proper school and classroom behavior and is designed to be 
accessible to the students, to stretch their skills, and to capture 
students' interest and cause them to be actively engaged.
    Centennial School teachers ascribe to the belief that a rich and 
engaging academic curriculum helps prevent the occurrence of problem 
behaviors and also prepares students for reintegration to home school 
environments. Centennial teachers use research-based teaching practices 
that include matching curriculum to students' functioning levels, 
systematic analyses of student error patterns, positive error 
correction, frequent feedback, high rates of active engagement and 
praise, systematic progress monitoring and a tenacious pursuit of 
mastery learning.
    Because Centennial School is a special education program, the 
general education\10\ curriculum and instruction are modified for every 
child. Common modifications include small group instruction, task-
analysis of content, individual pacing, alterations to the length of 
assignments, extended deadlines for completion, pre-
correction strategies, classroom agendas, clear expectations for 
performance, one-to-one assistance, peer tutoring, and cooperative 
learning. Students are provided frequent opportunities for practice 
until they reach mastery of their IEP goals. Students who experience 
difficulty in completing academic assignments are supplied with 
modified work schedules that may include additional breaks throughout 
the school day as well as the opportunity, at times, to make choices 
about how, what, and where they learn within the building.
---------------------------------------------------------------------------
    \10\ Centennial adheres to Pennsylvania Curriculum Standards. The 
methods of teaching the Standards are what is modified, not the 
standards themselves.
---------------------------------------------------------------------------
    Teachers plan daily lessons and use a direct instruction (di) 
format that allows for the systematic delivery of instruction with an 
emphasis on the active engagement of students.\11\
---------------------------------------------------------------------------
    \11\ The lesson plan format is divided into nine components: (a) 
classroom management, (b) advanced organizer, (c) teaching objective, 
(d) teaching segment, (e) modeling, (f) guided practice, (g) 
independent practice (h) closure, and (i) formative and summative 
assessments.
---------------------------------------------------------------------------
    Academic progress is routinely tracked using curriculum-based 
monitoring. Students who ``stall'' or fail to make anticipated progress 
are provided additional supports and alternative strategies.
    Because completion of academic assignments is crucial for school 
success, students are held accountable for their schoolwork. Centennial 
teachers understand that students sometimes engage in disruptive and 
otherwise inappropriate behavior to avoid academic tasks and that 
allowing students to escape work through inappropriate behavior serves 
to reinforce poor behavior. Centennial students are taught that 
unsatisfactory conduct in class does not release them of their 
responsibility for work completion.
    Centennial teachers assign homework for academic classes, teach 
homework skills and provide assistance on homework assignments during 
study hall periods. Homework is an important element for school 
success, especially because it is expected in the home schools upon 
students' return.
                  safe, and civil learning environment
    Centennial School uses a positive and proactive approach for 
teaching classroom and school behaviors, with an emphasis on teaching 
self-control and responsibility. The system is grounded on the 
assumption that all children and youth can learn courteous and 
respectful ways for meeting their needs and obtaining their goals. The 
key of course is teaching them.
                       school-wide interventions
    Centennial School employs a school-wide behavior intervention 
system designed to prevent and thus reduce the likelihood of serious 
behavior problems in the school setting.\12\ Expectations for student 
conduct are clearly defined and communicated and consequences for rule-
violating behavior are likewise clearly defined, taught, and applied 
consistently. Problem solving and social skills instruction are 
integral aspects of the curriculum and are designed to teach students 
the proper strategies for succeeding in school and in life.
---------------------------------------------------------------------------
    \12\ Horner, R.H., & Sugai, G. (2000). School-wide behavior 
support: An emerging initiative. Journal of Positive Behavior 
Interventions, 2(4), 231-32.
---------------------------------------------------------------------------
    The Centennial school-wide intervention system is The Take Five 
Program, modeled after the nationally recognized High Five Program of 
Fern Ridge Middle School in Veneta, OR.\13\ The Take Five Program 
consists of three tiers of interventions and offers a positive approach 
to school discipline. The ``Take Fives'' inform students of social 
behaviors in the following areas:
---------------------------------------------------------------------------
    \13\ Taylor-Greene, S.J., & Kartub, D.T. (2000). Durable 
implementation of school-wide behavior support: The high five program. 
Journal of Positive Behavior Interventions, 2, 233-35.

    <bullet> Be There--Be Ready
    <bullet> Be Responsible
    <bullet> Be Respectful
    <bullet> Keep Hands and Feet to Self/Maintain Personal Space
    <bullet> Follow Directions

    Each of the Take Five expectations is defined in accordance to the 
specific settings in which the student performs. The Take Five Program 
incorporates the use of a token economy as part of its reinforcement 
plan. Students are taught proper conduct and reinforced for following 
the expectations with praise and acknowledgements and the use of Take 
Five tickets that can be exchanged for privileges or items at the 
school store.
                        class-wide interventions
    Class-wide interventions are those elements that differ by program, 
that is, elementary, middle and high school programs. Point sheets are 
one example of a class-wide intervention. The Steps to Success system 
(a level system) is another, as is the format and presentation of 
social skills instruction.
    Students at Centennial School carry point sheets \14\ throughout 
the day. The point sheet lists goals from the student's IEP along the 
left-hand column and spaces to the right of the goals for rating the 
child's performance across the school day. Feedback and points are 
provided at the end of every period, thereby providing quick, 
immediate, and private feedback on performance. As students progress 
through the program they eventually take responsibility for rating 
their own behavior and completing their point sheets.
---------------------------------------------------------------------------
    \14\ Dr. Nancy George, Behavior and Training Specialist at Bucks 
County Intermediate Unit, was instrumental in the design of the 
Centennial School token economy system.
---------------------------------------------------------------------------
    Students earn points for meeting school and classroom expectations 
and start every class period with zero points. They do not lose points 
for misbehaviors rather they earn points for appropriate behaviors. 
Every activity at the school is tied in some manner to the point 
system, and because the point system structures teachers' as well as 
students' conduct, it may well represent the most powerful tool for 
modifying behavior in the school.
                      individualized interventions
    Positive Behavior Support Plans comprise the third component of the 
Centennial school-wide intervention system. Positive Behavior Support 
Plans are developed to address the individual needs of students with 
chronic and challenging behaviors. Positive Behavior Support Plans are 
grounded in Functional Behavior Assessments that identify the 
antecedents and consequences associated with the problem behavior. 
Program teams, that may include the parent, develop Positive Behavior 
Support Plans for students who fail to prosper under the school-wide 
and class-wide intervention systems and thus require more intensive 
supports to succeed in school. Positive Behavior Support Plans consist 
of: (a) antecedent and prevention strategies, (b) behavior replacement 
strategies, (c) positive consequences, and (d) reduction-oriented 
procedures and are included as part of students' Individualized 
Education Programs. Teachers use performance data to monitor the 
effectiveness of the Positive Behavior Support Plans.
    Centennial teachers manage low-level misbehaviors in the classroom 
so as to decrease the likelihood of behavior escalation, based on the 
notion that the best way to manage ``crises'' is to prevent them from 
occurring in the first place. Low-level misbehaviors are minor peer 
provocations, cursing, side talking, talk-outs, and other off-task 
behaviors that tend to disrupt a class (e.g., tapping pencils, out of 
seat, disrespectful verbalizations). When confronted with minor 
misbehavior, teachers employ a specific sequence for managing it that 
includes a review of expectations for success prior to every class 
period, and the use of the ``good model'' procedure.\15\ Public praise 
for appropriate behavior and private reminders or prompts for 
correcting inappropriate behavior are also used as are prompts to 
``take time'' for students who are showing signs of frustration. 
Persistently disruptive students are asked to report to the program 
coordinator's office for ``problem solving.''
---------------------------------------------------------------------------
    \15\ The good model procedure allows teachers to remain positive 
when low-level misbehavior occurs during the lesson by ignoring the 
student who is engaging in the misbehavior and praising classmates who 
are behaving appropriately.
---------------------------------------------------------------------------
    Taking time is a strategy for managing frustration. Taking time 
allows students to voluntarily remove themselves temporarily from 
instruction, regain composure, and try again. Students may take as much 
time as they require before returning to the assigned task. Teachers 
explain the rationale for ``taking time'' and teach students the 
``taking time'' process prior to instruction and issue verbal praise 
when students use the taking time procedure appropriately.
    A second strategy taught to Centennial School students for managing 
frustration and anger management is to raise their hand and ask for 
help. Students are taught that there is no reason to become angry at 
Centennial School, and that all they need to do is to ``Raise your hand 
and a teacher will be there immediately to assist you.''
    At Centennial School, problem solving is used in lieu of office 
discipline referrals. Students asked to leave class for persistent low-
level misbehavior or episodes of more serious misbehavior are directed 
to problem solving, the purpose of which is to teach students to use 
polite words instead of aggressive or violent behaviors to resolve 
problems and to return students to instruction in the classroom as 
quickly as possible. When students return to the classroom, teachers 
welcome them back and enter them immediately into the curriculum.
    Centennial teachers use a procedure for handling violent and 
aggressive behavior in a manner designed to ensure safety and preserve 
students' dignity. The procedure is similar to many other crises 
prevention procedures. For example, when students are about to fight, 
teachers are taught to quickly assess the situation and attempt to make 
the situation safe by using a calm voice and giving a simple direction, 
(e.g., ``Back away from one another,'' or ``Both of you, put your hands 
to your sides''). Teachers are instructed to not grab or touch the 
student as doing so likely adds emotional charge to the situation and 
usually results in greater violence. Instead, teachers are taught to 
give choices, (e.g., ``Back away from one another or you will have to 
go to the office,'' or ``If you fight, you will be suspended.'') 
Teachers then give three part directions, telling the students (a) 
where to go, (b) for how long, and (c) what will happen afterwards. 
Students are reminded that if they follow the directions they will 
avoid serious consequences, such as suspension from school or in some 
cases referrals to law enforcement.
    Teachers receive formal training annually in techniques for 
managing low-level misbehavior and preventing more serious misbehavior 
following the principles of Professional Assault Crisis Training 
(ProACT).\16\
---------------------------------------------------------------------------
    \16\ Fox, L.E., Johnson, L.M., Nihart, M.A., & Smiar, N.P. (2006). 
Professional assault crisis training. Pro-ACT, Inc.
---------------------------------------------------------------------------
                          parents as partners
    Centennial teachers understand that cultivating parent support 
begins by recognizing that parents are the experts on their children 
and have gained that information over a longer period of time than 
school officials could ever hope to do. Centennial teachers show great 
respect for parent's opinions, privacy, background, and dignity and 
rely on them for support in working with their child.
    Centennial's philosophy about parents' participation in their 
children's education is captured through procedures in a number of 
areas. Some of these areas include the following:

    Strength-based intake procedures
    Parent and Student Handbook
    Parent Resource Library, and
    Parent contacts

    Strength-based Intake: Intake meetings gather information about the 
child, including the Individualized Education Program, Re-evaluation 
Reports, performance data, if it exists, and the student's personal 
goals. Parents are a valuable source of this initial information. 
Teachers query the youngster and family members about the student's 
skills and strengths and discuss how those traits might benefit the 
student in the new setting. As important, detailed program information 
is provided the student and accompanying family members during the 
initial intake. Although the intake procedures have changed over the 
years, the criteria for entry into the program have not.
    Parent and Student Handbook: The Parent-Student Handbook describes 
the expectations and procedures for working successfully together 
during the year and includes various resources available to parents for 
accessing additional support if it is needed, including contact 
information for local and regional advocacy groups. The handbook 
procedures are also posted on the Centennial School Web page.
    Parent Resource Library: A parent resource library called the 
``Parent Corner'' is located in the foyer of the school. Here parents 
can find a multitude of materials from different sources, including 
many that are published by the Pennsylvania Department of Education, 
Federal agencies, and advocacy groups.
    Parent Contacts: Parents and guardians are contacted daily. The 
point sheet contains a space for teachers to write brief notes to 
parents and guardians and a space for a response and is sent home 
daily. Parents are encouraged to use the point sheet as a communication 
tool.
    Centennial teachers contact parents by telephone a minimum of one 
time every week to share students' academic and behavioral progress and 
to provide reminders about homework assignments and upcoming school 
events.
    Teachers respond within 24 hours if not sooner whenever a parent 
contacts the school by telephone or e-mail.
    Parents also receive telephone contacts whenever a physical 
restraint is conducted. A meeting is scheduled within 10-days for 
reviewing the student's IEP, including the Positive Behavior Support 
Plan, to determine whether the plan was followed and if the plan was 
followed whether the student needs a new functional behavioral 
assessment, a modified plan, or a change of placement to address the 
behavior of concern as specified in the Pennsylvania Public School 
Code.\17\
---------------------------------------------------------------------------
    \17\ Chapter 14: Special education services and programs. (2001). 
Pennsylvania Bulletin, 31, 3021-33.
---------------------------------------------------------------------------
    A Communication Log is maintained for every student in the program. 
Entries in the log include notes from telephone conferences with 
parents, Local Education Agency personnel, and representatives from 
other community agencies.
    When communicating with parents about students' academic and 
behavioral progress, teachers focus on what they are doing to assist 
the child and describe the interventions employed on behalf of the 
child as well as the child's performance in relationship to those 
interventions. Discussions may center on interventions at the school-
wide, classroom or individual levels.
    Teachers are encouraged to refrain from focusing on a student's 
negative behaviors when contacting parents, as this type of 
communication is redundant. Parents are already aware of their 
children's challenging behaviors as those behaviors supply the reasons 
the child was referred to Centennial School in the first place.
    Focusing on interventions designed to assist students sends the 
clear message that Centennial School is taking meaningful action to 
help improve the child's school performance.
                    new organizational arrangements
    New organizational configurations support the expectations and 
program procedures that were introduced to the school environment. To 
this day the school team examines everything done in the school; if an 
activity supports the vision of making Centennial a place where 
students want to be, the activity or procedure is retained, even though 
it may have been modified from its original form. If the activity does 
not support the vision and goals, it is eliminated.
    Policy Handbook: The Centennial School Policy and Procedure 
Handbook provides teachers with specific procedures achieving the 
school's vision and goals. The handbook is revised annually with input 
from the teaching staff to ensure its alignment with current practice.
    Teacher Teams: Teacher teams \18\ replace the traditional one-on-
one teacher-aide model that was originally employed at the school. 
Teams consist of teachers \19\ led by a program coordinator. Teacher 
teams meet weekly to discuss student progress and review data. Every 
member of the team is apprised of each student's individual Positive 
Behavior Support Plan.
---------------------------------------------------------------------------
    \18\ Mr. John Tommasini, assistant director at the time, now 
director of the Bureau of Special Education of the Commonwealth of 
Pennsylvania was familiar with the literature on the subject of one-on-
one teacher aides and provided the fiscal support and encouragement for 
this innovation to occur. The only condition he asked for was data at 
year's end showing its advantages.
    \19\ At Centennial School most teachers are graduate students who 
attend classes at Lehigh University.
---------------------------------------------------------------------------
    The use of teams with members who are knowledgeable of students' 
programs eliminates the need for hiring substitutes \20\ when staff 
absences occur and adds to consistency in the implementation of 
students' programs.
---------------------------------------------------------------------------
    \20\ Substitute teachers have not been used at Centennial School 
for the past 13 years.
---------------------------------------------------------------------------
    In addition to weekly team meetings, other meetings called 
staffings are convened for the specific purpose of conducting 
functional behavior assessments and revising Positive Behavior Support 
Plans for students who require additional assistance to succeed. 
Staffings may be held at anytime but are convened automatically under 
certain conditions: for example, point earnings fall below expectancy 
for 3 consecutive days, suspensions for 3 days over a 2-week period of 
time, or anytime law enforcement is involved.
    A major component for the adoption and sustainability of the 
practices employed at Centennial School is the professional development 
program. Professional development consists of collaborative, active 
learning opportunities that occur weekly.\21\ Professional development 
at Centennial School emphasizes the school's guiding assumptions as 
well as the teaching and professional behaviors that comprise the 
school's culture. Most of the topics presented during professional 
development episodes are included within the Centennial School Policy 
and Procedures Handbook.
---------------------------------------------------------------------------
    \21\ Once again, Mr. Tommasini was instrumental in helping 
Centennial achieve the necessary modifications to the school calendar 
that could allow for a half-day every week for professional development 
and yet remain within State regulations.
---------------------------------------------------------------------------
    Career Ladder: A career ladder was instituted that permits teachers 
who have successfully acquired their Masters' Degree to continue with 
Centennial School in the role of Lead Teachers. There are now four 
levels of employment among Centennial teachers: teacher associate, 
teacher intern, lead teacher, and program coordinator. Lead teachers 
assist with the mentoring and training of interns \22\ and associate 
teachers. Because they tend to remain with the school for a number of 
years, Lead teachers add greatly to program consistency and continuity. 
They usually take coursework in the educational leadership program at 
Lehigh University.
---------------------------------------------------------------------------
    \22\ Teacher interns hold Bachelor's Degrees along with 
Pennsylvania certification in special education and teacher associates 
hold Bachelor's Degrees but not certification in special education.
---------------------------------------------------------------------------
    Mentors: Every new teacher to the program has a mentor. Mentors 
serve multiple purposes, for example, transmission of the school 
culture, dissemination of technical information, and as models for 
teaching practices. Lead teachers mentor the teacher interns and 
associates; program coordinators mentor the lead teachers, and the 
Director mentors the program coordinators.
    School Committees: School committees plan and conduct work in the 
school that otherwise might go unheeded. Presently, there are 16 
ongoing committees at the school that plan and conduct work in areas 
such as Middle States Accreditation, athletic events (e.g., field days, 
Hoops for Heart, Special Olympics), budget, special events (e.g., Open 
House, Honor Roll Breakfasts), spirit days, bullying prevention, 
transition and graduation, technology, hiring, and the annual talent 
show, carnival and 5K Race and Walk Fundraiser, as well as staff social 
events.
    Evaluation: Centennial uses formative evaluation for improving the 
performance of its personnel that is ongoing and supplies corrective 
feedback as issues arise. Such feedback is referred to as ``gifts'' at 
Centennial School--gifts of competence given to help teachers reach 
success.
    Centennial School also employs a 360-personnel evaluation system 
that allows teachers the opportunity to give performance feedback to 
supervisors. The evaluation instrument was developed by the program 
coordinators in conjunction with Lehigh professors \23\ and solicits 
information about supervisors' performances in the following areas: (a) 
organizational management, (b) supervision, (c) training, (d) 
communication, (e) leadership, and (f) student management. Personnel 
supervised by the director submit their evaluations to the Dean of the 
College of Education, the director's supervisor.
---------------------------------------------------------------------------
    \23\ Dr. George White of Lehigh University provided the guidance 
and leadership for this initiative.
---------------------------------------------------------------------------
                      celebrations and ceremonies
    Awards Ceremonies: Centennial School celebrates the success of 
students in a number of demonstrable ways. For example, each program 
conducts weekly Awards Ceremonies that are open to parents and other 
guests. During award ceremonies, students receive recognition for 
academic growth, behavioral competence and improved social development. 
Some of the awards granted are for Student of the Week, Most Improved, 
Parent Involvement, Community Participation, Academic Award, Above and 
Beyond, Homework, Perfect Attendance, Model Employee, Teamwork, and 
Athletic Awards.
    Honor Roll: Students are also recognized for academic excellence 
and achieving the Honor Roll. The Honor Roll requires students to 
achieve a minimum of 3.2 (of 4.0) and an overall grade point average 
with a letter grade of ``B'' in every subject (on work at the 
instructional level), with no truancies or suspensions from school 
during the entire quarter. Honor Roll is celebrated at a breakfast with 
teachers and families in the school library. The ceremony is well 
attended and it is not uncommon for every recipient to have a family 
member present.
    Graduation Ceremony: Centennial School celebrates the annual 
graduation of its seniors with a formal ceremony in the gymnasium. 
Although students may also participate in the graduation Ceremonies of 
the resident districts, if they choose, Centennial takes time to bring 
parents and the extended families together to celebrate students' 
accomplishments and formally transition them to their futures.
    Other events and ceremonies, such as the annual Talent Show, 
Carnival, 5K Race and Walk, and ``Spirit Days'' are interspersed 
throughout the year, help to ``normalize'' the students' school 
experiences and bring parents and faculty together.
    Re-integrations and Transitions: Centennial successfully re-
integrates an average of about 14 percent of its student population to 
their home school districts. A student's return to the less restrictive 
environment is a joint decision made between parents and district 
officials with a recommendation from the Centennial School team. In 
general students are quite successful upon their return and some go on 
to do some remarkable things. Jon, for example, who entered Centennial 
School from a residential facility, returned to his home school 
environment to pass all of his senior classes, participate on the 
wrestling team and attend the school's prom. Alex, upon his return to 
his middle school enrolled in accelerated algebra and readily became 
indistinguishable from his non-disabled peers. Jose maintains his home 
school success after 5 years and in addition to passing all of his 
subjects, plays the violin in the high school orchestra, an instrument 
he learned to play during his elementary years at Centennial School. 
There are many more such success stories.
                            outcomes: year 1
    By the end of 1998-99, the first year of restructuring, episodes of 
seclusion and restraint had decreased dramatically. The number of 
minutes of seclusion time out for the 79 students in attendance 
decreased by approximately 77 percent, from a high of 15,774 minutes of 
seclusion time-out during the first 20 days of school to 3,627 during 
the final 20-day period.\24\ The number of physical restraints 
decreased by 69 percent as compared to the previous year, (1064 to 327 
physical restraints). There were no physical restraints during the 
final 20 days of the year, even though the student population was 
nearly the same as the year before.\25\
---------------------------------------------------------------------------
    \24\ School-wide data graphs were compiled every 20 days because of 
Pennsylvania's 180-day school year.
    \25\ Eighty-three percent of the student body was the same as the 
year before when there were 1,064 physical restraints.
---------------------------------------------------------------------------
    Viewed another way, during the first 40 days of 1998-99 there were 
233 episodes of physical restraint. During the final 40 days only one 
physical restraint was conducted. The student population was largely 
the same throughout the year.
    One of the time-out rooms was closed at mid-year and converted to a 
supply closet; at year's end, the second time-out room was closed and 
converted to the school store and was filled with trinkets, notebooks, 
paper, pencils, snacks, and other items that students could purchase 
with points they earned for meeting school and classroom expectations. 
In a span of just over 6 months, a 20-year pattern of seclusion and 
physical restraint was broken.
 centennial school: a place students, families and teachers want to be
    Subsequent years witnessed the tenacious pursuit of the school's 
vision and goals through steadfast implementation and refinement of 
positive behavioral strategies. To ensure continuity and maintenance of 
the school's mission, organizational structures as described previously 
were gradually modified to accommodate new procedures and practices. 
For more than a decade, Centennial School has indeed transformed into a 
school where students, parents and faculty are eager to come to learn 
new skills that can benefit them now and into the future.
    Students new to the school enter an environment governed by a 
three-tier system of school-wide positive behavior supports where 
expectations for achieving success are clearly known to students and 
faculty alike. Parents and other visitors upon entering the building 
often remark on the orderly and calm atmosphere, especially visitors 
from other alternative schools, who come to learn about the educational 
practices at the school.
    The school is brightly decorated with student work covering the 
walls. The 12 classrooms reflect a singular focus on academics and are 
well supplemented by technology: SMART boards, iPads, iPods, laptop and 
desktop computers.
    Students are actively engaged in academics throughout the day. They 
complete homework. They talk about ``making their days'', meaning they 
have met the expectations held of them. They can identify the day and 
step they are on in the Steps to Success system (i.e., a level system) 
that helps inform them of their progress. They talk about their future 
goals. They appear genuinely proud of their academic achievements.
    As important perhaps, students at Centennial School talk about 
their friends at the school, a topic of conversation that is atypical 
for children and youth with behavioral and emotional disabilities.
    Centennial students speak politely to teachers and at times even 
praise them. Guests often comment on the polite discourse among those 
in the school. One State Education Agency official, for example, who 
visited the school, observing classes and meeting students, asked 
repeatedly during his visit, ``Are there any children with disabilities 
here?''
    Last term 30 students earned Honor Roll and attended the Honor Roll 
Breakfast Celebration along with their parents and guardians. Earning 
the Honor Roll is a challenge, especially for students with histories 
of chronic behavior problems in schools. Nearly all of the parents 
attend this important event; they almost always do.
    Parents and teachers communicate frequently, sometimes daily. Most 
of the contacts are positive in nature with teachers sharing stories of 
success. Parent support is judged to be quite strong; for example, 52 
percent of Centennial families attended the Spring Open House despite 
long distances and economic stressors.
    Teachers speak \26\ of the support they receive from their 
colleagues, the positive environment, the dynamic teamwork, and the joy 
from teaching the students. Teachers often arrive early and often stay 
late. Staff absences are at an all time low.
---------------------------------------------------------------------------
    \26\ Annual ``One Thing Survey'' wherein teachers anonymously list 
the one thing they like best about their job at Centennial School, the 
one thing they like least about their job, and the one thing they would 
change about their job at the school.
---------------------------------------------------------------------------
                            lessons learned
    A number of lessons emerge from the Centennial School experience. 
Perhaps one of the most encouraging lessons is that as a field we have 
the technical information necessary to reform chaotic school 
environments and to decrease and perhaps eliminate the use of seclusion 
and physical restraint from our schools. The practices adopted at 
Centennial School are contained in the present body of literature and 
are no farther away than a few mouse clicks on the World Wide Web. 
Moreover, this past May, the U.S. Department of Education published an 
excellent overview of the practices as well as guidelines for school 
officials to follow so that seclusion and restraint are unnecessary 
\27\; and as chronicled in this report, the practices are not highly 
specialized nor arcane but well within reach of professionals. To use 
the words of Douglas Reeves, founder of the Leadership and Learning 
Center,\28\ ``the practices are mundane, inexpensive, and [most 
important] replicable.''
---------------------------------------------------------------------------
    \27\ U.S. Department of Education, Restraint and seclusion: 
Resource document, Washington, DC 2012.
    \28\ Reeves, D. (2002). The daily disciplines of leadership, 
Jossey-Bass.
---------------------------------------------------------------------------
    Physical restraints are messy, loud, and violent affairs that 
effectively shut down any instruction occurring in the vicinity. 
Physical restraints teach nothing in and of themselves and they 
interfere with the main business of schools--learning. Physical 
restraints not only disrupt the learning environment, they disrupt the 
learner, as well. The practices of seclusion and restraint like other 
forms of aversive consequences engender some rather nasty side effects 
for the learner: fear, resentment, anger, resistance, and feelings of 
hatred.\29\ Needless to say, such emotional predispositions are hardly 
conducive for the learning process to occur.
---------------------------------------------------------------------------
    \29\ Axelrod, S., & Apsche, J. (Eds.).(1983). The effects of 
punishment on human behavior. New York, Academic Press.
---------------------------------------------------------------------------
    When seclusion and restraint are used excessively, it is likely 
because school personnel believe that students with emotional and 
behavioral disabilities are dangerous, unable to manage themselves and 
therefore require physical management by others. Yet, seclusion and 
restraint cause students to react more violently and thus exacerbate 
the very symptoms that led to their identification as emotionally and 
behaviorally disabled in the first place. This intensified emotional 
and behavior response reinforces the belief that students with 
emotional and behavioral disabilities are dangerous, unable to control 
themselves and need to be controlled by others. The students at 
Centennial School in 1998 certainly looked more disturbed and behaved 
more violently than students at Centennial School today, even though 
the entry criteria have remained unchanged over the years.
    The frequent use of seclusion and physical restraints is relatively 
expensive. It usually requires additional personnel to conduct the 
restraints, often personnel who are fully unrelated to the 
instructional process. At least that is what we found at Centennial 
School. As preventive procedures based on positive behavior support 
proved successful at Centennial School, the need for personnel who were 
hired solely to conduct physical restraints diminished. In 1998, for 
example, Centennial School employed 71 people; today there are 51.\30\ 
Monies saved through reductions in unnecessary personnel were 
reinvested for such things as renovations to the facility, curriculum 
materials, furniture, technology, and other items designed to improve 
the overall work environment.
---------------------------------------------------------------------------
    \30\ It is likely that the mere presence of ``crisis intervention'' 
staff (i.e., staff employed solely to physically restrain students) 
will result in a greater number of physical restraints than in schools 
without such staff.
---------------------------------------------------------------------------
    Teachers are more at-risk for injury with the use of seclusion and 
restraint than without those practices. As a measure of staff safety, 
data were collected on the number of Workers Compensation Claims that 
were filed by injured employees at Centennial School. During the year 
of over 1,000 physical restraints, injured staff filed 22 Workers 
Compensation Claims; 82 percent of those injuries occurred while staff 
was conducting physical restraints with students.
    As the number of restraints decreased so did injuries to staff. The 
following year when 327 physical restraints were conducted, 18 Workers' 
Compensation claims were filed with 52 percent of the injury claims 
directly related to restraint situations. The subsequent year, when no 
physical restraints were recorded, only four Workers Compensation 
Claims were filed, none of which, of course, were associated with 
physical restraint. Centennial faculty has not suffered an injury 
related to physical restraint for the past 12 years and Workers 
Compensation Claims continue to remain at low levels. At this school, 
staff injuries were related positively to physical restraints with more 
frequent restraints resulting in a greater number of injuries to staff.
    Perhaps the biggest barrier to success is the educators themselves, 
the inability of professionals to redefine the problem and implement 
innovations. There is too much emphasis on the consequences for 
behavior and too little attention to restructuring learning 
environments. Too many professionals continue to view the child as 
defective, dangerous and unpredictable and fail to see the connection 
between students' behaviors and the practices they have in place.
    It wasn't the students at Centennial School who were restraining 
themselves to the floors or escorting themselves to time-out rooms--it 
was the adults. It is the adults and not the students who establish the 
culture in schools, define the professional behaviors, and erect the 
standards of conduct for students as well as themselves to follow.
    Centennial School does business in vastly different ways than it 
did years ago; it has a much different culture today than it did then. 
But even amidst the relative chaos of those past days, Centennial had a 
culture: it had values, norms, and traditions that were faithfully 
followed by both faculty and students alike. Those were the ``rules of 
the game'' so to speak and those rules were hardly conducive for 
teaching academics and pro-social behavior and most likely allowed 
students to practice poor conduct in the presence of school officials. 
The message is quite clear and now well known. In order to change 
student behavior, we must first change our own behavior. We must change 
the rules of the game.
    Yet, too many leaders find too many excuses for maintaining the 
status quo. Money, lack of training, violent students, psychiatric 
conditions, apathetic parents, teacher unions, poverty, drugs are but a 
few of the reasons given for the failure of school administrators to 
take action. Often, it is the students who end up getting the blame. 
``What you do at Centennial is nice, but would not work at our school--
our students are much more difficult than yours'', is a common refrain 
I often hear.
    Services for children and youth with emotional and behavioral 
disabilities are suppose to provide assistance for children who have 
had histories of difficulties in public schools. Yet, despite nearly 40 
years of special education services, students with emotional and 
behavioral disabilities suffer some of the bleakest outcomes of all 
school-aged children and youth.\31\ More than half of them drop out of 
school, a rate more than twice that of students in general education; 
three-fourths of them achieve below grade expectancy in reading, and 97 
percent of them achieve below grade expectancy in mathematics. Two-
thirds cannot pass competency exams at their grade level. Such dismal 
outcomes certainly cause one to wonder, whether in our attempts to help 
these youngsters, what we use are not actually doing them more 
harm.\32\
---------------------------------------------------------------------------
    \31\ Bradley, R., Doolittle, J., & Bartolotta, R. (2008). Building 
on the data and adding to the discussion: The experiences and outcomes 
for students with emotional disturbance. Journal of Behavioral 
Education, 17, 4-23.
    \32\ See Hayling, Cook, Gresham, State & Kern, and (2008); and 
Sutherland & Wehby, (2001).
---------------------------------------------------------------------------
    Among the many lessons learned at Centennial School, there is good 
news for school administrators. The techniques and strategies for 
increasing pro-social behavior at Centennial School work equally well 
in public schools.\33\ Administrators might wish to adopt practices 
that lead to the creation of favorable instructional environments 
especially the special education classrooms within their buildings, if 
not within the entire school altogether.
---------------------------------------------------------------------------
    \33\ An administrator at a public middle school who recently hired 
one of Centennial's teachers called me to ask in mock astonishment, 
``What are you teaching your teachers? The classroom was totally 
different from the previous years even though the students were the 
same ones from last year. I have had a self-contained classroom for 
children with emotional and behavioral disabilities in my school for 13 
years. All of that time I thought it was the students,'' she said.
---------------------------------------------------------------------------
    A final lesson is that students with emotional and behavioral 
disabilities wish to succeed in school just like their nondisabled 
peers. They work diligently on lessons that are engaging and 
challenging yet within their capabilities. When his probation officer 
asked Joe, a new Centennial student who came by way of a long-term 
placement in a juvenile detention facility why he was now doing so well 
in school, Joe responded, ``Here they teach you something, in my other 
placements we just sat around and talked about our problems.''
                       centennial: 14 years later
    Centennial has sustained its school-wide positive approach for the 
past 14 years. Each year heralds new improvements to the school 
setting. The vision established in 1998 is now ``just the way we do 
things around here;'' it is part of the school culture.\34\ The 
physical interventions of today bear little resemblance to those 
conducted 13 years ago. This past year, there were three physical 
restraints, consisting of brief standing holds under a minute each in 
duration. Brief holds restricting movements like the ones at the school 
this year would not have been recorded as physical restraints 13 years 
ago when basket-holds and prone restraints were common.
---------------------------------------------------------------------------
    \34\ Deal, T.E., & Peterson, K.D. (1999). Shaping school culture. 
CA: Jossey-Bass.
---------------------------------------------------------------------------
    Are there imaginable circumstances when Centennial teachers might 
someday need to use more intrusive physical restraints? Common sense 
would dictate yes.\35\ But the preventive strategies Centennial School 
has in place greatly reduce the probabilities of having to employ more 
intrusive physical restraints as occurred in the past. In fact, the 
topography and intensity of overall behavioral episodes at Centennial 
School have changed markedly over time.
---------------------------------------------------------------------------
    \35\ The number of restraints, defined as the application of force 
for the purpose of restraining the free movement of a student, varies 
each year with an overall average of about 10 per year.
---------------------------------------------------------------------------
    Just 7 years ago, for example, it was commonplace for angry and 
upset students to leave the classroom loudly, curse the teachers, 
wander the halls, tear artwork off the walls, flip furniture, bang 
walls, and slam doors. Today those behavioral patterns are nearly 
nonexistent. Students seem to understand that teachers are here to help 
them and that all they need do is to raise their hand or ask to Take 
Time when they become frustrated or upset. When students choose more 
disruptive behaviors to express their anger, teachers follow students' 
behavior plans, usually meaning, they remain silent and wait for the 
student to get calm.\36\
---------------------------------------------------------------------------
    \36\ One of the most common mistakes teachers make to control 
inappropriate student behavior is the use of ``escalating prompts'' 
that take the form of negative reprimands, repeated warnings, sarcasm, 
criticism or other forms of disapproval. See Walker, H.M., Ramsey, E., 
& Gresham, F.M. (2004). Antisocial behavior in school: Evidence-based 
practices. Belmont, CA: Wadsworth.
---------------------------------------------------------------------------
    Visitors to the school often express astonishment when they 
discover that a particular student is ``out of program'', meaning he or 
she is not following expectations. Zack, a recent 17-year-old referral 
to the program said it quite well. One afternoon while sitting in the 
school library, visibly agitated and upset about something that 
happened in his classroom, muttered angrily, ``I thought this was a 
school for bad kids. I don't see any bad kids here!''
    Other measures confirm Zack's exasperation about the dearth of 
``bad kids'' at the school. The rate of suspensions has decreased by 88 
percent since 1998 \37\; truancy is down an annual average of 50 
percent; police visited the school only 3 times this past year with no 
student arrests (as compared to 39 visits during the year of 1,064 
physical restraints). Only three Workers Compensation Claims were filed 
this past year. In addition, in the absence of frequent seclusion and 
physical restraint, time-on-task at Centennial School has increased 
dramatically. Many Centennial students now demonstrate academic growth 
rates in reading fluency that closely approximate or exceed ``typical 
students'' as measured by AIMSweb reading probes.
---------------------------------------------------------------------------
    \37\ Centennial suspends students for 1 day only at a time.
---------------------------------------------------------------------------
    Moving from a violent school climate to a positive educational 
climate is hard work. It is daunting to begin a change process in the 
midst of a violent student population. In fact, once the change process 
begins, things will likely get worse \38\ in the short-term: more 
suspensions, more police, and possibly even more violence, as teachers 
and staff are called upon to change their beliefs and their behavior. 
Nonetheless, the results in terms of teacher satisfaction, student 
performance and parent support are well worth the effort.
---------------------------------------------------------------------------
    \38\ Fullan, M. (2001). Leading in culture of change. San 
Francisco: Jossey Bass.
---------------------------------------------------------------------------
    The favorable outcomes associated with positive behavior supports 
are perhaps best understood from the mouths of the students themselves. 
When asked, ``How is Centennial different than your previous school?'' 
Tommy put it succinctly,

          ``At Centennial School when I have a problem teachers try to 
        help me. At my other school when I had a problem, the teacher 
        got mad and that made me mad. Then a big man would come and lay 
        on me, and that made me madder.''

    As more and more evidence accumulates, it appears quite certain 
that the practices of routine seclusion and physical restraint will 
someday be placed on the shelves of the Glore Psychiatric Museum in St. 
Joseph, MO, alongside other failed mental health practices for 
ameliorating the problems of individuals with emotional and behavioral 
disabilities.
    Change is often the result of a new vision for doing things 
differently than they have been done in the past. From that vision, we 
develop goals and procedures for eventually making the vision a 
reality. I believe the proposed Federal legislation on seclusion and 
restraint sets forth the vision and harbors the promise for meaningful 
change in the future.
    Thank you for receiving my report. I am happy to answer any 
questions you might have.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The Chairman. Thank you very much, Dr. George. I look 
forward to engaging in a colloquy and some questions about 
this.
    Miss Pitonyak, welcome and please proceed.

STATEMENT OF CYNDI PITONYAK, COORDINATOR OF POSITIVE BEHAVIORAL 
 INTERVENTIONS AND SUPPORTS, MONTGOMERY COUNTY PUBLIC SCHOOLS, 
                       CHRISTIANSBURG, VA

    Ms. Pitonyak. Thank you, Chairman Harkin, Ranking Member 
Enzi, and members of the committee.
    Thank you for inviting me to be here as a representative of 
my school division, Montgomery County Public Schools.
    Our goal in Montgomery County is schools that meet the 
needs of all children who live in our community, and this 
includes the kids who present the most serious behavior 
challenges. For over two decades now, we have not found it 
necessary to use restraint or seclusion to maintain safe 
schools except in rare emergency situations.
    A fundamental factor in removing the need for restraint and 
seclusion has been our move, 23 years ago, from segregated, 
centrally located special education classes to inclusive, 
regular education classes in neighborhood schools. This is 
especially important in our work with children with serious 
behavior needs for several reasons.
    First, working with the kids who live in the neighborhood 
is not overwhelming. The number of children in any given school 
who have truly extensive behavior needs is very small, usually 
1 to 2 percent of the population or less.
    Second, we spend our time talking about how to make kids 
successful rather than talking about where to send them. A 
separate classroom is not part of our default plan, and our 
special education and classroom teachers are working together 
anyway.
    Third, the natural, healthy, inclusive setting is a strong, 
positive influence. Kids with problem behaviors are not 
surrounded by other kids with problem behaviors, but by typical 
peers who model appropriate social skills.
    Another critical factor in removing the need to use 
restraint and seclusion has been early behavior intervention. 
When children develop behavior problems, most of the time it 
begins quite early in their school careers. When we can 
intervene and reverse a negative pattern in the early years of 
school, the chance that the student will go onto success in 
future grades improves dramatically. This means that a kid who 
requires many supports and modifications just to make it 
through the day in first grade is quite often successful with 
little or no special support by middle school. Intervening 
early not only results in a better outcome for the student, but 
in a significant reduction in the resources that are going to 
be required later. The bottom line is that school just has to 
be a safe place for everyone.
    A key tool for us in moving from restrictive procedures to 
positive behavior supports has been individualized Positive 
Behavior Support plans, or PBS plans for kids with the most 
significant needs. These plans are based entirely on the needs 
of the individual student, so each one is different, but the 
process for developing them is simple and clear enough to be 
understood by a variety of involved adults.
    We start by forming a small support team around the 
student, composed of the people who work with her every day. 
The student's parents and the student herself, in the case of 
older students, are members of the team whenever possible. The 
team meets weekly. They plan ahead, they problem solve, they 
review progress data, and they celebrate successes. This 
commitment of time is essential to make sure that the PBS plan 
stays on-track and effective.
    If the student's behavior presents a safety or a severe 
disruption risk, the team immediately develops a crisis plan. 
We spell out specifically what crisis level behavior looks like 
for this particular student, what the early warning signs are, 
and what steps to take to prevent a crisis. It includes who to 
call and exactly what to do if a crisis does occur. And when 
there is an incident, we carefully analyze what we happened to 
learn from the experience and make adjustments in the plan.
    With the team up and running, and the crisis plan in place, 
we make modifications to the student's daily routine. The most 
important step is to help the student replace the problem 
behavior with a positive behavior that serves the same purpose.
    For example, if we discover that a student's problem 
behavior is driven by a need to escape the classroom, we might 
teach the student an easy way to request a break like a break 
card that can be placed on the desk at any time and a legal 
place to go. This alternative works better for the student than 
the problem behavior did. It is a quicker and easier way to 
escape, and it does not have the negative effects that the 
problem behavior did.
    Then we focus on circumstances that drive the student to 
escape the classroom, in this example, and we work to address 
those. Over time, we eliminate the need for the student to 
request those special breaks and we can withdraw the special 
modifications.
    Skilled and knowledgeable staff is our most valuable 
resource, and preparing them requires initiative on several 
levels. First, we make sure that the people called upon most 
frequently have the big picture. They understand why inclusion 
is so important for these students, the principles of positive 
behavior support, our emergency procedures policy, and how to 
deescalate crisis situations.
    Second, one of the primary ways our teachers develop their 
skills is just by being part of one of these student teams. 
This side-by-side, ``learn it while you do it'' approach has 
been an essential due to the multitude of competing demands on 
teachers' time.
    Third, we create easy and free ways for interested and 
motivated staff to improve their skills through a menu of 
training opportunities that are open to everyone.
    We are far from perfect. At present, out of 881 students 
with IEPs, 6 have been placed in nearby private day schools to 
access services that are not available in their neighborhood 
schools. As the home of Virginia Tech, we are only too aware of 
the tragic implications of serious and unmet social and 
emotional needs. We know for a fact that positive results are 
not only possible, but predictable when proactive, positive 
procedures are used.
    According to this year's data, 86 percent of our students 
with PBS plans achieved very significant behavior improvement. 
Of these students, the average decrease in targeted problem 
behavior was 81 percent. The average decrease in crisis 
behavior was 78 percent. Aside from the typical scrapes that 
occur between kids in any school, students with PBS plans 
injured no adults or children.
    Restraint and seclusion may be necessary tools when the 
immediate alternative is serious injury, but they are not 
teaching tools. They do not prevent crisis behavior and they do 
not teach positive alternatives. The students who present 
emergency situations are not usually a surprise to us. 
Powerful, positive, evidence-based tools exist and we can use 
them. Most important of all, we can make sure that no child 
feels unwelcome and isolated in his school, and that learning 
is not out of reach for any student.
    Our time, our focus, our training efforts must be about 
connecting with and empowering our kids, not about isolating 
and immobilizing them.
    Thank you for the critically important work you are doing, 
and for the opportunity to share our story with you. I look 
forward to answering any questions you may have.
    [The prepared statement of Ms. Pitonyak follows:]
                  Prepared Statement of Cyndi Pitonyak
                                summary
    Ms. Pitonyak's written testimony describes the experience of her 
school division in serving students with the most significant social, 
emotional and behavioral needs without the use of restraint or 
seclusion except in rare emergency situations for over 20 years. She 
addresses fundamental factors that have been important in removing the 
need for using restraint and seclusion, transitioning to reliance on 
positive behavior supports to address the needs of students with the 
most difficult behaviors, and preparing staff to successfully use 
positive behavior supports in their daily work with children. Ms. 
Pitonyak cites the move from traditional to inclusive special education 
services to students in their local community schools and early 
behavior intervention as factors that have been most important in 
removing the need for restraint and seclusion. She describes the 
individualized positive behavior support planning process, which 
includes individualized crisis planning, as fundamental in 
transitioning from more restrictive procedures to reliance on positive 
behavior supports. She outlines three areas of training that are 
essential for effective teacher preparation, including: groundwork of 
basic understanding for staff who work directly with these students and 
those who would be called upon to help in a crisis, ``learn by doing'' 
participation on student planning teams, and a menu of easily 
accessible, free training opportunities for interested staff and 
parents. Ms. Pitonyak provides several appendices to her testimony that 
serve as examples of how these fundamental factors are put into daily 
practice in Montgomery County Public Schools.
                                 ______
                                 
    Chairman Harkin, Ranking Member Enzi, and members of the committee, 
thank you for inviting me to be here as a representative of my school 
division, Montgomery County Public Schools. Our goal in Montgomery 
County is to create schools that are organized and equipped to meet the 
needs of all children who live in our community. This includes those 
children with the most significant social, emotional, and behavioral 
needs. For over two decades now, we have not found it necessary to use 
restraint or seclusion procedures to keep our schools safe, except in 
rare emergency situations. My testimony today will focus on fundamental 
factors that have been important to us in:

    <bullet> Removing the need for using restraint and seclusion;
    <bullet> Transitioning to positive behavior supports to address the 
needs of our students with the most difficult behaviors; and
    <bullet> Preparing staff to successfully use positive behavior 
supports in their daily work with children.

    A fundamental factor in removing the need for restraint & seclusion 
has been our move 23 years ago from segregated, centrally located 
special education classes to serving all of our children in inclusive 
regular classes in their local community schools. This is especially 
important in our work with children with serious behavior needs for 
several reasons.

    <bullet> First, serving each child in her local school means that 
we are working with the natural population of children who live in the 
community. Therefore, the number of students in any given school who 
have truly extensive behavior needs is very small, usually 1-2 percent 
of the population or less. The intensive planning and highly 
individualized supports required for success are not overwhelming 
because there are so few students who need them.
    <bullet> Second, because a separate classroom is not part of our 
default plan and our special education and classroom teachers teach 
together, we spend our time talking about how to make our students 
successful rather than talking about where to send them. Students with 
and without IEPs benefit from this success-focused collaboration.
    <bullet> Third, in an inclusive setting, children with problem 
behaviors are not surrounded by other children with problem behaviors. 
Typical peers who model appropriate social skills surround them 
instead. This healthy, natural setting is a strong positive influence 
on our students with problem behavior, and their peers benefit from 
learning first-hand how to resolve conflicts and solve social problems 
in the real world. The inclusive classroom setting is a positive 
influence on the behavior of adults as well. Restrictive interventions 
such as restraint or seclusion seem out of place or even shocking 
within the context of daily life in a regular classroom.

    Another critical factor in removing the need to use restraint & 
seclusion has been early behavior intervention. When children develop 
behavior problems, most of the time it begins quite early in their 
school careers. Problem behaviors often escalate and become even more 
serious over time. Initiating intensive intervention early, while 
children are still small, is not only easier to manage, but also has a 
major impact on the amount and intensity of intervention those children 
will require later.

    <bullet> Our experience has been that when we are able to intervene 
and reverse a chronic negative behavior pattern in the first few years 
of school, usually before third grade, the chances that the student 
will go on to successful participation in future grades without 
requiring an extensive amount of support improve dramatically. This 
means that the student who needs a highly individualized daily routine 
and many special modifications to make it through the day in first 
grade, often actually requires no support by middle school, or is 
successful with relatively minimal supports that can easily be 
delivered through IEP or 504 Plan accommodations.
    <bullet> Students sometimes transfer into Montgomery County from 
other school districts, where highly restrictive procedures have been 
used to control their behavior. These students are accustomed to being 
managed by others and usually have limited or sometimes no experience 
in a regular classroom setting. They require careful transition and a 
particularly high level of support.
    <bullet> When we are not able to intervene until students are 
older, our experience has been that a higher level of ongoing support 
(i.e., greater commitment of staff time, increased requirement for 
specialized planning, intensive intervention) is often required through 
the last years of school to maintain students' success. Early 
intervention not only results in better outcomes for students, but in 
significant reduction in resources that are going to be needed to 
support those students later.

    The bottom line is that school has to be first and foremost a safe 
place if our children are going to learn and thrive. Including students 
with the most significant behavior needs cannot mean that safety is 
compromised for anyone. In Montgomery County Public Schools, making the 
transition from restrictive procedures to positive behavior supports 
has meant that we must have easily accessible, evidence-based practices 
that prevent disruption and crises as much as possible. We must have 
the capacity to maintain safety and quickly restore calm when problems 
do occur. Having a good process for developing & implementing 
individualized positive behavior support (PBS) plans for students who 
need them has been essential. PBS plans are based entirely on the needs 
of individual students, so each one is different. However, the process 
for developing them must be simple and clear enough to be easily 
understood and implemented by a variety of teachers, administrators, 
and instructional assistants. (See Appendix A: How to Develop a PBS 
Plan)

    <bullet> We start with forming a small support team around an 
individual student, composed of people who work with her every day and 
at least one person who is skilled in the PBS plan development process. 
The student's parents and the student herself (in the case of older 
students) are members of the team whenever possible. The team meets 
weekly to plan ahead, problem solve, review progress data and celebrate 
successes together. These regular meetings of ``key players'' are the 
vehicle for ensuring that behavior interventions for the student are 
relevant and effective. This commitment of time is essential in 
ensuring that the PBS plan is modified as needed and implemented with 
fidelity.
    <bullet> If the student's behavior presents a safety or severe 
disruption risk, the team immediately develops a crisis plan. We spell 
out specifically what crisis level behavior looks like for this 
particular student, (e.g. aggression directed to self or others, 
talking ``over'' the teacher or otherwise making it impossible for 
instruction to continue, leaving or roaming the classroom or school, 
destroying equipment). The plan includes early warning signs and steps 
to take to prevent a crisis. It includes who to call and exactly what 
to do to maintain safety and restore order if crisis level behavior 
does occur, as well as followup procedures. (See Appendix B: Crisis 
Plan Worksheet). When a crisis incident occurs, we carefully document 
and analyze what happened in order to learn from the experience and 
adjust our supports for the student if necessary. (See Appendix C: 
Crisis Incident Record).
    <bullet> With the team up and running and the crisis plan in place, 
we implement modifications to the student's daily routine, based on 
functional behavior assessment. (See Appendix D: How to Complete an 
FBA). The most important step is to help the student replace the 
problem behavior with a positive behavior that serves the same purpose. 
For example, if we discover that a student's problem behavior is driven 
by a need to escape the classroom, we might give the student a break 
card that can be placed on the desk any time and a ``legal'' place to 
go. This alternative works better for the student than the problem 
behavior did. It is a quicker and easier way to escape without the 
negative effects generated by the problem behavior. By focusing on the 
circumstances that drive the student to escape the classroom (in this 
example), and working to address those, we eliminate the need for the 
student to ask for special breaks, and we can withdraw the special 
modifications over time.
    <bullet> Chronic, serious problem behaviors do not develop 
overnight and they are not addressed overnight. We frequently review 
progress data and make adjustments in our interventions. We tackle a 
week's worth of issues in our team meetings, and over time we can 
eliminate crisis behaviors and teach the student to interact positively 
in an integrated setting.
    Skilled and knowledgeable staff is our most valuable resource, and 
preparing our teachers & administrators to meet the challenges 
presented by students with extensive behavioral needs requires 
initiative on several levels.

    <bullet> First, we must make sure that the people who work directly 
with students every day and those who are called upon most frequently 
to help when problems occur, have a groundwork of basic understanding 
of the value of inclusion for these students, and primary principles of 
positive behavior support. We train all principals, assistant 
principals, special education teachers and instructional assistants in 
our emergency procedures policy and techniques for de-escalating crisis 
situations. Using stimulus funds over the last year, we have been able 
to greatly improve and expand this basic training to include counselors 
and classroom teachers.
    <bullet> Second, we have learned that one of the primary ways our 
teachers develop their skills in positive behavior support is through 
participating on a student team. It is essential to have at least one 
person in each school that is highly competent in creating individual 
PBS plans. That person must have the leadership skills and 
responsibility to guide teams through the PBS plan development process. 
It is our responsibility as district level administrators to provide 
training, mentoring and technical support for those building level 
leaders. It is the responsibility of principals in each building to 
establish a flexible infrastructure that allows team members to plan 
and problem-solve together, and to receive any special training 
required to meet the needs of their student. This side-by-side, ``learn 
while doing'' approach has been essential due to the multitude of 
competing demands on our teachers' time.
    <bullet> Third, we create easily accessible and free ways for 
interested and motivated staff to improve their skills. Each year we 
provide a menu of training opportunities open to all of our staff and 
interested parents.

    We are far from perfect. At present, out of 881 students with IEPs, 
six are served in nearby private day schools to access services for 
their behavior needs that are not available in their schools. We keep 
in close contact with these students, and plan to bring two of them 
back next year. We have no students placed in residential settings by 
their IEP committees.
    For the last 23 years, Montgomery County Public Schools have been 
safe places to learn without the use of restraint and seclusion. As the 
home of Virginia Tech, we are only too aware of the tragic implications 
that can be associated with serious and unmet social and emotional 
needs. We know for a fact that positive results are not only possible, 
but also predictable when proactive positive procedures are used. 
According to this year's data, 86 percent of the students for whom we 
developed an individual positive behavior support plan achieved very 
significant behavioral improvement. Of these students, the average 
decrease in targeted problem behavior was 81 percent. The average 
decrease in crisis level behavior for these students was 78 percent. 
Aside from the typical scrapes that occur between children in any 
public school setting, students with PBS plans injured no adults or 
children.
    Restraint and seclusion may be necessary tools in the immediate 
urgency of an emergency situation when the alternative is serious 
injury, but restraint and seclusion are not teaching tools. They do not 
prevent crisis behavior and they do not teach positive alternatives.
    The most effective way, in our experience, to establish safety in 
our schools is to prevent crises from occurring in the first place. The 
students who present emergency situations are not usually a surprise to 
us. We have powerful, evidence-based tools at our disposal. We can 
identify the circumstances that give rise to crises and modify the 
circumstances that are within our control. We can teach the student 
better ways to deal with these circumstances. We can include the 
student and his parents in our planning and support efforts. Most 
important of all, we can make sure that no child feels isolated and 
unwelcome at school, and that learning is not out of reach for any 
student. Our time, focus, and training initiatives must be about 
connecting with and empowering our students, not isolating and 
immobilizing them.
    Thank you for the important work you are doing, and for the 
opportunity to share our story with you today. I look forward to 
answering any questions you may have.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                               Appendix E
     Montgomery County Public Schools--Policy & Procedures Guiding 
    Management of Student Behaviors in Emergency Situations: Use of 
   Restraint and Seclusion* (Developed April 2006; Updated June 2008)
    Philosophy: Montgomery County Public Schools is committed to 
valuing every student as a unique and capable partner in the education 
process. When there is a need to manage aggressive or violent behavior 
of students in emergency situations, there must be a balance between 
maintaining an effective and safe learning environment for children and 
school staff and safeguarding the rights and protections of students. 
This balance is reflected in our procedures for dealing with 
unanticipated emergency situations, as well as for planning as mandated 
by Federal law (IDEA) for our students having disability-related 
problem behaviors. Students in Montgomery County Public Schools are 
free from the unreasonable use of physical restraint, seclusion, or any 
other intervention method that is not least restrictive for that 
student. The use of aversive interventions is not authorized, permitted 
or condoned in the public schools of Virginia and Montgomery County 
Public Schools. Corporal punishment is expressly prohibited by law.
---------------------------------------------------------------------------
    * Based on IDEA Reauthorized Discipline Statute, July 2005 and 
Guidelines from Virginia Department of Education Office of Special 
Education Instructional Services November 2005.
---------------------------------------------------------------------------
    Purpose: The purpose of this policy is to provide information to 
all persons working with children within Montgomery County Public 
Schools on how violent and aggressive student behaviors will be 
addressed--both in terms of response to emergency situations and with 
regard to planning for individual students to reduce the likelihood of 
future emergency situations. This document will provide definitions of 
restraint and seclusion as restrictive procedures and outline emergency 
circumstances under which they would be used. Also, this policy 
identifies students who receive ongoing planning to prevent emergency 
situations and how students are to be referred by administrators to 
receive such planning services. Procedures are described here for 
ensuring that incidents that require the use of emergency procedures 
are clearly documented, recorded and reported to appropriate school 
officials and parents.
     policy and planning procedures for managing student behaviors
    <bullet> As required by IDEA, Behavior Support Plans (BSPs) are 
developed for students with significant disability-related problem 
behaviors. Student Individual Education Plans (IEPs) usually address 
the need for development of BSPs for individual students. Montgomery 
County Public Schools generally uses one of three different formats in 
development of these plans, depending on the needs of the student and 
the frequency and intensity of the behaviors being addressed. (See MCPS 
Special Education Handbook 2006-2007). All BSPs are developed using a 
team approach, a clear definition of the behaviors being addressed, and 
a functional assessment of those behaviors using systematically 
collected information from a variety of sources. Personalized 
strategies to prevent problem behaviors are developed using the results 
of the functional behavior assessment and are spelled out in the BSP.
    Specific steps staff will take to address problem behaviors when 
they occur and to defuse crisis situations may also be included in the 
plan. Descriptions of social skills, which are taught to the student as 
a means of replacing problem behaviors, are included as well. While the 
amount of detail and information included in individual BSPs will vary 
based on the needs of the student, all BSPs include a means for 
collecting data to measure the effectiveness of plans and to allow for 
adjustment as needed.
    <bullet> School administrators may also initiate development of 
Behavior Support Plans for students who engage in repeated or serious 
problem behaviors but who are not identified as having disabilities. 
The process used for these students is the same as that described 
above, using one of the three formats depending on the severity of the 
problem.
    <bullet> In all emergency or crisis situations, MCPS staff 
initially uses the least restrictive measure possible to safely address 
the situation. The student should return to the learning environment as 
soon as possible after the behavior has been addressed.
                              definitions
    <bullet> ``Emergency'' situation is defined as one that requires a 
person to take immediate action to avoid serious bodily injury to a 
student or staff member or substantial property damage. Serious bodily 
injury means ``a bodily injury that involves a substantial risk of 
death, extreme physical pain, protracted and obvious disfigurement, or 
protracted loss or impairment of the function of a bodily member, 
organ, or mental faculty''.
    <bullet> ``Crisis'' situation is defined as one in which student 
behavior is creating a situation which must be brought under rapid 
control because of risk of harm to student or others, serious property 
damage or extreme disruption of the learning environment.
    <bullet> Physical restraint means the use of ``approved physical 
interventions'' or ``hands on'' holds by trained staff to prevent a 
student from moving his/her body to engage in a behavior that places 
him/herself or others at risk of physical harm. Montgomery County 
Public Schools staff are not trained in the use of physical restraint 
as part of their job responsibilities. Police assistance would be 
requested in emergency situations requiring this type of intervention. 
Physical restraint in the school setting may be used only for a period 
of time necessary to contain the behavior of the student so that the 
student no longer poses an immediate threat of causing physical injury 
to himself or others or causing severe property damage. Physical 
restraint is not used as a disciplinary procedure in Montgomery County 
Public Schools. It may be used only in emergency situations when other 
less-intrusive measures have failed and there is no other way to re-
establish safety. (See ``Procedures . . .'')
    <bullet> Holding a student in order to calm or comfort that 
student, or holding a student's hand or arm to escort him safely from 
one area to another are procedures that are sometimes used by 
Montgomery County Public Schools staff, either to re-establish calm in 
crisis situations or as stipulated by a student's Behavior Support 
Plan. By middle and high school, as students mature and grow and 
physically holding or escorting a student safely becomes more 
difficult, alternatives to physical intervention would be addressed in 
student Behavior Support Plans.
    <bullet> Seclusion means the confinement of a student alone in a 
room from which the student is physically prevented from leaving. 
Seclusion as defined here is an emergency procedure, and is used only 
for a period of time necessary to contain the behavior of the student 
so that the student no longer poses an immediate threat of causing 
physical injury to himself or others or causing severe property damage. 
Although an emergency procedure, no special training is required for 
use of seclusion.
    <bullet> Exclusion means the removal of a student to a supervised 
area for a limited period of time during which the student is not 
receiving instruction and has an opportunity to re-gain self control. 
Time out means assisting a student to regain control by removing the 
student from his immediate environment to a different, open location 
until the student is calm or the problem behavior has subsided. 
Students may sometimes self-select this procedure. Exclusion and time 
out are measures that may be specified in crisis plans for some 
students. No special training is required for use of these procedures.
           procedures for crisis and/or emergency situations
    While it is hoped that crisis or emergency situations (as defined 
above) can be avoided as much as possible through the use of student 
Behavior Support Plans, unanticipated situations may arise which 
require immediate action. In these situations, MCPS staff will--In a 
crisis situation (student is at risk of causing harm to self or others 
or serious property destruction or interruption of instruction):

    <bullet> Attempt to calm the student and de-escalate the situation 
through redirection,
    <bullet> Withdraw demands,
    <bullet> Re-locate the student to a private location or re-locate 
others to create privacy,
    <bullet> Use other strategies as stipulated in the student's 
Behavior Support Plan (if applicable),
    <bullet> Hold or escort the student to a private location if it can 
be done safely and there appear to be no non-physical alternatives.

    If the situation escalates to emergency status (immediate action is 
required to prevent serious bodily injury to a student or staff 
member):

    <bullet> Staff should isolate the student by secluding him/her in a 
contained area, or removing others. Building administrator should call 
the police (School Resource Officer or DARE Officer if present in 
building, otherwise call 911). If necessary, building administrator 
should call for emergency lock down until police arrive and contain the 
situation.

    Note: Police officers will use physical restraint or seclusion 
procedures to re-establish calm when other, less-intrusive measures 
have failed and there is no other way to establish safety in the 
situation. Use of these procedures will involve the use of force only 
as reasonable and necessary under the circumstances.
              followup procedures for emergency situations
    When the police have been called to assist in managing a student, 
and/or emergency physical restraint or seclusion procedures are used, 
the building administrator will take the following documentation steps:

    For all students:

    <bullet> Inform parents of the situation and actions taken.
    <bullet> Inform the Superintendent of the situation and actions 
taken by submitting the Incident Information Form. This form includes 
documentation that parents have been informed.

    Additionally, for students with disabilities:

    <bullet> Inform the Consulting Teacher in the building, who will 
insure that a Crisis Incident Record is completed by staff involved, 
submitted to the Special Education Office, and placed in student's 
confidential file.
    <bullet> The building administrator will also inform the director 
of Special Education through a call to the Special Education Office or 
Behavior Support Coordinator. The Behavior Support Coordinator will 
assume responsibility for convening a team to review the situation and 
determine steps needed to prevent emergency situations for this student 
in the future. If the student already has a Behavior Support Plan, the 
Behavior Support Coordinator will convene a meeting of the team 
involved in developing and monitoring it to review the plan and 
determine needed adjustments. If the student does not have a Behavior 
Support Plan, the Behavior Support Coordinator will work with the 
administrator to develop a team who will meet, review the situation 
together, and begin working on developing a BSP if indicated.
    <bullet> These procedures are not intended to replace disciplinary 
action which is determined to be appropriate by the building 
administrator, but rather to provide a process for systematically 
addressing the behavioral needs of students and reducing the need for 
subsequent emergency measures.
            methods and procedures for policy implementation
    <bullet> Building administrators and police officers serving as 
School Resource or DARE Officers for Montgomery County Public Schools 
will receive training in the requirements of this policy. This training 
will be repeated yearly for new personnel.
    <bullet> All building administrators, special education teachers, 
support staff and instructional assistants in Montgomery County Public 
Schools will receive training in development of Behavior Support Plans 
for students, and in techniques for recognizing and defusing crisis 
situations. This training will be repeated yearly for new personnel and 
updated for all staff on a 3-year cycle.
    <bullet> Training in development of Behavior Support Plans for 
students and techniques for recognizing and defusing crisis situations 
will be available to any staff as requested by building administrators.
    <bullet> This policy statement will be made readily accessible in 
each school building for immediate review should incidents arise 
requiring the management of violent and aggressive student behaviors in 
emergency situations.

    The Chairman. Thank you very much, Miss Pitonyak.
    We will end and close up with Deborah Jackson. Miss 
Jackson, welcome. Please proceed.

   STATEMENT OF DEBORAH (DEBBIE) JACKSON, PARENT, EASTON, PA

    Ms. Jackson. Thank you.
    Good morning, Chairman Harkin, Ranking Member Enzi, and 
members of the committee. I am both honored and humbled to be 
here to share my story on this very important crucial subject 
that you are trying to improve for students everywhere.
    I am a 44-year-old single mother of an amazing 9-year-old 
son named Elijah. Elijah is entering the fourth grade in our 
local public school general education program. Elijah has been 
an honor roll student since the age of 5 when he entered 
kindergarten, consistently achieving straight A's and 
excelling, particularly in math and reading. Elijah's IQ 
registered at 116 at age 5, and I can think of no place he 
would rather be than at school learning.
    Elijah is active in sports and participates in basketball, 
football, and baseball. He is an active member of the Boys and 
Girls Club of Easton, where he was awarded last year First 
Place for his written and artistic expression on a poster and 
biography he created demonstrating the dangers of the use of 
drugs and alcohol profiling the biography of Whitney Houston.
    He has also participated as a member of the Club's Step 
Team. He is very healthy and an active 9-year-old boy. However, 
this is not always the way it was.
    Elijah has been diagnosed with the following conditions: 
Intermittent Explosive Disorder, Oppositional Defiant Disorder, 
ADHD unspecified combined types, bipolar disorder, and 
Pervasive Developmental Disorder mainly Asperger's. The 
challenges he faces daily far exceed a normal day for you and 
I.
    Elijah was born June 4, 2003 in Atlanta, GA. Four months 
later, Elijah came home with me and 2 years to the day, he 
officially became my son through adoption.
    At age 1, Elijah went to his first day care, 6 months 
later, it became clear that Elijah struggled in certain social 
settings. By age 3, Elijah had been asked to be removed out of 
10 day cares for displays of aggression.
    The first, initial sign of aggression was snatching toys 
from other toddlers or immediately reacting in a hitting action 
when he was asked to share or anything like that, he 
immediately responded physically. As time progressed, over the 
next year, his behaviors included stripping the walls of 
hanging pictures, turning over desks or chairs, throwing 
markers or pencils on the floor, throwing tantrums on the floor 
or screaming. Elijah's screams were incredibly loud, very high 
pitched, shrieking noises.
    Distraught and at the end of my rope, I reached out to the 
staff at T. Carl Buice Elementary School in Sugar Hill, GA, a 
general education school with a special needs program. After 
extensive evaluation, Elijah was determined to be eligible for 
special education services due to severe social developmental 
delays and evident tactile defensiveness tendencies. Elijah was 
3-years-old.
    Over the next several years, Elijah and I experienced many 
challenges with harsh discipline on bus rides, being placed in 
seclusion rooms more times than I can remember, being 
restrained in basket holds, being restrained by his arms, 
wrists, and legs by multiple staff at the same time, countless 
bruises from school staff, and coming home in someone else's 
clothing due to sweating from physically fighting the teachers 
to stop them from holding him down. I received telephone 
messages of him screaming in the background at school with 
absolutely no other messages from school personnel. In short, 
it was a nightmare and I no longer recognized who my son was. 
He was constantly angry, and I felt like a complete failure as 
a parent. More importantly, Elijah became to be afraid to go to 
school.
    The strategies to control his behavior, seclusion and 
restraints, were not working. In fact, they were making his 
behavior worse. In a final act of desperation, I dialed the 
administration office of our school district, and left several 
messages with different people looking for answers and help. It 
was not until I attended a meeting, almost 3 years ago, that 
different options were offered, and I began to have a shred of 
hope for my son.
    When I relocated to the Easton school district, my son had 
an IEP plan for him for the kindergarten year. This IEP was not 
accepted in the Easton school district due to them stating that 
Elijah was not an official school-age child when the IEP was 
developed.
    Centennial School in Bethlehem, PA is a specialized school 
for students with severe behavioral challenges. I was lucky 
enough to meet Kelly Price, the director of the elementary 
program for Centennial. For me and my son, Centennial School 
was heaven, and Kelly Price and the staff were our angels of 
hope.
    I remember the day Kelly interviewed my son. She spoke to 
Elijah on his level, and engaged him in the meeting, and asked 
him about his thoughts on what was going on with his schooling. 
All Elijah kept saying was, ``They keep holding me down.''
    I was so impressed with Kelly and felt odd at the same 
time. I was not used to Elijah being treated like a little 
person. I was used to him being treated like a bad kid. She was 
full of hope and encouragement, and I remember leaving the 
meeting telling her, ``I do not know how you are going to get 
him back.'' Kelly responded that there was definitely some 
deprogramming they would have to do, but everything would work 
out. And she was right, but I never would have believed it.
    Centennial School is a hands-off facility. Every single 
person that works at the School has the same belief, and they 
fought daily for the success of my Elijah. Some of the tools 
they use include a point sheet for good behavior. The behaviors 
include very unique goals that are tailored for each child 
individually, such as ``be there and be ready,'' keeping hands 
and feet safe, being responsible for one's work, and so on.
    Elijah responded very well to this system. As his points 
increased, Elijah would earn credits at the school store, be 
able to select things from the grab box, earn the privileges of 
special lunches, and weekly awards for obtaining his goals at 
an awards ceremony. I just learned through the testimony of Dr. 
George that that special store used to be a seclusion room.
    Centennial held Elijah responsible for his choices, both 
the right ones and the choices he could have made better. The 
staff at Centennial used positive reinforcement and recognition 
to strengthen positive behaviors.
    In many schools, so often the focus is on bad behavior. 
That focus causes those behaviors to continue rather than 
eliminate them. Elijah had to earn and maintain a certain 
amount of points in order to participate in special programs 
such as the monthly field trips that Centennial offers. This is 
a wonderful motivator for him.
    One of the most successful strategies used at Centennial 
for Elijah was teaching him problem solving skills. This is a 
strategy that requires the student to talk with the staff about 
what and why something happened, what choices they should have 
made, and resolve the emotion they are feeling about the 
situation.
    Additional strategies that helped Elijah cope with his 
anger and impulses included putting his head down to be able to 
control what he is hearing or seeing, ignoring other people, 
walking away from others with permission, and asking permission 
to leave a situation that is upsetting to him.
    Centennial also has an honor roll breakfast with parents 
and students. Centennial's honor roll is not just about grades. 
Behavior is key to achieving this honor, and it is not easily 
obtained. Elijah earned this recognition consistently beginning 
his fourth full quarter attending Centennial in his first year. 
He has earned it every quarter moving forward.
    Elijah was enrolled in Centennial for 2\1/2\ years. I am 
happy to say that despite the behaviors he entered Centennial 
with and up to the day he left Centennial, he was never 
restrained. The positive approaches I have described addressed 
the challenging behaviors Elijah had and helped him learn new 
behaviors so he could show all the talent that he has.
    Throughout and beyond Elijah's attendance at Centennial, I 
have been blessed and fortunate to have had Kelly Price in my 
life. She has been, first, a teacher and a source of 
understanding for Elijah. She has been and remains a strong 
advocate for Elijah and a source of strength and support for 
me, and she is here today supporting me. She is now someone I 
call a dear friend. Kelly has earned the nickname ``Mom No. 
2,'' as she has toiled long days of dedication to the cause and 
belief that a positive environment without restraint and 
seclusion works, not only for my son, but for all the students 
and families at Centennial.
    In March of this past year after 2\1/2\ years at 
Centennial, Elijah transitioned back to his local public school 
a secondary elementary then the one that he attended before he 
moved to Centennial School. With the transition to public 
school, Kelly was instrumental in training all school staff 
that would come in contact with Elijah. She taught them the 
proper tools to work with him. She labored long hours to ensure 
Elijah met this next phase of his life with confidence and the 
belief that he belongs right where he is.
    Additionally, Elijah's first teacher contact within the 
public school was a former teacher from Centennial School. Mia 
is an active user of the Centennial way, and has been 
instrumental in Elijah's success within the classroom and 
throughout his school days. She has also provided additional 
insight to the professional educators that co-teach Elijah, and 
the partnership has been a bright beacon leading the way.
    Mia has shared that Elijah is a complete joy to teach and 
have in the classroom, and that he is the most mannered and 
respectful child in the entire third grade. This is a direct 
result of Centennial's teaching, my parenting, and Elijah's 
commitment to achieve, and most importantly, the partnering 
with everyone involved.
    He is a transition student who is also looked on as a 
support and role model for other students today. Elijah is a 
walking testimony that we all have been successful, and most 
importantly, Centennial's way works.
    I believe that my son, Elijah, is nothing short of a 
miracle. He did not ask for this kind of life, but through no 
fault of his own, he is forced daily to overcome challenges 
neither you nor I would ever have to think about. He has taken 
on the task of training his mind to see things differently than 
he does naturally. But Centennial has taught Elijah and me to 
apply his strengths in a positive way that enables him to be 
successful and to enjoy life. Centennial School and the staff 
are a godsend to all who are blessed enough to have their paths 
cross. And I believe with all my heart that Centennial School 
saved my son's life.
    The road was difficult and although I know there will be 
speed bumps and construction ahead in life, the doorway to the 
road of achievement was successfully taken off the hinges by 
the support, education, and love Elijah received at Centennial 
School. I will forever be an advocate for them and for other 
students that got treated wrong. I will forever work and 
represent them whenever possible. My son is because Centennial, 
Dr. George, Kelly Price, and all the staff was.
    In closing, I ask of this board to please give all kids the 
chance to reverse their direction caused by the negative 
experiences of seclusion and restraint by educating everyone in 
schools everywhere of the Centennial way, the roadmap to the 
ultimate achievement of self. They all deserve it.
    Thank you.
    [The prepared statement of Ms. Jackson follows:]
             Prepared Statement of Deborah (Debbie) Jackson
    Good morning Chairman Harkin, Ranking Member Enzi and members of 
the committee. Thank you for inviting me to testify before the Senate 
HELP Committee. My name is Deborah Jackson. I am a 44-year-old single 
mother of my amazing 9-year-old son Elijah. Elijah is entering the 
fourth grade in our local public school general education program. 
Elijah has been an honor roll student since age 5 when he entered 
kindergarten, consistently achieving straight A's and excelling in math 
and reading. Elijah's IQ registered at 116 at age 5 and I can think of 
no place he would rather be than at school learning as much as he can. 
Elijah is active in sports and participates in basketball, football and 
baseball. He is an active member of The Boys and Girls Club of Easton 
where he was awarded 1st place last year for his written and artistic 
expression of a poster and biography he created demonstrating the 
dangers of the use of drugs. He has also participated as a member of 
the Boys and Girls Step Team. Elijah is a very healthy and active 9-
year-old boy. However, this was not always the way it was.
    Elijah has been diagnosed with the following conditions: 
Intermittent Explosive Disorder, Oppositional Defiant Disorder, ADHD 
Unspecified Combined Types, Bipolar Disorder and Pervasive 
Developmental Disorder, mainly Asperger's Disorder. The challenges he 
faces daily far exceed a normal day for you or I.
    Elijah was born June 4, 2003 in Atlanta, GA. Four months later 
Elijah came home with me and 2 years to the day he officially became my 
son through adoption. At age 1, Elijah went to his first daycare, 6 
months later it became clear that Elijah struggled in certain social 
settings. By age 3 Elijah had been kicked out of over 10 day cares for 
displays of aggression. The first initial sign of aggression was 
snatching toys from other toddlers or immediately reacting in a 
``hitting'' action. As time progressed over the next year, his 
behaviors included stripping the walls of all hanging pictures, turning 
over desks or chairs, throwing markers or pencils on the floor, 
throwing tantrums on the floor or screaming. Elijah's screams were 
incredibly loud, very high-pitched shrieking noises.
    Distraught and at the end of my rope I reached out to the staff at 
T. Karl Buice elementary school in Sugar Hill, GA; a general education 
school with a special needs program. After extensive evaluation, Elijah 
was determined to be eligible for special education services because of 
severe social developmental delays and evident tactile defensiveness 
tendencies. Elijah was 3 years old.
    Over the next several years Elijah and I experienced many 
challenges with harsh discipline on bus rides, being placed in 
``seclusion'' rooms scores of times, being restrained in basket holds, 
being restrained by his arms, wrists and legs by multiple staff at the 
same time, countless bruises from school staff, and coming home in 
someone else's clothes due to sweating from physically fighting the 
teachers to stop them from holding him down. I received telephone 
messages of him screaming in the background (at school) with absolutely 
no other messages from school personnel. In short it was a nightmare 
and I no longer recognized my son. He was constantly angry and I felt 
like a complete failure as a parent.
    The strategies to control his behavior, seclusion and restraints, 
were not working. In fact, they were making his behavior worse. In a 
final act of desperation I dialed the administration office of our 
school district and left several messages with different people looking 
for answers and help. It wasn't until I attended a meeting, almost 3 
years ago, that different options were offered, and I began to have a 
shred of hope for my son.
    Centennial School in Bethlehem, PA is a specialized school for 
students with severe behavioral challenges. I was lucky to meet Kelly 
Price, the director of the elementary program for Centennial. For me 
and my son, Centennial School was heaven and Kelly Price was our angel 
of hope. I remember the day Kelly interviewed me and my son. She spoke 
to Elijah on his level and engaged him in the meeting and asked him 
about his thoughts on what was going on with his schooling. All Elijah 
kept saying was ``they keep holding me down.'' I was so impressed with 
Kelly and felt odd at the same time. I was not used to Elijah being 
treated like a little person, I was used to him being treated like a 
``bad kid.'' She was full of hope and encouragement and I remember 
leaving the meeting telling her ``I don't know how you are going to get 
him back.'' Kelly responded that ``there was definitely some 
deprogramming they would have to do, but everything would work out.'' 
And she was right. But I never would have believed it.
    Centennial School is a ``hands off '' facility. Every single person 
that works at the school has the same belief and they fought daily for 
the success of my Elijah. Some of the tools they use include a point 
sheet for good behavior. The behaviors include very unique goals 
tailored for each child such as ``be there, be ready,'' keeping ones 
hands and feet safe, being responsible for ones work and so on. Elijah 
responded very well to this system. As his points increased, Elijah 
would earn credits at the school store, be able to select something 
from the grab box, earn the privilege of a Burger King lunch and weekly 
awards for obtaining his goals at an awards ceremony. Centennial held 
Elijah responsible for his choices, both the right ones and choices he 
could have made better. The staff at Centennial use positive 
reinforcement and recognition to strengthen positive behaviors.
    In many schools, so often the focus is on bad behaviors. That focus 
causes those behaviors to continue rather than eliminate them. Elijah 
had to earn and maintain a certain amount of points to participate in 
monthly field trips, which was a great motivator for him.
    One of the most successful strategies used at Centennial for Elijah 
was teaching him problem solving skills. This is a strategy that 
requires the student to talk with a staff member about what and why 
something happened, what choices should they have made and resolve the 
emotion they are feeling about the situation. Additional strategies 
that helped Elijah cope with his anger and impulses included putting 
his head down to be able to control what he is hearing and seeing, 
ignoring others, walking away from others and asking permission to 
leave a situation that is upsetting.
    Centennial also has an honor roll breakfast with parents and 
students. Centennial's honor roll is not just about good grades. 
Behavior is key to achieving this honor and it is not easily obtained. 
Elijah earned this recognition consistently beginning his 4th full 
quarter attending Centennial in his first year.
    Elijah was enrolled in Centennial for 2\1/2\ years. I am happy to 
say that despite the behaviors he entered Centennial with and up to the 
day he left Centennial he was never restrained. The positive approaches 
I've described addressed the challenging behaviors Elijah had and 
helped him learn new behaviors so he could show all of the talents he 
has.
    Throughout and beyond Elijah's attendance at Centennial I have been 
blessed and fortunate to have had Kelly Price in my life. She has been 
first, a teacher and a source of understanding for Elijah. She has been 
and remains a strong advocate for Elijah and a source of strength and 
support for me. She is now someone I call a dear friend. Kelly has 
earned the nickname ``Mom #2'' as she toiled long days of dedication to 
the cause and belief that a positive environment without restraint and 
seclusion works, not only for my son but for all the students and 
families at Centennial.
    In March of this year, after 2\1/2\ years at Centennial, Elijah 
transitioned back to his local public school. With the transition to 
public school, Kelly was instrumental in training all school staff that 
would come in contact with Elijah. She taught them the proper tools to 
work with him. She labored long hours to ensure Elijah met this next 
phase of his life with confidence and the belief that he belongs right 
where he is. And so far we have all been successful.
    I believe that my son Elijah is nothing short of a miracle. Elijah 
didn't ask for this. But through no fault of his own, he is forced 
daily to overcome challenges neither you nor I would ever have to think 
about. He has taken on the task of training his mind to see things 
differently than he does naturally. But Centennial has taught Elijah 
and me, to apply his strengths in a positive way that enables him to be 
successful and enjoy life. Centennial School and the staff are a 
Godsend to all who are blessed enough to have their paths cross. I 
believe with all my heart that Centennial School saved my son's life.
    Thank you.

    The Chairman. Thank you, Miss Jackson, very powerful and 
poignant statement. But I have to know who Kelly Price is. 
Where is Kelly Price?
    Ms. Jackson. Kelly Price is right behind me.
    The Chairman. Can we Xerox you and put you around the 
United States somehow? I would like to meet you sometime. 
Actually, I would like to meet Elijah. It is too bad he could 
not have been here.
    Ms. Jackson. He was here last week at the original 
scheduling on June 28th.
    The Chairman. That is right. We had to postpone it. I am 
sorry about that.
    Ms. Jackson. But I have a picture for you.
    The Chairman. Say hi to Elijah for me.
    Ms. Jackson. I will.
    The Chairman. Thank you all very much. These are profound, 
profound statements. I read the statements last night, but 
there's nothing like hearing them from people that have lived 
through this.
    I am going to ask some questions that people ask me all the 
time. When we talk about seclusions, and restraints, and things 
like this, a lot of times I hear this kind of question. Are 
there not seclusions or restraints that have to be used? 
Students need to be restrained because they are difficult to 
manage. Here is the example I got. I am going to start with Dr. 
Crimmins and go to Dr. George.
    I have had educators and others say to me that because of 
the danger to other students and educators, you mentioned about 
how many people, educators, teachers were being physically 
abused, that schools should be allowed to use restraints either 
physical or mechanical. Here is a classic case. You had a 250-
pound teenager coming at a 110-pound teacher. Should not 
restraints be allowed? I mean, are you just going to let that 
kid beat the teacher up? What should the teacher do? I get this 
question a lot.
    So what do you do in a case like that?
    Mr. Crimmins. Senator, it is certainly a very serious 
situation if you know that you have a 100-pound teacher and a 
250-pound student who is volatile. Let me just say two things 
about that.
    One is that we would never support a law that said, ``An 
administrator should not exercise their judgment in an 
emergency situation to keep everyone safe.'' And if safety is 
preserved by the proper use of restraint with a physical 
restraint by a trained person, I know that is allowable in 
Georgia law. We expect the administrator to do their job.
    But the second aspect of that--that I think is also one of 
the tones you heard here today--is that if we know that we have 
that 110-pound teacher and that 250-pound student, the time to 
start thinking about, ``How are we going to work with that 
student? '' is not when that student is charging that teacher. 
That time is when that assignment is made. And we want to know 
what are the kinds of things that might trigger that student's 
behavior, and how might we teach that student to manage their 
own behavior, to calm themselves? How do we deescalate that? 
And the time to think about that is not in the crisis. It is 
well before the crisis.
    That is an education. That is a therapeutic environment 
that thinks about these things before they happen, and I think 
that they are the kinds of examples that my fellow panelists 
were using with you today. I yield to them, but that would be 
how I would respond to that kind of a statement.
    The Chairman. Dr. George, any other observations on it, 
because I hear people say, ``Well, you have this big teenager 
come after a little teacher.'' But your point is: you have to 
start beforehand.
    Mr. George. Dr. Crimmins is exactly on-target. We would do 
and teach teachers procedures that would prevent those 
behaviors from even occurring in the first place.
    I have been an administrator in self-contained day schools 
for nearly 26 of my 38 years. In St. Louis, MO, I had two 
schools--in Eugene, OR, one; and then, of course, the school 
here. All of these children were considered in the 1 percentile 
in terms of aggression, and I have never witnessed that 
scenario.
    This year, we brought in a 6-foot 3-inch African-American 
from another day school. His reason for referral was aggression 
and fighting, and he did assault some teachers, although we 
later found out it was during restraint episodes.
    One week after being in our school, when we taught him what 
those expectations were, when we treated him with dignity and 
respect, he came to me in the hallway and grabbed both of my 
hands and said, ``I want to thank you for bringing me to this 
school.'' We do not need to be there with children if we teach 
them with respect and we use positive approaches.
    But then, on the other hand, if you are telling me that 
there is a 250-pound person chasing me, I think I would leave 
the area, to be quite honest with you. And that is one of the 
techniques we do teach our teachers is to evade. We might clear 
the room of other students by announcing, ``This is a room 
clear.'' This is a procedure that we have taught to the 
children beforehand and usually they would do that. They follow 
those directions quite well when things get unsettling. So 
there are specific procedures that you can use in those 
situations that will keep people safe.
    The restraints probably are not going to prevent an ugly 
and messy affair from occurring; picture what that would look 
like, practically, in the classroom. If you have a crisis, is 
staff going to rush in, and tackle this child to the ground at 
250-pounds, and try to get him somewhere else? I do not think 
so. I do not think so.
    People who say, ``Well, we are going to be safe with 
restraints under those conditions.'' We have just started a 
fight, basically. People are going to get hurt.
    The Chairman. Let me ask you this, one of the things that 
has come up is that if this is only used in an emergency 
situation, a restraint, that is the time when people get hurt 
because they have not planned for it. There is no adequate 
procedure in place, so that if you are just using it in an 
emergency situation, and people have not been trained, then 
that is when we really get people hurt.
    So there has been a disagreement about whether or not to 
put in place plans for using restraint and seclusion in their 
IEPs or in an individual behavior plan. Is this a good idea? 
Should we be planning for the use of restraints with some 
students and preparing staff for the use of restraints? Should 
we give parents and the IEP team the choice to write-in a 
restraint plan for a student? Should school staff know which 
children might need to be restrained?
    Miss Pitonyak, yes. Should there be in their IEP a plan for 
this? I am just asking this question because it is asked of me, 
and I do not know the answer.
    Ms. Pitonyak. Planning and preparation needs to be as 
good--underline what Dr. Crimmins and Dr. George just said 
about preventing the problem from occurring in the first place.
    Certainly, we need clear and good emergency procedures in 
place for any student, not just students with disability, but 
any student who is in a situation where serious injury is a 
possibility. But IEPs are about instruction and instructional 
planning. Just to kind of piggyback on the comments before that 
may be relevant in this case.
    You talked about the 250-pound kid and the 100-pound 
teacher, and I think one point that is really important is that 
in public school, this change to a preventive approach is a 
change. People are not used to thinking that way. They are used 
to thinking about, ``What am I going to do after the problem 
occurs? '' So changing is critical.
    It used to be, in the early days, when we were first 
starting inclusion, we had to get really good at including kids 
with serious behavior needs really quickly because they were 
going to really disrupt classes. It was going to blow 
everything if we had kids going off, or people getting hurt or 
injured. We had to be preventive.
    I used to love it when I had a 250-pound kid with the 100-
pound teacher because then I did not have to worry about 
everybody wanting to hire two big guys to stand at the door and 
strong arm the kid when a problem arose. It forced us to get 
into that preventive mindset that we are only going to come up 
with strategies that this 100-pound teacher is going to be able 
to use.
    People in public schools, in my opinion, do not have enough 
confidence in their own ability to change their policies. We 
tell ourselves that we have to engage in these restrictive 
things that hurt children because they are necessary for a 
positive result. But we are not getting a positive result or we 
would not have to be using those things over and over anyway. 
So it turns out that we are doing them for a couple of other 
reasons.
    We are doing them because they give us the feeling of 
control when we think things are out of control. We do them 
because we think they demonstrate to other people that this 
behavior is not acceptable to us. Neither one of those things 
is about the kid having the problem.
    Emergency procedures need to be in place and people need to 
know what they are. We have to keep school safe, but IEPs 
should be about preventing problem behaviors and teaching 
positive alternatives.
    And there is one last little thing. My opinion is that if 
we include in IEPs' sanctions that allow the use of these 
dangerous procedures with kids with disabilities when we would 
not allow them with other people. You have said so correctly in 
the beginning that we already have a disproportionate amount of 
use of those procedures for kids with disabilities to start 
with. We are only going to underline the problem.
    The Chairman. If you put it in their IEPs.
    Ms. Pitonyak. Absolutely, because we are saying it is OK to 
use it with these kids. And again, IEPs are instructional 
documents. I am all about a crisis plan. You need a good crisis 
plan, and when everything fails and you have an emergency 
procedure, you need good emergency policies and procedures in 
place to protect everyone. It is not different for kids with 
disabilities.
    The Chairman. OK, any other observations?
    The other followup I have on that is, how long does it take 
to train individuals to be able to use preventative approaches 
to behavior management instead of restraints and seclusion? I 
do not know. It just seems to me that restraint or seclusion; 
that is easy. It does not take long to teach that.
    But how about teaching individuals to do these preventative 
approaches? Is it expensive? Can any teacher learn how to do 
this?
    Ms. Pitonyak. Anyone, and it is more about, in our 
experience, an issue of the culture in the school. The 
leadership, the expectation that, as Dr. George has described, 
that school is a welcoming place, and that these are students 
who belong here because they live here, and they live in the 
neighborhood, and we should expect to deal with them. It is 
public school.
    We approach it on a variety of levels. I think the most 
powerful thing for us are those little student teams, and we 
make sure that we have at least one person on each of those 
teams who really knows what they are doing in terms of setting 
up positive behavior supports.
    So we can do global training with our administrators. Our 
leaders can set up the expectation that positive supports are 
going to be used, and lend their support. We work with our 
teachers every single week, every single day in these little 
planning teams, and then we have a menu of other options. You 
have to approach it on a lot of levels.
    The Chairman. You have been doing this in Montgomery County 
for how long?
    Ms. Pitonyak. Twenty-three years.
    The Chairman. Really? Do you have any data, for example, of 
what has happened to some of the students who have gone through 
this positive behavioral support system, and how they have 
faired after they got through with school and later on in life? 
Do you have any data on that at all?
    Ms. Pitonyak. I have anecdotal data, and I would have to go 
back and look at some of the followup stuff that we have done 
in the district, and see if I could come up with something like 
that for the record.
    The Chairman. I just wondered if you had that. So you have 
been doing it for so long in Montgomery County schools, this is 
a public school.
    Ms. Pitonyak. Yes.
    The Chairman. Fully integrated system.
    Ms. Pitonyak. Yes.
    The Chairman. Now, that is different than Centennial.
    Mr. George. Yes.
    The Chairman. Centennial is--I am sorry. Is that a private 
school or a public?
    Mr. George. It is titled an Approved Private School in 
Pennsylvania.
    The Chairman. OK.
    Mr. George. But it operates as a public, self-contained day 
school; a small school.
    The Chairman. See, in that school you have, you told me, 
just the top 1 percent?
    Mr. George. One percent as they are rated on behavior 
scales in terms of aggression, acting out behavior, or shy and 
withdrawn behavior, but 1 percentile.
    The Chairman. So these are really tough cases, then, that 
you have there. And how many students at Centennial?
    Mr. George. We serve about 100 families every year; 100 
children every year.
    The Chairman. I am just trying to get a grip on the 
difference between a public situation where you deal with a lot 
of different students, some who have behavioral problems, some 
who do not; some who are disabled, some who are not. And yet, 
you have an isolated situation where all of these kids have 
behavioral problems.
    Mr. George. Correct.
    The Chairman. I am just trying to figure out. Most of the 
problems that I have heard about occur in the public school-
type setting, and I am just trying to get a handle on the 
differences, and how the approaches are between a public school 
setting and your kind of a setting.
    Miss Jackson, you wanted to comment on that?
    Ms. Jackson. Yes, I do. My son started out in the public 
school setting.
    The Chairman. Yes.
    Ms. Jackson. And the reason why Elijah was referred by the 
public school to Centennial is because it was admitted to me in 
the special education classroom by the director of the special 
education, they did not know how to help my son.
    The Chairman. How to handle him.
    Ms. Jackson. They did not know how to do it. And I was 
going to the school, teaching them on how to approach Elijah.
    And I just want to say that I do not feel that restraint 
and seclusion, and the Individual Education Plans, obviously, 
are very important for the children that are brought forward 
that have those needs. But every single child in the world 
could go to school and have a bad day.
    I feel that the teachers and the educators need to be 
educated on positive reinforcement for all kids, not just 
zoomed in on children that have known disabilities. But just 
all kids, anything can happen.
    My son was not given the opportunity to even speak. One of 
Elijah's driven sources or triggers is his need to be able to 
explain. When someone wants him to go to the calm corner, he 
wants to be able to tell them about this action that has just 
taken place or something he might have done wrong, they want 
him go do a time-out, it is not aggressive at all. It turns 
into aggression when he is trying to explain. They do not want 
to listen to him, so they put their hand on his arm and they 
start to force him to go back to the calm corner. At that point 
in time, it just triggers immediate----
    The Chairman. It cascades.
    Ms. Jackson. Yes, he is defending himself.
    The Chairman. Let me ask, so Elijah was in public school.
    Ms. Jackson. Yes.
    The Chairman. For what, through first grade, or 
kindergarten, or what was it?
    Ms. Jackson. Kindergarten.
    The Chairman. Then he went to Centennial.
    Ms. Jackson. Yes.
    The Chairman. For how many years?
    Ms. Jackson. Two-and-a-half years.
    The Chairman. Two-and-a-half years, now he is back in 
public school.
    Ms. Jackson. He is. He is back in the same public school 
that he transferred out of. And I want to say that the school 
district, when we had an opportunity to transition Elijah back, 
aside from not going to the school where the restraints took 
place because he has mental scars from that experience.
    The Chairman. I would think so.
    Ms. Jackson. Yes, so he is within the same district, but he 
is in an elementary school on the other side of town.
    The Chairman. I see, so it is not exactly the same school.
    Ms. Jackson. It is not the same school. It is the same 
district.
    The Chairman. Did you not tell me that Kelly Price went to 
that school?
    Ms. Jackson. Yes, she did.
    The Chairman. And met with people there?
    Ms. Jackson. Yes. We had an IEP meeting, but the Easton 
area school district went a step beyond through, I believe it 
was called, the SAP program brought to us by PaTTAN.
    And this was a whole group, I mean, an extensive team of 
about 15-16 people. The individual IEP members, other educators 
that came to draw out a designed plan for Elijah in a room, you 
know, this area. Everybody sat around the table, introduced 
this program, and all over the wall was all of these different 
pages of, ``OK, what triggers does Elijah have? What does this 
bring? How can we reach him? What do we do? '' all these 
different things became part of his profile. I will be honest 
with you, I do not care who knew about it because I did not 
want my son touched.
    Within 2 weeks of going back to public school, he was asked 
by a cafeteria lady to go to this little time out table for 
something, and he was trying to explain to her why he flicked 
the food on the wall or food on the floor because one of the 
kids picked it up and put it in his face. He did not want to 
go, she did not want to listen to him. She called a security 
guard and the security guard started to take Elijah by the arm 
and make him go. Well, no restraint, I refused to sign it. I 
will not sign anything allowing anyone to put their hands on my 
son. I am just not going to do it.
    The principal, I think it was the principal. Do you 
remember? The assistant principal came into the cafeteria and 
calmly approached Elijah and talked with him. But as a result 
of that happening, Kelly came to the school and met with every 
single person that would come in contact with Elijah from the 
janitor to the teacher--which the teacher was already a part of 
the integral planning--everyone, and explained, ``Listen, when 
you see Elijah trying to talk, let him talk.''
    That was one of the main points I kept driving home is let 
him speak and tell you what is going on. It does not have to 
escalate to that point of aggression and people being hurt. It 
just does not. I do not believe that it has to.
    Mr. Crimmins. Chairman Harkin, if I might add----
    The Chairman. Yes, please.
    Mr. Crimmins. One thing. I heard you asking or commenting 
on the difference between the settings. But looking at how you 
heard about the effectiveness of those settings, I would 
actually ask you to think about what is similar in those 
settings.
    What was similar is really a commitment to positive 
approaches, a commitment to looking at teaching alternative 
behavior, a commitment to having a culture that is respectful 
of everyone and supportive of everyone. I would also ask us to 
think about, or ask you and other members of the committee, to 
look at other examples of broad systems change that have been 
put into place.
    The Children's Health Act of 2000 called for the 
elimination of seclusion and most restraint procedures in 
psychiatric facilities for children and youth. That is a large 
system driven with therapeutic goals in mind that manage the 
systems change largely through the idea of looking at the 
organizational culture and making a commitment to doing it a 
different way.
    We have examples out there of how this can work, but it 
really comes from leadership, it comes from commitment, and it 
comes from the values of what it is that we want to stress.
    The Chairman. In Centennial, is that the usual course where 
kids will come in and they will be there for a couple of years 
or so, then they go back to public schools? Is that sort of the 
way it operates?
    Mr. George. That is sort of the way it operates. Children 
come and the average, over the last 5 years, has been about 
2\1/2\ years and then they begin transition back to the public 
school.
    The Chairman. So do you positively go out to schools? I 
have a note here that says that 40 Pennsylvania school 
districts refer students to Centennial.
    Mr. George. Yes.
    The Chairman. Mostly because of behavioral issues, so when 
they go back, do you have some arrangement with them where you 
go over there and tell them how to treat those kids? Like you 
were talking about Elijah that you go and tell them, ``Here is 
how you treat this kid.''
    Mr. George. We do that as often as the resources will allow 
us to do so.
    When we send a child back to the public school, we also 
send a plan that goes with the child, and that plan informs 
receiving teachers of that child's characteristics, the 
triggers for the behavior, things that we have found works, how 
to speak with that child, emergency plans, choices that the 
child might be given. And we will actually teach the teachers 
onsite how to work with that particular child who is returning.
    The Chairman. OK. Montgomery County, do you ever refer this 
1 percent of kids that you really cannot handle, do you refer 
them to any kind of school? That is Pennsylvania, but is there 
such a thing in Maryland?
    Ms. Pitonyak. In Virginia.
    The Chairman. I am sorry, Virginia.
    Ms. Pitonyak. There are. In our area, there are several 
project day schools that support students with behavioral 
needs, but our IEP placements to those schools, it is not a 
blanket thing. We do not have a certain percentage that always 
seems to go there. It is a case-by-case situation and it is 
usually not so much about the characteristics of the particular 
student, but just about our capacity to marshal resources in 
the building depending on the school.
    The other thing that is an issue, too, is we have to work 
with families on what works for them. For example, if we 
believe that we could successfully and safely--you know, these 
things, they develop over time and it takes time to improve 
them. If we are thinking, ``Gosh, if we could maybe reduce the 
day a little bit, do a little bit of home-based stuff too, work 
together there, and then gradually increase the day, we think 
we could do that.''
    But sometimes we have families in situations where it would 
be an undue hardship to them for us to be able to be flexible 
like that in our programming. So we will sometimes work to 
another setting simply because of that child's particular 
circumstances, and not characteristics of that student.
    One quick comment, too, related to the training and the 
Kelly's that are wonderful, that go out and work in schools.
    In Montgomery County, one thing that has been really 
critical for us is that learning while you do it, the example 
right there, every day in the building with you. And we have 
special education teachers in our elementary schools that have 
a little bit of their day designated to provide leadership to 
these individual student teams in developing positive behavior 
support plans.
    My job in the central office is to keep those people 
trained and prepared. The principal's job is to set the 
expectation that positive supports will be used with the 
student, and create flexibility so the teams can meet, they can 
talk, they have the time to be together.
    And even though we do a lot of overall global training for 
folks, and we use some of our stimulus funding to expand our 
crisis de-escalation sort of training for people, it is that 
day-to-day work, side-by-side with somebody that understands 
how to do it. That sort of, ``I do it first, then we do it, 
then you do it, and I give you feedback,'' that is what really 
works because you have to stick with teachers through that 
uncomfortable process of change.
    The Chairman. I just made a note. You said you were far 
from perfect, but my notes say that you have only 6----
    Ms. Pitonyak. That is correct. We have far fewer students.
    The Chairman [continuing]. Out of almost 900 that are 
referred to day schools.
    Ms. Pitonyak. Yes.
    The Chairman. I think that is pretty awesome.
    Ms. Pitonyak. Thank you.
    The Chairman. That is pretty close to being perfect. The 
other thing that I just have to bring up, and we have to close 
here pretty soon, is that we ask a lot of our teachers these 
days.
    To be sure, as you know, IDEA in its full implementation 
means that we have kids in classrooms today that, in the old 
days, never would be there. They would be isolated, sent off to 
some school by themselves someplace like my brother was, 
halfway across the State someplace in isolation.
    But now, we get kids in with a lot of problems, they may 
have family problems, who knows what happened to them early in 
life, or maybe they just have other inherent problems. We ask 
teachers not only to teach, but to be almost like therapists, 
and psychologists, and almost psychiatrists in so many ways.
    So, I wonder aloud sometimes whether or not we are doing an 
adequate job of training teachers. Not just teachers, as you 
said, it was the cafeteria workers and other people in school 
that come in contact with these kids that has to have broad-
based training.
    I have often wondered if we do not need more than one 
person in that classroom, maybe a teacher, but maybe another 
person that is trained in these positive behavioral support 
mechanisms, trained to do the kind of things that you do at 
Centennial, but do them in public schools.
    Mr. George. Yes.
    The Chairman. Maybe we need to think about having more 
people, someone else in that classroom besides just a teacher. 
I just worry about teachers getting overloaded, especially in 
our elementary schools. They just get overloaded with a lot of 
work.
    Ms. Jackson. Mr. Chairman.
    The Chairman. Yes.
    Ms. Jackson. Elijah's current teacher that he has in the 
public school both last year for his transition and also due to 
cutbacks--a good thing that she has moved into the fourth 
grade--is a previous Centennial teacher, and she is the only 
teacher in the classroom of 20-plus kids, and consistently uses 
what she has learned at Centennial.
    She has been training, she has actually been such an 
important piece in the transition because she shares her 
knowledge, and her techniques, and what she has learned with 
other teachers that come in contact with Elijah. The open 
communication with the parent and myself, with them at 
Centennial, is a complete loop. There are no secrets. I sign 
everything so everyone can partner to make this successful.
    But to look at my son, you would not even know there was 
anything going on with him.
    The Chairman. Dr. George, does Centennial--since you seem 
to be unique in how you operate it, and you have good data--
have you connected with other like schools around the country 
or are you just sort of in Pennsylvania? I mean, there must be 
other schools like you around the country, or other day 
schools, other places where kids go.
    Is there any kind of outreach? Is there any kind of a 
network out there of schools like yours?
    Mr. George. We do provide some training for schools when 
invited to do so.
    The Chairman. Yes.
    Mr. George. I think there is a lot of work that needs to 
occur in our day schools. I applaud the movement of children 
back to public schools in supportive environments.
    I would almost argue against self-contained day schools 
because in many cases, they use these intrusive procedures of 
seclusion and restraint, and sometimes I think they make the 
children worse.
    The Chairman. What I am getting at is I do not know how 
many other schools there are like yours in the United States. I 
do not know that.
    Mr. George. There are probably about 10,000 I believe.
    The Chairman. Like yours. But, I mean, how many----
    Mr. George. Not 10,000 that do things the way we do.
    The Chairman. That is what I am talking about.
    Mr. George. Yes.
    The Chairman. How many do things the way you do, and use 
the kind of approaches which you seem to have perfected, and 
which seem to work extremely well? Maybe they just do not know 
how to do this, or they have not had the kind of exposure to 
what you are doing.
    How many schools? Do you know of any other schools that 
operate the way you do?
    Mr. George. I know of one, that is the one in Lane County. 
That was the one I formerly operated, and it is now in the 
competent hands of Robin Hartshorne, who is the administrator 
there.
    The American Institutes for Research, I believe it was in 
1998, surveyed the country. This I got by hearsay; I do not 
have it in writing. But in talking to some of the members of 
the team, they went around the United States looking for 
effective alternative day schools, and they found very few. I 
think she said it was a handful. Most were schools that control 
students; schools that use lots of worksheets; schools that use 
reactive procedures such as seclusion and restraint; schools 
that were chaotic, and destructive, and violent.
    Mr. Crimmins. Mr. Chairman, there are. The Department of 
Education, in their recent report, did suggest that there are 
17,000 schools, public schools, that use the model that has 
positive behavior intervention and support. It is a very 
widespread model. I mean, not in the specialized schools so 
much as Dr. George has described, but in the context much more 
of what Miss Pitonyak described.
    The 17,000 schools that use the broad model that looks at, 
how do you structure the schools? How do you have clear 
expectations for the students, their positive behavior? How are 
they communicated to the students? How are the students given 
essentially the feedback, the reward for behaving in the ways 
we want them to behave rather than reacting to them? And that 
comes out of collaboration. It comes out of teamwork. It comes 
from leadership, and it is really being implemented across the 
United States.
    The Chairman. Michael, on my staff, just said that each 
school in Montgomery County has a positive behavioral support 
person?
    Ms. Pitonyak. Yes.
    The Chairman. In the building, each school has one person 
in the building to support teachers, and they use their IDEA 
and Title I monies to do this.
    Ms. Pitonyak. Yes, and it is usually a portion. The teacher 
also has a special education teaching caseload, a small one, 
but they have the dedicated time in their day to provide that 
modeling and support to other teachers.
    But a critical point, I think too, is that kids are kids. 
We have to be careful about over-pathologizing, over-mystifying 
the behaviors of some students that we have a hard time 
understanding because they do not talk, or because they have 
autism, or other kinds of disabilities.
    In public school, our responsibility is academic success, 
but it is also to teach our children to be citizens and 
community members. So, we are not asking teachers to be, in my 
opinion, therapists and psychologists.
    What we are doing is asking them to teach, to help us, to 
help kids become citizens, and the skills that they learn in 
working with the toughest kids works and stays with the kids 
that are not as tough. It is not like this is a waste of 
people's time that does not carryover and benefit to other 
things.
    In public school, if we did not try so hard to cling to the 
flexibility to do things the way we have always done them, if 
we could just put our time into saying, ``This stuff hurts 
kids. It has even killed kids.'' And there are 40 years of 
research to support positive behavior support. It is not a 
brand new thing. Any special education director in the country 
should be familiar with it. This is established stuff.
    The Chairman. Are teacher preparation programs equipped to 
train teachers to use positive behavioral support?
    Ms. Pitonyak. In our area, the local universities that do 
teacher preparation do, I think, a good job of preparing 
teachers. But to really learn this, you learn it on the job. 
You cannot expect people to just walk in with some classes in 
their back pocket and be able to do this. You have to do it on 
the job, and schools have to support teachers through it, and 
model for them what to do, and plan and problem solve.
    We pour our resources into elementary school because we 
have learned that we clear it up there and we do not get it 
later.
    The Chairman. Early intervention. When you developed your 
teacher training program on positive behavioral support, did 
you draw from some other school system, or did you just sort of 
develop this yourself?
    Ms. Pitonyak. We sort of developed it ourselves as we went. 
We drew heavily on Johnson City, NY 23 years ago when we were 
doing inclusion. We even took buses and teachers up to see what 
we wanted to do there.
    But, again, our inclusion and positive behavior supports, 
for us, are hand in hand. We had to develop them because our 
kids were not going to be able to be in class together unless 
we could do something preventive. But there is a lot of great 
work out there.
    Dr. Crimmins' work is great work, we have heavily used. The 
resources are totally there. School-wide positive behavior 
support, it is all there.
    The Chairman. Let me ask you this, then, Dr. Crimmins, all 
of you, Dr. George, what more could the U.S. Department of 
Education be doing?
    The reason I ask that is because I want to acknowledge Dr. 
Melody B. Musgrove, who is here. She is appointed by the 
President as the Director of the Office of Special Education 
Programs at the U.S. Department of Education. Under her 
leadership, the Department reached the issue of helpful 
guidance on this one issue.
    What I am asking you is what more could the U.S. Department 
of Education be doing, some kind of a clearinghouse or some 
kind of a way of getting information out? What would you like 
to tell Dr. Musgrove to do?
    Mr. Crimmins. There certainly are clearinghouses. There are 
training programs available. What I would actually risk saying 
here, Senator, is that----
    The Chairman. You have immunity.
    Mr. Crimmins. Oh, good. That is good to know.
    But I think the schools need the push that the Department 
of Education could support with the kinds of training 
resources. The knowledge is there. Essentially the science of 
this is available. What we need is a commitment to make this 
change. We need to eliminate the use of these procedures.
    And I hate to say it, but I think that comes from your side 
of the branches of Government, not necessarily the executive 
branch.
    The Chairman. Are you saying that we should be doing 
something in our reauthorization of the ESEA to address this?
    Mr. Crimmins. Senator Harkin, you would know better than I 
which law that should go into.
    But what I can tell you, and again, let me go to our 
Georgia regulation that has the rule, the status of law: 
seclusion is not allowed, most forms of restraint, chemical, 
mechanical, prone restraints not allowed.
    The Chairman. This is a State law.
    Mr. Crimmins. Effectively State law. The physical restraint 
may be used as in emergency situations, staff must be trained. 
Parents must be notified. And if used, there must be a plan for 
how can we avoid its use. Those are all, I think, very 
reasonable kinds of statements.
    The Chairman. I guess what I am thinking of more, excuse me 
for interrupting, Dr. Crimmins, is the training of teachers and 
the expectation of teachers to be trained in positive 
behavioral support. Because you said you were using, I think if 
I am not mistaken, some Title I monies and IDEA monies, right, 
to support a person in each school to do this.
    Ms. Pitonyak. Yes, yes.
    The Chairman. Should that be something we should be 
thinking of promoting from a national standpoint?
    Mr. Crimmins. Part D of IDEA allows specifically for 
training in positive behavior intervention in the schools. And 
even though it is IDEA, it allows that training, the funding, 
to go to teachers who are not special education. In fact, they 
are the general education teachers because it is important to 
the entire school that these alternative ways of providing 
structure and support for students be available.
    The Chairman. Dr. George, any observations on this?
    Mr. George. I thought the resource from the U.S. Department 
of Education, Arnie Duncan had just published very recently on 
seclusion and restraint, a resource guide. It is a very 
valuable tool. I believe it sets a high standard for schools to 
achieve. I think it summarizes what we know works. I do believe 
we need more intensive training particularly of teachers who 
serve children with emotional and behavior disorders.
    We need more teachers to begin with. Not many people go 
into the field. They are fearful. They hear horror stories.
    Years ago, we conducted a national survey and asked 
teachers one simple question: were you adequately prepared for 
the realities of the job? Sixty-six percent of those teachers 
indicated ``no''.
    The Chairman. Yes, 2 out of 3.
    Mr. George. Sixty-six percent. If we asked heart 
specialists and they came back with that response, I think we 
would all be a little bit nervous.
    We do need more training. Youngsters who graduate with a 
bachelors do not come out fully prepared. It is up to those 
school districts, through their in-service, to train those 
teachers specifically in the types of behaviors and procedures 
they will need on the job. And training monies would be very 
helpful.
    The Chairman. Yes.
    Ms. Pitonyak. I would add to that. I think the expectation 
in public school, we need our feet held to the fire a little 
bit. We need the expectation that public school is something we 
take very seriously. It means ``public''; everybody.
    In any school, you are going to have students who do fine 
with the regular rules and procedures in the school. You are 
going to have a group of kids who are seriously at-risk and 
they need intervention. Then, you are going to have a small 
group of kids who need highly individualized intensive support. 
That is a normal school population right there, and it is the 
responsibility of the school to serve those kids.
    We need to stop pathologizing these students at the top. 
They are just part of our community. It is our job to serve 
them, and I think leadership is the key. It is principals, 
superintendents, leaders who need that special direction.
    The Chairman. Yes, Miss Jackson.
    Ms. Jackson. Is it not possible to require a year of hands-
on training in an environment or in a school that is like 
Centennial or the schools, it sounds like, in Montgomery? 
Cannot that be required before you receive a bachelor's in 
training or in teaching for every teacher?
    The Chairman. How do you train your teachers at Centennial? 
They come out of school and they want to teach.
    How do you train them?
    Mr. George. Our teachers from Centennial School are 
graduate students at Lehigh University in the special education 
program.
    Ms. Jackson. Yes.
    Mr. George. They work at Centennial School for 2 full 
years, take their classes in the evenings. We train them 
onsite.
    Ms. Jackson. Yes.
    Mr. George. Every Wednesday afternoon for an additional 3 
hours. It is similar to the medical profession where they are 
doing a 2-year residency.
    Ms. Jackson. Yes.
    Mr. George. They work under dense supervision with constant 
feedback.
    The Chairman. Interesting.
    Mr. George. They look, they do, they, et cetera. It is a 
very intensive program.
    After a while, they are able to implement these procedures 
and make it look very natural. You would not even recognize it 
as they were doing something differently.
    Ms. Jackson. Yes.
    Mr. George. They are highly trained when they leave our 
setting. Consequently, we turn over staff quite frequently, so 
we are constantly training and it is a full-time job just to 
train the teachers.
    The Chairman. Where do they go when they leave you? Do they 
go into public schools?
    Mr. George. They go into the public schools. They go around 
the country. We could probably place a teacher with a phone 
call. We simply explain how they have been trained and 
administrators scoop them up.
    The Chairman. My time has completely run out. But listen, 
this has been extremely educational for me, very enlightening.
    I still have questions about what we should be doing 
legislatively. We do not have an ESEA reauthorization. We got 
it through our committee, but it looks like it is deadlocked 
for this year, so we will probably have to address it again 
next year.
    We have both IDEA and ESEA that we have to address. And 
we'll appreciate any thoughts that you have, any of you here, 
on how we get more training, and how we get more focus on 
training in positive behavioral supports to our schools. How do 
we take what is happening at Centennial and in public schools, 
what they are doing in Montgomery County, Virginia and spread 
this around the country? I would like to say also, how do we 
get more States to adopt the kind of laws that Georgia has too, 
but that is sort of beyond my ability to do.
    But we do need to know how we can start focusing more on 
getting away from the old ways of doing things. I do not know 
that we have any really good data to show positive outcomes 
from the old ways, but we do have pretty good data to show the 
positive outcomes from what you all have been doing.
    I want to thank all the witnesses for their testimony, and 
for being here, and for all the work you do every day. Miss 
Jackson, thank you. I understand you had to take unpaid leave 
to be here today, we really appreciate that very much.
    Ms. Jackson. It was my pleasure and my honor. Thank you.
    The Chairman. Thank you for being here. Sheila Foster, 
thank you, again, for being here today. You two ought to get to 
know each other.
    Ms. Jackson. Yes.
    The Chairman. Because I think you make powerful 
presentations.
    I look forward to working with our committee colleagues on 
this issue to ensure that all students and staff are safe in 
our schools.
    We will leave the record open for 10 days to allow 
additional statements or supplements to be submitted for the 
record.
    Does anyone have any last thing they wanted to add before I 
close the meeting? Any last thing?
    Mr. Crimmins. Thank you, Senator.
    The Chairman. Thank you all, very much.
    Mr. George. Very much.
    The Chairman. Safe travels back home. Thank you.
    Ms. Jackson. Thank you.
    The Chairman. The committee will be adjourned.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

 Prepared Statement of the Autism National Committee by Jessica Butler
    The Autism National Committee is a 22-year-old national nonprofit 
organization that advocates for children and adults with autism and 
related disabilities. We thank Chairman Harkin and Ranking Member Enzi 
and the committee for holding these hearings devoted to preventing 
restraint and seclusion and creating positive learning environments for 
all students. As the hearings have demonstrated, positive interventions 
can reinforce appropriate behaviors and reduce dangerous behaviors.
    America's schools educate over 55 million children, but schools 
remain the only major institution without Federal statutes and 
regulations protecting children from restraint and seclusion. For more 
than two decades, evidence of the physical and psychological toll 
caused by restraint and seclusion has accumulated.\1\ A 2009 Government 
Accountability Office study found that children have been injured, 
traumatized, and even killed through the use of restraint and 
seclusion. At least 20 of the cases the GAO documented involved 
children who died from restraint. Children have suffered broken bones 
and other injuries, or had post-traumatic stress syndrome.\2\ National 
organizations have documented the harms of these procedures.\3\ School 
staff are also put at risk of injury.\4\ Because of these dangers, 
restraint/seclusion should be used rarely and only when necessary to 
prevent a physical safety emergency.
---------------------------------------------------------------------------
    \1\ H.R. Rep. No. 111-417, Preventing Harmful Restraint and 
Seclusion in Schools Act 14 (2009), http://1.usa.gov/HR111417.
    \2\ U.S. Government Accountability Office, Seclusions and 
Restraints, Selected Cases of Death and Abuse at Public and Private 
Schools and Treatment Centers (2009), http://1.usa.gov/gaors7.
    \3\ National Disability Rights Network, School Is Not Supposed to 
Hurt (2009), http://bit.ly/ndrn2009; J. Butler, Council of Parent 
Attorneys & Advocates, Unsafe in the Schoolhouse: Abuse of Children 
with Disabilities (2009), http://bit.ly/UnsafScho.
    \4\ Reece L. Peterson, Developing School Policies & Procedures for 
Physical Restraint and Seclusion in Nebraska Schools, a Technical 
Assistance Document 20 (Nebraska Dept. of Educ. 2010), http://bit.ly/
NErsdoc1.
---------------------------------------------------------------------------
    The hearings have illustrated the need for a national policy that 
will limit restraint and seclusions to such emergencies, and instead 
promote a culture of de-escalation, conflict resolution, and other 
positive, preventative interventions. Today, the absence of such a 
strong national policy harms students and staff across the Nation, as 
noted below. The State information is from Jessica Butler, How Safe Is 
the Schoolhouse? An Analysis of State Seclusion and Restraint Laws and 
Policies (Autism National Committee 2012), http://www.autcom.org/pdf/
HowSafeSchool
house.pdf. The report used 51 ``States'' to include the District of 
Columbia.
 few states protect children from non-emergency restraint and seclusion
    Because restraint and seclusion are so dangerous, it is vitally 
important that they not be used in non-emergency circumstances. But 
fewer than one-third of States have laws (statutes or regulations) that 
provide such protection.
    There are 16 States that limit restraint of children with 
disabilities to emergencies threatening imminent physical danger, with 
the five asterisked States imposing a serious physical harm standard: 
Alabama, Colorado, Connecticut, Florida*, Georgia, Illinois, 
Louisiana*, Maine, New Hampshire*, Ohio, Oregon*, Pennsylvania, Rhode 
Island*, Tennessee, Vermont, and Wisconsin. Only 11 of these States 
extend their protections to all children. (Historically, States have 
regulated restraint/seclusion through their special education statutes 
and regulations because of the particular risks faced by people with 
disabilities. All of the children in the GAO study who died had 
disabilities.)
    There are 33 States that by law or guidance would define seclusion 
as a room or space which a child is physically prevented from exiting 
(e.g., the door is locked, blocked by furniture, held closed by staff, 
etc). But only 12 States have laws protecting students with 
disabilities from non-emergency seclusion, either by limiting it to 
physical safety emergencies (Oregon, Colorado, Louisiana, Maine, 
Tennessee, Vermont, Wisconsin, and Wyoming) or by banning it (Georgia, 
Nevada, Pennsylvania, and Texas). Of these, seven extend the 
protections to all children.
    In other States, seclusion and restraint may be used for such 
things as tantrums and other disruptions that threaten no one, 
destroying property, discipline, punishment, forcing compliance, and 
even as a substitute for proper educational programming--meaning 
putting children in seclusion rooms or restraint rather than providing 
education in the classroom with peers. Many States allow restraint and 
seclusion for destruction of property, with no distinction made between 
dangerous destruction of property and non-harmful acts that threaten no 
one. Only three States that permit restraint/seclusion for property 
destruction (Nevada, Texas, and West Virginia), limit it to serious 
destruction. But when destruction of property threatens physical 
danger, it should be treated as a threat of imminent physical harm, and 
restraint/seclusion imposed on that basis if necessary. Indeed, most 
professionals do not consider destruction of property a legitimate 
basis for restraint or seclusion.\5\ Rather, non-dangerous property 
destruction, like educational disruption, is readily resolved through 
positive behavioral supports, de-escalation, conflict resolution, and 
other adjustments.
---------------------------------------------------------------------------
    \5\ H.R. Rep. No. 111-417 at 10, 14.
---------------------------------------------------------------------------
    Only 18 States by law require that less intrusive methods either 
fail or be deemed ineffective before seclusion or restraint are used. 
When less restrictive and less dangerous measures will prevent the 
threat, they should be used. Only 17 States by law require restraint 
and/or seclusion to cease once the emergency ends. Some children have 
remained in seclusion/restraint until they can sit perfectly still, 
show a happy face, or do other tasks unrelated to an emergency.
 the need for laws that prevent associated restraint/seclusion dangers
    Children locked in seclusion rooms without continuous visual 
monitoring have been killed and hurt. In 2004, 13-year-old Jonathan 
King killed himself in a seclusion room, while the teacher sat outside, 
checking in occasionally. In 2011, an Indiana student attempted suicide 
in an unobserved seclusion room, according to the National Disability 
Rights Network. He was in the room for having urinated on himself the 
previous day while locked for hours in the room. An Alabama child was 
locked into a chair and placed in a seclusion room alone; she flipped 
the chair upside down and was hanging by the straps, and also urinated 
on herself. Of the States allowing seclusion, only 17 require staff to 
continuously watch the students; 30 States lack such laws. Five States 
have monitoring rules that explicitly permit staff to leave the child 
alone and check in only occasionally--which is how Jonathan King died.
    Of the hundreds of stories the GAO collected, at least 20 involved 
children that died from restraint. According to House hearing 
testimony, an African-American child with a disability was suffocated 
in a restraint by his teacher after he tried to leave class to get his 
delayed lunch. Still, only 18 States have laws banning all restraints 
that obstruct breathing for students with disabilities; only 10 protect 
all children. Moreover, only 11 States ban chemical restraints, and 16, 
mechanical restraints, for children with disabilities. Children have 
been duct taped to furniture, locked into chairs and other equipment, 
and left for hours, and been subjected to dangerous chemical restraint.
        sunshine and information (for parents and the community)
    Parents must be notified promptly of seclusion/restraint, so they 
can seek medical care for concussions, hidden injuries, and trauma. But 
far too often, parents are told nothing--until it is too late. Of the 
25 States with parental notification laws, 20 require schools to take 
steps to notify parents on the same day or within 24 hours--a strong, 
good public policy that should be adopted nationally. There are 26 
States with no legal requirement at all to tell parents that a child 
with a disability was restrained/secluded. (Only 15 States have laws 
requiring parental notification for all children, meaning that 36 do 
not).
    Likewise, data collection is important for an informed public, to 
promote sunshine and oversight, and to provide information to minimize 
use of restraint and seclusion. In its 2009 report, the GAO found that 
no single entity collected information on the use of seclusion/
restraint or the extent of their alleged abuse. Data showed at least 
33,000 incidents of restraint or seclusion in Texas and California in 
2007-8. Yet, only 13 States collect even minimal data on the use of 
restraint/seclusion each year.
        individualized education programs and similar documents
    Some have sought to include restraint and seclusion in 
Individualized Education Programs. IEPs are educational planning 
documents; restraint and seclusion are not educational techniques but 
emergency procedures. Parents report that the IEP process can be 
unlevel, with parents having little control over IEP content and 
reporting that there may not be agreement on the issues. Further, 
permitting restraint/seclusion into IEPs can increase their use because 
IEP procedures tend to become routine practices. Some have proposed 
that the law specifically authorize restraint/seclusion to be included 
in ``individual student safety plans'' or other similar documents. Such 
plans would be entirely unregulated, lacking the protections that the 
Individuals with Disabilities Education Act and the Rehabilitation Act, 
Section 504 provide for children with disabilities. These protections 
are very important to maintain.
                    laws and policies in all states
    There has been some misconception about the extent of State laws 
and policies. There are 12 States with nonbinding restraint/seclusion 
guidelines. These lack the force of law, provide no binding protections 
for children, and can be readily changed by the State Department of 
Education with little limitation. They are not the equivalent of 
statutes or regulations. Some are simple memos; others list factors 
schools might consider in imposing restraint/seclusion.
    There are seven States with minor provisions in statute or 
regulation that provide little or no protection. For example, one State 
regulates only restraint/seclusion of children with autism. Even for 
these children, abusive techniques can be authorized by committee. 
Another State law simply bans ``unreasonable restraint'' (undefined 
term) and is silent on seclusion. Yet a third State has a law 
explicitly allowing restraint in some circumstances, not barring it 
others, and not regulating seclusion at all.
    There are 30 States with statutes and regulations providing some 
degree of substantial protection against restraint and/or seclusion for 
children with disabilities. These have the force of law and must be 
obeyed. Even in these States, protections vary, with important 
safeguards often missing. Many do not require continuous visual 
monitoring of seclusion rooms. A large number do not prohibit life-
threatening restraints, or mechanical or chemical ones. Some States do 
not require schools to tell parents their child was restrained/secluded 
or set no deadlines for it. Many States by law allow restraint/
seclusion for any property destruction, tantrums, or similar 
disruptions that harm no one. Some States protect against restraint but 
not seclusion, or vice versa. New Hampshire provides for parental 
notification of restraint in its new statute but not of seclusion in 
its older regulations. Some States restrict restraint and seclusion to 
physical danger emergencies, but then permit it for any other reason at 
all if written into a behavior intervention plan, Individualized 
Education Program (IEP) or similar document: Massachusetts, North 
Carolina, and Maryland (restraint); Connecticut, Maryland, New 
Hampshire, and North Carolina (seclusion). Connecticut requires same 
day parental notification, unless seclusion is in a child's IEP, in 
which case the IEP team decides when and whether to notify parents. 
Other States likewise do not measure up to the minimum standards in the 
House or Senate bills.
    Because of the physical dangers that restraint and seclusion pose, 
and because laws and policies can be weak and have loopholes, 
exemptions for States are inappropriate. National minimum standards 
must protect all children. A Maryland child (regulation) should not 
lose his protections because his family moves to Virginia (non-binding 
policy) or Delaware (scant protection in regulation).
    the american association of school administrators' (aasa) survey
    In July 2012, the American Association of School Administrators 
issued Keeping Schools Safe: Ensuring Federal Policy Supports School 
Safety. It contained a restraint/seclusion survey of 389 
administrators. The survey is not representative of American schools. 
The vast majority of respondents came from districts with fewer than 
5,000 students; 61 percent came from districts with 2,999 students or 
less. But according to 2008-09 data from the National Center for 
Education Statistics, 69 percent of students were enrolled in districts 
of 5,000 or more; 84 percent, in districts of 2,500 or more. Indeed, 
there were 11.1 million students attending the country's 100 largest 
school districts (ranging from New York City to Shelby County, TN).\6\
---------------------------------------------------------------------------
    \6\ National Center for Education Statistics, Characteristics of 
the 100 Largest Public Elementary and Secondary School Districts in the 
United States: 2008-09, http://nces.ed.gov/pubs2010/100largest0809/
how.asp.
---------------------------------------------------------------------------
    Moreover, of the 389 AASA responses, 58 percent were from rural 
districts, 34 percent from suburban ones, and only 7.5 percent from 
urban districts--even though millions of children attend urban 
districts. States with high student populations were underrepresented, 
with 4 replies from California (6.1 million students); 9 from Texas 
(4.9 million students); and 15 from New York (3.1 million students). 
There were also few responses from populous States lacking restraint/
seclusion laws, including 9 from New Jersey (1.35 million students), 16 
from Michigan (1.5 million students), and 9 from Ohio (1.8 million 
students; only has executive order limiting some forms of restraint). 
While it is important to look at issues affecting small and non-urban 
school districts, such a report is not nationally representative.
    In addition, the survey's methodology appears to contain flaws. The 
survey did not report that it was open to all members of the public, 
allowing anyone to identify themselves as an administrator, 
superintendent, or other category of respondent; that the URL had been 
made public; that more than one person could respond from a district; 
and that while the survey sought specific factual information 
(including numbers and percentages), survey respondents were not 
instructed to check records, but could have guessed or estimated. 
Furthermore, certain questions could not be answered unless the school 
district kept records on the number of children restrained/secluded, 
which very few States require.
                               conclusion
    It is important to adopt a Federal law that protects all children 
nationwide. The current limited State approach deprives many students 
of protection. Restraint and seclusion should be used rarely only in 
emergencies threatening physical danger. Schools should take steps to 
inform parents within 24 hours when their child is subjected to these 
techniques. The most dangerous practices should be prohibited. A law 
that combines prohibitions on harmful restraint and seclusion practices 
with the support to ensure that schools use preventative, positive 
behavior practices will make schools safer for all, students and staff 
alike. We thank you again for focusing on these issues in the hearings.
      Prepared Statement of the National School Boards Association
    The National School Boards Association (NSBA), representing over 
90,000 local school board members across the Nation, is pleased to 
submit this Statement for the Record regarding the need to create and 
sustain positive and safe learning environments and to offer our 
perspective on the appropriate use of seclusion and restraints for all 
students. Additionally, we wish to share with the Senate Committee on 
Health, Education, Labor, and Pensions some of our concerns with the 
Senate bill, Keeping All Students Safe Act, S. 2020 that was introduced 
on December 16, 2011.
    The primary goal of our schools and local school districts is to 
provide high quality educational services that are challenging, 
rigorous and tailored to the maximum potential of every student through 
highly effective teachers and principals. The desired outcome is that 
such educational services will enable our students to successfully 
compete in the global workforce.
    In achieving this goal, we believe that a safe and positive 
learning environment for all students is essential. Federal, State, and 
local policy must effectively address appropriate safety protections 
not only for our students with disabilities, but for students enrolled 
in the general education program as well. We must also ensure the 
safety for all school personnel from those who drive and monitor our 
buses, to the food service personnel, to the professional and 
administrative support personnel to our teachers and principals.
        maximum flexibility to states and local school districts
    In support of this goal, local school boards want to be assured 
that Federal legislation addressing the use of restraints and seclusion 
provides maximum flexibility and authority to States and local school 
boards in its implementation. While Congress and the executive branch 
of government may establish broad policy goals and objectives, States 
and local school districts are in the best position to determine what 
works determined by evidence-based interventions. As you finalize the 
legislative language, we trust that this principle will serve as a 
primary guide.
                     training for school personnel
    With respect to training, we urge you to ensure that any 
requirements for training and certification must be structured in a 
manner that is reasonable, affordable and effective. A Federal policy 
that would establish training requirements and/or certification for all 
school personnel or even all within a certain category of employees or 
even major segments of the staff fails to recognize the uniqueness of 
the various operational environments of schools and would result in the 
unnecessary expenditure of already very limited funds. For example, 
Wisconsin State law permits the ``train the trainer'' model so that 
more employees would have access to the training without the 
requirement for certification.
                     data collection and reporting
    With respect to data collection and reporting requirements, we urge 
you to ensure that such requirements are at a minimum and take full 
advantage of existing reporting and data collection requirements to the 
maximum extent possible. We note that the U.S. Department of Education 
currently does not have the capacity to review and analyze existing 
reporting requirements. We believe that establishing additional 
reporting requirements without the capacity to conduct appropriate and 
timely analyses by the Department would serve no real purpose and 
create additional costs to school districts.
 key provisions in the senate bill, keeping all students safe act, s. 
                                  2020
    With respect to the pending Senate bill, S. 2020, has several 
provisions that cause us concern:

          a. Threshold for Use of Restraints. This is an extremely high 
        threshold based on the definition of serious bodily injury 
        adopted by IDEA in 2004. State hearing decisions have 
        demonstrated that for purposes of discipline, it is a high 
        standard: Tehachapi Unified School District (SEA CA 02-07-06) 
        and Pocono Mountain School District (SEAPA 12/12/08). To have a 
        teacher or other staff have to determine if the level of injury 
        will meet the IDEA definition before deciding to intervene is 
        not workable.
          Additionally, the bill limits the use of restraint to an 
        emergency with the imminent threat of physical harm to a 
        person. This, restriction, combined with the prohibition on 
        making restraint a planned-for intervention, takes away the 
        opportunity to effectively train and plan well for its use. 
        This bill would create a situation in which school staff would 
        simply be using it in ``emergencies'', which might occur over 
        and over, particularly in the case of some general education 
        students. Local school boards believe that reacting to an 
        ``emergency'' is far less effective than proactively planning 
        for a specific intervention that works for a particular 
        student. Further, the property damage portion is important. If 
        only an imminent threat of physical harm to a person is 
        included, local school boards could easily see a situation in 
        which a student must be allowed to destroy a classroom, which 
        would be costly as well.
          b. Debriefing Session. NSBA notes that the Senate bill 
        establishes requirements for a debriefing session to be held 
        within 5 school days following the imposition of a physical 
        restraint upon a student unless this session is delayed by 
        written mutual agreement by the parent and school. With some 
        States (e.g., Wyoming, Maine, Missouri) already requiring such 
        debriefings, they should continue to determine their timelines. 
        Further, the bill requires the debriefing session to include 
        all school personnel in the proximity of the student 
        immediately before and during the time of restraint, the 
        parent, the student, appropriate supervisory and administrative 
        staff, and appropriate IEP team members. These requirements are 
        burdensome and costly to the school and create conditions well 
        beyond the control of the school. Rather than to specifically 
        require their physical presence, NSBA recommends modifications 
        that provide an opportunity for personnel to submit information 
        verbally, in writing and electronically since all parties may 
        not be able to physically participate in the debriefing 
        sessions--especially in scheduling a session within 5 days.
          c. Flexibility to Address Unanticipated Threats to Student 
        and Staff Safety. From a policy perspective, any total 
        prohibition against the use of restraints or seclusion would 
        fail to recognize the need to be able to respond to certain 
        unanticipated circumstances that threaten the safety and 
        welfare of others. NSBA is pleased that the Senate bill does 
        recognize such circumstances and we would urge the committee to 
        ensure that such recognition is sustained in the language of 
        the final bill. We also note that the Senate bill establishes a 
        definition of ``seclusion'' that makes no distinction between a 
        room that is locked and one that is unlocked while preventing 
        the student from exiting. Such language appears too 
        restrictive. We recommend that the Senate bill follow the 
        action taken by the House Committee on Education and the 
        Workforce by adopting the definition which is already contained 
        in section 595(d)(4) of the Public Health Service Act (42 
        U.S.C. 290jj(d)(4).
          d. Prohibition Against References to the Use of Restraints or 
        Seclusion in Planning Documents. Perhaps our greatest concern 
        relates to language in the Senate bill that prohibits any 
        reference to the use of physical restraints into the student's 
        education plan, individual safety plan, plan developed pursuant 
        to section 504 of the Rehabilitation Act of 1973 (29 U.S.C. 
        794), individualized family service plan (as defined in section 
        602 of the Individuals with Disabilities Education Act (20 
        U.S.C. 1401), or any other planning document for an individual 
        student. Such a prohibition is unnecessary and counter to the 
        goal of ensuring a positive and safe environment for all 
        students and all school personnel. In this regard, there are 
        procedures related to each of these documents that require the 
        consent of the parents. Parents who agree to such entries in 
        the respective plans should not have their rights taken away. 
        Commitment to parent and family engagement means that parents 
        and family have the final say, not the Federal Government. NSBA 
        urges you to delete this requirement from the final 
        legislation.
          e. Recognition of Existing State Policy. Additionally, 
        according to the U.S. Department of Education, 39 States and 
        the District of Columbia have existing policy or guidance on 
        the use of restraints and seclusion. In such States, 
        implementation has been successful. As an example, North 
        Carolina has had success with strong, fair laws drafted 
        collaboratively by parent advocates and education officials. We 
        see no reason that these State policies, which have the support 
        of all major stakeholders, should now be rejected. Therefore, 
        NSBA recommends that the Senate bill provide for exempting 
        States that have established policies regarding the use of 
        restraints and seclusion. Further, while NSBA acknowledges that 
        the Secretary of Education has the authority to issue rules, we 
        recommend that such issuance should be permitted only after a 
        sufficient and appropriate public comment period.

    Local school boards across the Nation remain strongly committed to 
these priorities and recommendations and urge the Senate to fully 
address these critical concerns in the final Senate bill. We believe 
that our recommendations will ensure a much more effective and workable 
framework in addressing the challenges in providing a positive and safe 
learning environment for students enrolled in special and general 
education programs.
    NSBA appreciates the opportunity to submit this Statement for the 
Record. We look forward to working with the committee in finalizing key 
policies affecting our Nation's public schools.
                                 ______
                                 
   Consortium for Citizens With Disabilities (CCD),
                                      Washington, DC 20036,
                                                     July 20, 2012.
Hon. Tom Harkin, Chairman ,
Health, Education, Labor, & Pensions Committee,
U.S. Senate,
Washington, DC 20510.

Hon. Mike Enzi, Ranking Member,
Health, Education, Labor, & Pensions Committee,
U.S. Senate,
Washington, DC 20510.

    Dear Senators: We write today on behalf of the Education Task Force 
of the Consortium for Citizens with Disabilities \1\ to thank you for 
holding the hearing last week on alternatives to using restraint and 
seclusion in schools.
---------------------------------------------------------------------------
    \1\ The Consortium for Citizens with Disabilities is a coalition of 
over 100 national consumer, advocacy, provider and professional 
organizations headquartered in Washington, DC. Since 1973, the CCD has 
advocated on behalf of people of all ages with physical and mental 
disabilities and their families. CCD has worked to achieve Federal 
legislation and regulations that assure that the 54 million children 
and adults with disabilities are fully integrated into the mainstream 
of society. Approximately 50 national organizations participate in the 
CCD Education Task Force.
---------------------------------------------------------------------------
    The testimony offered by the witnesses during the hearing, Beyond 
Seclusion and Restraint: Creating Positive Learning Environments for 
All Students, reinforced that restraint and seclusion are practices 
that should only be used in emergency situations in which the student's 
behavior poses an imminent danger of physical injury. The witnesses 
discussed concrete examples of schools that have shifted from using 
these practices to preventing and reducing the need for their use 
through de-escalation techniques, conflict management and evidence-
based positive behavioral interventions and supports. The hearing also 
highlighted that this shift in focus has helped school personnel 
understand the needs of their students and safely address the source of 
challenging behaviors, leading to a better result for everyone in the 
classroom. Finally, the hearing emphasized the critical role of 
training for teachers in using these positive approaches to keep their 
students and themselves safe.
    The Education Task Force is very pleased to see bipartisan support 
for examining the issue of restraint and seclusion in schools and their 
alternatives. We thank you for your leadership, and look forward to 
continuing to work with you on this important issue.
            Sincerely,
                                             Katy Beh Neas,
                                                      Easter Seals.

                                               Laura Kaloi,
                         National Center for Learning Disabilities.

                                               Cindy Smith,
                                National Disability Rights Network.

Response to Questions of Senator Murray by Daniel Crimmins, B.A., M.A., 
                                 Ph.D.
                              legislation
    Question 1. As you consider State laws regarding seclusion and 
restraint, are these laws adequate in ensuring children are safe when 
they go to school and will not be subjected to seclusion and restraint 
in non-emergency situations?
    Answer 1. There is a tremendous variability among the States in 
their laws related to the use of seclusion and restraint in non-
emergency situations. Sixteen States have laws that limit restraint to 
emergencies for children with disabilities, usually using a standard 
that there is an immediate risk of physical harm or serious physical 
harm. Eleven States have these protections for all children. Many 
States have no laws or have loopholes that allow restraints to be used 
with little limitation. Even fewer States regulate the use of 
seclusion; only 12 States protect children with disabilities from non-
emergency seclusion and only 7 extend these protections to all 
children.
    Because current State laws are a patchwork of varying protections, 
and because of the serious risks involved with restraint and seclusion, 
I do not believe the current State laws are adequate to protect all 
students from restraint and seclusion in non-emergencies.

    Question 2. Other areas of social policy have Federal laws 
prohibiting or limiting the use of seclusion or restraint, but 
education does not. How does the Chairman's Keeping All Students Safe 
Act compare with these other Federal policies?
    Answer 2. The Children's Health Act of 2000 established protections 
from the use of seclusion and restraint in public and private general 
hospitals, nursing facilities, intermediate care facilities, and other 
health care facilities receiving Federal funds. The law restricts 
restraint and seclusion to situations where the physical safety of the 
patient or a staff member is at risk, and requires close medical 
supervision when they are used. In these settings, the law states that 
restraint and seclusion can only be imposed on a patient if done so 
under the written order of a physician or other licensed practitioner. 
The order must specify the duration and circumstances under which the 
restraints are to be used (except in specific emergency situations). It 
requires facilities to report any deaths that occur within 24 hours 
after a patient is restrained or in seclusion, or where it is 
reasonable to assume that a patient's death may have resulted from 
seclusion or restraint. It also requires these facilities to work 
toward the elimination of any use of restraint and seclusion for 
purposes of discipline or convenience. Finally, the Children's Health 
Act requires that an adequate number of trained staff be available to 
evaluate patients and write treatment plans and that adequate training 
be provided to staff in the use of restraints and their alternatives.
    The Children's Health Act also limits the use of seclusion and 
restraint in non-medical, community-based facilities for children and 
youth. In these settings, seclusion and restraint may only be imposed 
by an individual trained and certified in the use of these procedures 
and their alternatives, including the needs and behaviors of the 
population served, escape and evasion techniques, relationship 
building, de-escalation methods, and avoiding power struggles. These 
individuals must also be trained in the potentially dangerous 
physiological and psychological impacts of seclusion and restraint, 
including monitoring physical symptoms, recognizing signs of distress, 
and obtaining medical assistance. Programs using seclusion and 
restraint must also have procedures in place for monitoring and 
documentation, obtaining approval for continued use, addressing 
problems occurring during their use, following up with staff, and 
investigating injuries and complaints.
    S. 2020 is an important step toward the goal of providing States 
with consistent standards toward the elimination of seclusion, 
mechanical and chemical restraint, and physical restraint that 
restricts breathing or is contraindicated by the student's disability 
or health condition. The bill also prohibits the use of physical 
restraint as a planned intervention in a student's education plan. It 
requires that school personnel who implement physical restraint in 
emergencies be trained and certified and that they continuously monitor 
the student. Finally, S. 2020 requires that parents be notified if 
physical restraint is used, and also calls for a meeting with family 
and school personnel to identify ways to prevent the future need for 
restraint.
    The Children's Health Act is more prescriptive than the Chairman's 
bill in providing protections and training requirements around the use 
of restraint and seclusion. Specifically, it requires training in more 
areas and requires a doctor's order before restraint and seclusion can 
be imposed on a patient. However, many of the common-sense protections 
found in the Children's Health Act are included in S. 2020.

    Question 3. In your testimony, you indicated there were nearly 
40,000 incidents of physical restraint reported during the 2009-10 
school year with 70 percent of those incidents being with students with 
disabilities, and a disproportionate number being African-American and 
Hispanic students. In light of these facts, is there a role for Federal 
legislation on this issue or should it be left to the States?
    Answer 3. In my revised testimony, I clarified that there were 
nearly 40,000 students (not incidents) who were physically restrained 
during the 2009-10 school year. The number of incidents is very likely 
much higher. Given the disproportionate use of seclusion and restraint 
on students with disabilities and students belonging to racial 
minorities, I do believe that Federal legislation is the solution to 
the problem of seclusion and restraint in schools, as it has been for 
so many civil rights issues.
                                research
    Question 4. In summary, what has the field concluded from research? 
Is there any peer-reviewed and published research that indicates 
seclusion or restraint is effective practice in special education for 
students with emotional or behavioral disabilities? And, is there any 
peer-reviewed and published research that indicates positive behavior 
interventions and supports are more or less effective than seclusion or 
restraint in special education for students with emotional or 
behavioral disabilities? Is there any peer-reviewed and published 
research on the effect of seclusion or restraint on school children?
    Answer 4. There is no evidence that seclusion or restraint benefit 
individual children, nor do they ensure safe schools. In fact, there is 
a great deal of evidence to the contrary. There are thousands of 
schools and districts that have never used restraint and seclusion and 
would not consider them to be a legitimate tool, especially when 
strategies such as Positive Behavior Intervention and Supports have 
been demonstrated to promote a positive school climate in addition to 
helping manage challenging behaviors.
    What we must keep in mind is that there is a great deal of evidence 
showing that behaviors often serve as forms of communication--they 
occur in often predictable situations and lead to predictable outcomes. 
They are a symptom of a problem or need whose source must be addressed. 
The best tool to do this is the Functional Behavioral Assessment, 
generally referred to as an FBA, which has been part of the Individuals 
with Disabilities Education Act (IDEA) since 1997. The FBA helps us to 
understand the reason for the behavior, develop safer and more 
appropriate strategies for prevention, and should point to new 
replacement behaviors that the student needs to learn to do instead. 
There is a wealth of research supporting the long-term solution for 
students requires the anticipation of behavior, being proactive in 
order to break the cycle of dangerous behavior, and instruction in 
alternative behaviors.
    An extensive list of peer-reviewed research related to positive 
interventions can be found on the Office of Special Education Programs 
Technical Assistance Center on Positive Behavioral Interventions and 
Supports site, www.pbis.org.
    <bullet> A family from Washington State recently shared their story 
with me about their grandchild. The family has given me permission to 
share their story, in their own words.

          ``We are a family who lives in Washington State; our 
        grandchild has autism. As a young child, he was very happy and 
        enjoyed his 2 years of preschool very much. When he entered 
        kindergarten a few years ago, he was full of hope. But placed 
        into a `behavioral classroom,' he was repeatedly restrained and 
        secluded, until he developed injuries, worse meltdowns, and 
        fear of school. Our family was never told this was happening. 
        The school district never informed us of our rights. We 
        discovered them ourselves online. After we advocated for 
        positive behavioral supports, our grandson began to grow and 
        flourish. The meltdowns ended; the injuries ended; and he began 
        to bloom and make academic and functional progress. I hate to 
        think of what would have happened if we had not discovered our 
        rights.
          During pre-K, my grandson had had a few `meltdowns'--
        tantrums. My grandchild was sensitive to loud noises, and 
        covered his ears. Like several autistic children, he did not 
        like to be touched, and he reacted strongly. He could have 
        tantrums where he cried and told people not to touch him. His 
        teacher just talked him through them or gave him some quiet 
        down time--never a seclusion room.
          In Kindergarten, he was moved to a special behavioral 
        classroom. We were told the staff was more experienced and the 
        smaller setting would be better. There was a `quiet room' in 
        the classroom. We were told that it was only used to protect 
        children for their safety and that of others, and that we would 
        be notified immediately if it was used.
          We had informed the school in our forms that he was resistant 
        to being touched and very sensitive to it. We said that he 
        would react negatively by hitting, jerking away, and yelling. 
        We explained his other sensitivities. But it turned out that 
        our grandson was put in the quiet room frequently. He was 
        physically restrained and dragged into the quiet room. We were 
        never told. We saved every note from the school and they did 
        not mention the seclusion room or the restraints to take him 
        there. The only notes said that he was occasionally put in a 
        time-out chair in the classroom--still able to be part of the 
        class.
          We did get notes that he was having a rough day; hitting 
        other children; they were hitting him; and we saw a long 
        scratch on his face from another student. We were concerned 
        about what was going on, but he would shut down and not talk. 
        We had told the school that he would react negatively to touch, 
        and if other children grabbed him, he would respond negatively, 
        and even aggressively. The school ignored us and the autism 
        specialist said that he would just have to `adjust to someone 
        touching him.' I was surprised that the autism specialist was 
        not aware of this characteristic trait within an autistic child 
        since it is so commonly known. I thought she would have been 
        trained on these issues.
          By mid-fall, things were getting really hard for our 
        grandson. We noticed a huge change in his behavior. He hated 
        school and would fight us to go to school, he resisted by 
        hitting, scratching us & himself, yelling, crying, spitting. 
        This was all new for us with him. It was truly unreal what we 
        were seeing and we knew something was going on but didn't know 
        what and wasn't getting anywhere with the school. It turned out 
        that another child was bullying him, jumping on him and other 
        children and body slamming them.
          In the winter, we met with the school and explained that the 
        bullying needed to stop. The staff spent much of the rest of 
        the meeting talking about how well our grandson was doing. We 
        said that we wanted to work on him transitioning into regular 
        general education classroom. He was bored in the behavioral 
        classroom, and there was not enough to keep him interested.
          A few months later, the school called and said that my 
        grandson had been injured, when the teacher restrained him at 
        the wrist and he pulled away and dropped to his knees. He was 
        sent to the Emergency Room. One of his bones was dislocated.
          Soon after that, we had an IEP meeting. We were very upset 
        because we found out for the first time that our grandson was 
        being restrained and dragged into the seclusion room, `quiet 
        room' multiple times. It began soon after school started and 
        continued through the semester. We were told that his behavior 
        was regressing, which we had not been told before. All the 
        grabbing and pulling in the physical restraint made him more 
        and more upset, and all of the time alone in the seclusion room 
        upset him, and his behavior worsened. He does not like people 
        touching him. He is very fearful of being locked in a room and 
        being isolated. He has had that fear since he was a toddler.
          We asked for the notes the staff was writing. It is quite 
        sickening to read. My grandson went from this quiet kid to a 
        child that inflicted scratches on himself, yelling bad words, 
        kicking, spitting, and biting. We attribute this directly to 
        his having been placed in the quiet room since he was being 
        restrained and dragged forcibly to this room by para-educator 
        and/or teacher.
          We were told that his disability needs--including his fear of 
        touch--could not be accommodated by the school. We were told he 
        would just have to get used to people touching him. We were 
        told he would have to get used to the loud noises.
          We went online and began to educate ourselves about the IEP 
        process. We read about my grandson's rights and our rights as a 
        family. I found forms on the State Department of Education Web 
        site. The school never told us of our rights or these forms. We 
        contacted an advocate. I learned that we are part of the IEP 
        team. We told the school we would not agree to use of the quiet 
        room unless it was used only as a last resort after efforts to 
        de-escalate the situation.
          The school began to work with us and our advocate. We built 
        in steps before the quiet room could be used. His frustration 
        builds and causes meltdowns because he cannot communicate 
        adequately, the doctor who assessed him told us. So, he was 
        given communication cards so he had a way to communicate. We 
        built a system of positive supports and interventions, and 
        rewards for good behavior. He worked one-to-one with his 
        teacher some of the time. If he got upset, he could take a 
        break--not go in the quiet room, just take a break.
          The first 6 months were a nightmare, and no family or child 
        should have to go through that. As we worked together with the 
        school on positive interventions, things began to change. The 
        last few years have been terrific because of the positive 
        supports. We share our experience to help others.''

    Question 5. This story is not uncommon with dozens more in 
Washington State just like this. As you consider this story, what steps 
can parents take to advocate for their children who are being secluded 
or restrained?
    Answer 5. First, let me say that this is an impressive family, and 
this young person is fortunate to have these grandparents standing 
behind him.
    This is a story with a sad beginning, but at least it has a happy 
ending because the parents--or in this case the grandparents--took the 
time to communicate with the school, pushed to make sure they got the 
whole story, called for IEP meetings to address what clearly wasn't 
working, learned about the protections provided under IDEA, enlisted 
the help of an advocate, and worked with the school to develop a 
positive behavior intervention plan. They stayed involved and 
committed, but they also recognized that injuries, reports of bullying, 
and a child who starts to resist going to school indicates that there 
may well be a much larger problem that needs to be addressed. These are 
the important steps in supporting every student, but particularly those 
with challenging behaviors.

    Question 6. This family feared repercussions from their 
grandchild's school if they were identified. Is this fear shared with 
other parents of children who are secluded or restrained?
    Answer 6. Teachers resort to seclusion and restraint because they 
simply don't know what else to do, and they work in schools that allow 
these procedures. If they had different techniques to protect 
themselves and all their students, I believe that they would use them. 
But, they have to know what these approaches are, be trained in using 
them, and work in schools that support their use. Teachers benefit from 
school-wide systems and support from school leadership that provides a 
clear understanding of what is expected of them and what resources are 
available to them when challenging behaviors arise. Can we expect any 
teacher to use positive approaches? Yes, they're smart people and they 
learn new teaching techniques throughout their careers.
    The fear of repercussions from the school--whether it is grounded 
or not--indicates a lack of trust in the school and a likely poor 
pattern of communication between the school and the parents. These can 
be repaired, but the parents will be in a better position if they talk 
to other parents in their own and other districts, to school board 
members, to advocates, and then approach the school administration to 
discuss their concerns. There is anecdotal evidence that many parents 
experience a feeling of powerlessness when dealing with schools 
regarding their child's behavior, and, thus, likely would fear the 
repercussions of speaking out about the use of restraint and seclusion 
in their child's school. Many parents have expressed frustration over 
the imbalance of power between themselves and the school when it comes 
to developing plans to deal with challenging behaviors. Parents have 
reported that they have felt coerced or threatened into including 
restraint and seclusion into their child's IEP despite their desire 
that these techniques not be used on their child.

    Question 7. What could have been done to prevent the use of 
seclusion and restraint in this case, and other cases like it?
    Answer 7. Seclusion and restraint are, in their essence, reactive 
approaches. In this case, the pattern of reacting to behavior became 
the student's behavior intervention plan--but it was totally inadequate 
and inappropriate. What was needed was to analyze the crises and why 
they occurred, to anticipate and prevent problems rather than react to 
them, and to teach better ways to behave. This is accomplished through 
the procedures that are called for in IDEA for students with behaviors 
that disrupt learning--a functional behavioral assessment conducted by 
qualified professionals and a positive behavior intervention plan 
outlining the positive interventions needed to improve the student's 
behavior. The behavior interventions plan must be developed by 
qualified professionals, the parents, and, if appropriate, the student, 
and implemented with fidelity.

    Question 8. As a parent, former teacher and school board member, I 
would want to know if my child was being restrained or secluded by 
school employees. Should there be a legal requirement for parents to be 
informed of their child being secluded or restrained? And, would a 
legal requirement of this nature be too burdensome for school and 
district administrators?
    Answer 8. Yes, I believe there should be a legal requirement that 
schools notify parents when seclusion or restraint are used with a 
child. Parents send their children to school trusting the school 
personnel to keep their children safe, to teach them, and to help them 
develop into independent members of their communities. Transparency 
between schools and parents about behavior issues is essential to 
ensuring that all interested and necessary parties can participate in 
helping to develop strategies to keep the child, school personnel and 
other students safe.
    School districts are expected to notify parents when their children 
are injured or experience a medical problem while at school. Therefore, 
it does not seem overly burdensome to expect them to provide timely 
notification to parents when dangerous techniques such as restraint and 
seclusion are being used.

    Question 9. What is the legal liability for teachers when a child 
is injured during restraint or seclusion? Also, what is the school 
district's liability when a student is injured by an employee? Is the 
teacher's union liable for costs associated with defending teachers who 
injure children during seclusion or restraint?
    Answer 9. This is one of those times that I feel I really must 
preface my remarks by saying, ``I'm not a lawyer so I am certainly not 
qualified to speak to specific legal issues related to liability.'' And 
then I'm going to go ahead and say, ``But, I do think there are some 
important things to keep in mind in considering legislation.''
    As a parent, a professional, a former school board member, and 
citizen, I would think that when I send my child to school, the school 
as an entity will be responsible for my child's well-being. If a 
student is injured at school during seclusion or restraint, I would not 
expect a teacher or the school to be liable, as long as the situation 
in which the injury occurred was handled in a responsible manner. In 
such a situation, having a law that established reasonable minimum 
safety standards and clear expectations for staff and the schools would 
serve as a protection for everyone involved.
    That is certainly the case in Georgia, where our State rule 
requires staff to be trained if restraint procedures are to be used in 
a school, calls for less intrusive measures in managing crises, but 
does allow for physical restraint to be used in emergencies involving 
the physical safety of the child, other students, or the teacher. Our 
rule also acknowledges that school personnel must use their own good 
judgment at times to ensure the safety of all, and should be able to do 
so without penalty. But this judgment must be based in appropriate 
training and knowledge about preventive and positive interventions as 
well as minimum safety standards such as those outlined in the 
Chairman's bill.
    I am not aware of how teachers' unions might be involved in a 
teacher's legal defense.
       Response to Questions of Senator Murray by Michael George
    Question 1. When positive behavioral interventions and supports are 
implemented we often hear of the reductions in the number of office 
referrals and the less frequent use of seclusion and restraint. 
However, we rarely hear about the academic benefits. Did you see any 
changes in the amount of time dedicated to instruction or other 
academic changes in Centennial School?
    Answer 1. Yes, there were academic benefits. As a consequence of 
the prevention strategies put into place, teachers were able to reduce 
the time spent on ``managing behavior problems'' and thus were able to 
spend more time developing creative and interactive lessons that 
engaged students in learning. Consequently, there were favorable 
changes in the amount of academic engaged time, meaning the amount of 
time students are actively engaged in the academic tasks before them, 
and improvements in achievement scores as measured by State assessments 
and curriculum-based measurements.

    Question 2. What teacher professional development was required to 
reduce the use of seclusion and restraint at Centennial School?
    Answer 2. The re-design of the elementary classroom, where we first 
began the new system, entailed about 2 hours of additional training to 
prepare the teachers. Topics covered the procedures for using Point 
Sheets, including the collection and use of data on students' classroom 
performances, a focus on and recognition of positive classroom 
behaviors, de-escalation strategies, as well as anger management 
strategies for students (e.g., Taking Time and raising hand). Teachers 
were provided a prep period during the school day and the number of 
subject preparations was decreased. Along with prep periods and fewer 
subject preparations, teachers were encouraged to develop a rich and 
engaging curriculum for the students.
    The second year, we incorporated an additional 3 hours of staff 
development into the weekly schedule. To this day, Wednesday afternoons 
are reserved for professional development that emphasizes the 
translation of theory into practice. We teach teachers specific 
procedures for effectively working with students having serious 
disabilities.

    A family from Washington State recently shared their story with me 
about their grandchild. The family has given me permission to share 
their story, in their own words.

          ``We are a family who lives in Washington State; our 
        grandchild has autism. As a young child, he was very happy and 
        enjoyed his 2 years of preschool very much. When he entered 
        kindergarten a few years ago, he was full of hope. But placed 
        into a `behavioral classroom,' he was repeatedly restrained and 
        secluded, until he developed injuries, worse meltdowns, and 
        fear of school. Our family was never told this was happening. 
        The school district never informed us of our rights. We 
        discovered them ourselves online. After we advocated for 
        positive behavioral supports, our grandson began to grow and 
        flourish. The meltdowns ended; the injuries ended; and he began 
        to bloom and make academic and functional progress. I hate to 
        think of what would have happened if we had not discovered our 
        rights.
          During pre-K, my grandson had had a few `meltdowns'--
        tantrums. My grandchild was sensitive to loud noises, and 
        covered his ears. Like several autistic children, he did not 
        like to be touched, and he reacted strongly. He could have 
        tantrums where he cried and told people not to touch him. His 
        teacher just talked him through them or gave him some quiet 
        down time--never a seclusion room.
          In Kindergarten, he was moved to a special behavioral 
        classroom. We were told the staff was more experienced and the 
        smaller setting would be better. There was a ``quiet room'' in 
        the classroom. We were told that it was only used to protect 
        children for their safety and that of others, and that we would 
        be notified immediately if it was used.
          We had informed the school in our forms that he was resistant 
        to being touched and very sensitive to it. We said that he 
        would react negatively by hitting, jerking away, and yelling. 
        We explained his other sensitivities. But it turned out that 
        our grandson was put in the quiet room frequently. He was 
        physically restrained and dragged into the quiet room. We were 
        never told. We saved every note from the school and they did 
        not mention the seclusion room or the restraints to take him 
        there. The only notes said that he was occasionally put in a 
        time-out chair in the classroom--still able to be part of the 
        class.
          We did get notes that he was having a rough day; hitting 
        other children; they were hitting him; and we saw a long 
        scratch on his face from another student. We were concerned 
        about what was going on, but he would shut down and not talk. 
        We had told the school that he would react negatively to touch, 
        and if other children grabbed him, he would respond negatively, 
        and even aggressively. The school ignored us and the autism 
        specialist said that he would just have to `adjust to someone 
        touching him.' I was surprised that the autism specialist was 
        not aware of this characteristic trait within an autistic child 
        since it is so commonly known. I thought she would have been 
        trained on these issues.
          By mid-fall, things were getting really hard for our 
        grandson. We noticed a huge change in his behavior. He hated 
        school and would fight us to go to school, he resisted by 
        hitting, scratching us & himself, yelling, crying, spitting. 
        This was all new for us with him. It was truly unreal what we 
        were seeing and we knew something was going on but didn't know 
        what and wasn't getting anywhere with the school. It turned out 
        that another child was bullying him, jumping on him and other 
        children and body slamming them.
          In the winter, we met with the school and explained that the 
        bullying needed to stop. The staff spent much of the rest of 
        the meeting talking about how well our grandson was doing. We 
        said that we wanted to work on him transitioning into regular 
        general education classroom. He was bored in the behavioral 
        classroom, and there was not enough to keep him interested.
          A few months later, the school called and said that my 
        grandson had been injured, when the teacher restrained him at 
        the wrist and he pulled away and dropped to his knees. He was 
        sent to the Emergency Room. One of his bones was dislocated.
          Soon after that, we had an IEP meeting. We were very upset 
        because we found out for the first time that our grandson was 
        being restrained and dragged into the seclusion room, `quiet 
        room' multiple times. It began soon after school started and 
        continued through the semester. We were told that his behavior 
        was regressing, which we had not been told before. All the 
        grabbing and pulling in the physical restraint made him more 
        and more upset, and all of the time alone in the seclusion room 
        upset him, and his behavior worsened. He does not like people 
        touching him. He is very fearful of being locked in a room and 
        being isolated. He has had that fear since he was a toddler.
          We asked for the notes the staff was writing. It is quite 
        sickening to read. My grandson went from this quiet kid to a 
        child that inflicted scratches on himself, yelling bad words, 
        kicking, spitting, and biting. We attribute this directly to 
        his having been placed in the quiet room since he was being 
        restrained and dragged forcibly to this room by para-educator 
        and/or teacher.
          We were told that his disability needs--including his fear of 
        touch--could not be accommodated by the school. We were told he 
        would just have to get used to people touching him. We were 
        told he would have to get used to the loud noises.
          We went online and began to educate ourselves about the IEP 
        process. We read about my grandson's rights and our rights as a 
        family. I found forms on the State Department of Education Web 
        site. The school never told us of our rights or these forms. We 
        contacted an advocate. I learned that we are part of the IEP 
        team. We told the school we would not agree to use of the quiet 
        room unless it was used only as a last resort after efforts to 
        de-escalate the situation.
          The school began to work with us and our advocate. We built 
        in steps before the quiet room could be used. His frustration 
        builds and causes meltdowns because he cannot communicate 
        adequately, the doctor who assessed him told us. So, he was 
        given communication cards so he had a way to communicate. We 
        built a system of positive supports and interventions, and 
        rewards for good behavior. He worked one-to-one with his 
        teacher some of the time. If he got upset, he could take a 
        break--not go in the quiet room, just take a break.
          The first 6 months were a nightmare, and no family or child 
        should have to go through that. As we worked together with the 
        school on positive interventions, things began to change. The 
        last few years have been terrific because of the positive 
        supports. We share our experience to help others.''

    Question 3. This story is not uncommon with dozens more in 
Washington State just like this. As you consider this story, what steps 
can parents take to advocate for their children who are being secluded 
or restrained?
    Answer 3. The story itself contains many clues for helping parents 
advocate for their children. For example, it is important for parents 
and guardians to understand the IEP process as well as their rights 
under Federal and State laws (copies of these rights should be given to 
parents in written form at every IEP meeting).
    Moreover, as it was for the grandparents in this story, retention 
of an advocate may prove helpful for parents in need of assistance. 
There are many State and national advocacy groups that supply 
assistance with programming suggestions and legal advice for parents 
and guardians. At Centennial School, we include the names of advocacy 
groups along with their contact information in the Parent-Student 
Handbook that is revised annually and provided to every Centennial 
School parent. The information is also posted on our Web page. In 
addition, Centennial School invites representatives from advocacy 
groups to its Open House events so as to be available to parents.
    Like the grandparents in the story, parents and guardians will want 
to work cooperatively with school officials to create a strong and 
positive IEP that is predicated on research-based interventions and 
calculated to provide educational benefit for the child. Note that the 
practices of seclusion and restraint have no research support behind 
them and consequently should be excluded from the IEP.
    At the IEP meeting, parents and guardians should inquire about the 
positive interventions that will be used to teach social behaviors and 
improve communication skills. They should also seek information about 
the specific procedures the school uses for emergency situations and 
ask to see any printed information on the school's policies about the 
use of seclusion and restraint.
    Parents may also wish to review the child's Functional Behavioral 
Assessment and offer to become active participants in its development. 
Parents and guardians can play a valuable role by supplying information 
from their experiences in the home and community situations with the 
child. For example, the procedures used successfully by parents to 
correct social errors can be shared with school officials.
    Meaningful dialog during the initial IEP meeting in this case may 
have prevented the resultant problems that contributed to the 
``nightmarish'' first 6 months. The grandparents may have learned the 
specifics of the school's emergency procedures that included seclusion 
and restraint, and the school officials may have learned about the 
child's specific characteristics, namely, the child's fear of isolated 
spaces and aversion to touch. Arguably, accommodations (i.e., 
prevention strategies) could have been made at that point rather than 6 
months later.
    Parents and guardians may also wish to observe the child in the 
classroom and school environment and meet with the teacher afterwards 
to discuss the observation. A guardian of a former Centennial School 
student found this to be a highly valuable experience. He came back 
repeatedly, saying he learned more about working with his child from 
the classroom observations than through any book he had read on the 
subject.

    Question 4. This family feared repercussions from their 
grandchild's school if they were identified. Is this fear shared with 
other parents of children who are secluded or restrained?
    Answer 4. I have not heard parents or guardians express this fear 
but perhaps that is because of my role as a school official. My first 
reaction is that the grandparents' relationship with the school has 
suffered and now lacks trust; and given the facts as reported in the 
story, perhaps justifiably so. However, as also illustrated in the 
story, once the grandparents, the advocate and school officials began 
working together, significant progress was achieved. I suspect the 
feelings of mistrust may have dissipated somewhat when school officials 
modified the program and the child began to experience ``terrific'' 
success. I have found that when parents and schools work together 
earnestly to solve problems, success is usually imminent.
    When disagreements emerge, parents and guardians have access to 
problem solving and dispute resolution procedures. The Individuals with 
Disabilities Education Act (IDEA) provides detailed procedures that 
allow parents and guardians to voice their disagreements with school 
officials and seek resolution through mediation and due process.
    Repercussions or any sort of retaliation on the part of school 
officials would in my opinion constitute a serious breach of ethics and 
possibly State law. The ``fear'' of retaliation may be assuaged through 
ongoing communication. As reported in the story, the parties were able 
to work together once communication was in place.

    Question 5. What could have been done to prevent the use of 
seclusion and restraint in this case, and other cases like it?
    Answer 5. The story provides important clues. For example, the team 
built in specific steps before the quiet room could be used. The child 
was given communication cards so he had a way to communicate and avoid 
frustration. A system of positive supports and interventions, along 
with rewards for good behavior were developed and implemented. The 
teacher worked one-to-one with the child some of the time. And when the 
child became upset, he was allowed to take a break and get himself calm 
in lieu of going to the quiet room. These are excellent strategies for 
preventing the use of restraint and seclusion and apparently they were 
quite successful.
    Most likely, the strategies for preventing the use of seclusion and 
restraint in this case were the result of a Functional Behavioral 
Assessment (FBA) that was conducted to determine the hypothesized 
function of the boy's agitated and aggressive responses. An FBA 
identifies the immediate and distal (i.e., setting events) antecedents 
that occur prior to the behaviors of concern (triggers) and the 
consequences that maintain the behavior. Based on the results of the 
assessment, an individualized behavior support plan is created that 
spells out (a) detailed strategies for preventing the behaviors of 
concern, (b) strategies for teaching new, more efficient, replacement 
behaviors (e.g., raising hand to signal agitation, using of anger 
management skills to remain calm, and communication skills, such as the 
communication cards cited above), and (c) consequence strategies that 
serve to reinforce the new behaviors as well as the procedures for 
managing challenging behaviors.
    As argued by my colleagues in the testimony before the Senate 
committee, the best way for dealing with crises is to prevent them from 
happening in the first place. Learning occurs when students are calm 
and attentive. Good planning based on the principles of positive 
behavioral teaching approaches along with consideration for the unique 
characteristics of the child can greatly reduce the need for ``crisis'' 
intervention. I elucidate many of the prevention strategies employed at 
Centennial School in the written testimony I provided the Senate HELP 
Committee.

    Question 6. As a parent, former teacher and school board member, I 
would want to know if my child was being restrained or secluded by 
school employees. Should there be a legal requirement for parents to be 
informed of their child being secluded or restrained? And, would a 
legal requirement of this nature be too burdensome for school and 
district administrators?
    Answer 6. Yes, there should be a legal requirement to notify 
parents when their child is being secluded or restrained, especially 
given the potential and real negative side effects of seclusion and 
physical restraint for children. Pennsylvania, for example, has 
incorporated a provision in its Rules and Regulations governing Special 
Education Services and Programs for notification of parents in the case 
of restraint (although not in the event of seclusion), and further 
requires that an IEP meeting be convened within 10 days to consider 
whether the student ``needs a functional behavior assessment, 
reevaluation, a new or revised positive behavior support plan, or a 
change of placement to address the inappropriate behavior.'' \1\
---------------------------------------------------------------------------
    \1\ Chapter 14 Special Education Services and Programs, 22 Pa. Code 
Sec. 14.121 (2008).
---------------------------------------------------------------------------
    The burdensomeness of this requirement is certainly relative to the 
number of seclusions and restraints conducted by the school. For 
example, had the Pennsylvania law been passed 10 years earlier, it 
would have been an insurmountable burden for Centennial faculty to 
conduct 1,064 additional meetings within a 180-day school calendar. 
Today, the meetings are not burdensome at all. In rare instances when a 
restraint is conducted, the team uses the meeting to analyze the 
restraint episode and to develop modifications to the behavior plan 
that might reduce the likelihood that restraint would need to be used 
in the future.
    As a final thought on the matter, a provision requiring parent 
notification in instances of seclusion and restraint might in itself 
supply the additional encouragement for schools to seek alternative 
approaches for working with children having challenging behaviors.

    Question 7. What is the legal liability for teachers when a child 
is injured during restraint or seclusion? Also, what is the school 
district's liability when a student is injured by an employee? Is the 
teacher's union liable for costs associated with defending teachers who 
injure children during seclusion or restraint?
    Answer 7. Although I am not an attorney or legal expert, it is my 
understanding that teachers, school officials, and school districts may 
be held liable for injuries that occur to students because of their 
actions (e.g., using restraints or seclusion) or their negligence 
(e.g., failing to supervise employees).\2\ A family of a student who 
was injured during a restraint or an episode of seclusion could pursue 
civil remedies through tort law; and seek compensatory damages and/or 
punitive damages against the school defendants by alleging various 
torts, such as negligence and/or intentional torts (e.g., assault and 
battery, false imprisonment, intentional infliction of mental 
distress).\3\
---------------------------------------------------------------------------
    \2\ See Zirkel, P.A. & Lyons, C.A., Restraining the Use of 
Restraints for Students with Disabilities: An Empirical Analysis of the 
Case Law, 10 Conn. Pub. Interest L.J. 323 (2011) for a review of case 
law involving the use of restraints and students with disabilities.
    \3\ See Cambron-McCabe, N.H., McCarthy, M.M., & Thomas, S.B. 
(2009). Legal rights of teachers and students (2d ed.). Boston, MA: 
Pearson for a more thorough text on tort liability.

    Question 8. Is the teacher's union liable for costs associated with 
defending teachers who injure children during seclusion or restraint?
    Answer 8. With all due respect, this question might best be posed 
to representatives of teachers' unions. I would surmise that a 
teacher's union would be liable for the costs associated with defending 
teachers who may have injured a student during seclusion or restraint, 
as legal representation is usually part of member association benefits. 
However, due to wide variance in State laws and other factors, this may 
not always hold true. For a definitive answer I suggest you contact the 
teacher unions directly.
       Response to Questions of Senator Murray by Cyndi Pitonyak
    A family from Washington State recently shared their story with me 
about their grandchild. The family has given me permission to share 
their story, in their own words.

          ``We are a family who lives in Washington State; our 
        grandchild has autism. As a young child, he was very happy and 
        enjoyed his 2 years of preschool very much. When he entered 
        kindergarten a few years ago, he was full of hope. But placed 
        into a `behavioral classroom,' he was repeatedly restrained and 
        secluded, until he developed injuries, worse meltdowns, and 
        fear of school. Our family was never told this was happening. 
        The school district never informed us of our rights. We 
        discovered them ourselves online. After we advocated for 
        positive behavioral supports, our grandson began to grow and 
        flourish. The meltdowns ended; the injuries ended; and he began 
        to bloom and make academic and functional progress. I hate to 
        think of what would have happened if we had not discovered our 
        rights.
          During pre-K, my grandson had had a few `meltdowns'--
        tantrums. My grandchild was sensitive to loud noises, and 
        covered his ears. Like several autistic children, he did not 
        like to be touched, and he reacted strongly. He could have 
        tantrums where he cried and told people not to touch him. His 
        teacher just talked him through them or gave him some quiet 
        down time--never a seclusion room.
          In Kindergarten, he was moved to a special behavioral 
        classroom. We were told the staff was more experienced and the 
        smaller setting would be better. There was a `quiet room' in 
        the classroom. We were told that it was only used to protect 
        children for their safety and that of others, and that we would 
        be notified immediately if it was used.
          We had informed the school in our forms that he was resistant 
        to being touched and very sensitive to it. We said that he 
        would react negatively by hitting, jerking away, and yelling. 
        We explained his other sensitivities. But it turned out that 
        our grandson was put in the quiet room frequently. He was 
        physically restrained and dragged into the quiet room. We were 
        never told. We saved every note from the school and they did 
        not mention the seclusion room or the restraints to take him 
        there. The only notes said that he was occasionally put in a 
        time-out chair in the classroom--still able to be part of the 
        class.
          We did get notes that he was having a rough day; hitting 
        other children; they were hitting him; and we saw a long 
        scratch on his face from another student. We were concerned 
        about what was going on, but he would shut down and not talk. 
        We had told the school that he would react negatively to touch, 
        and if other children grabbed him, he would respond negatively, 
        and even aggressively. The school ignored us and the autism 
        specialist said that he would just have to `adjust to someone 
        touching him.' I was surprised that the autism specialist was 
        not aware of this characteristic trait within an autistic child 
        since it is so commonly known. I thought she would have been 
        trained on these issues.
          By mid-fall, things were getting really hard for our 
        grandson. We noticed a huge change in his behavior. He hated 
        school and would fight us to go to school, he resisted by 
        hitting, scratching us & himself, yelling, crying, spitting. 
        This was all new for us with him. It was truly unreal what we 
        were seeing and we knew something was going on but didn't know 
        what and wasn't getting anywhere with the school. It turned out 
        that another child was bullying him, jumping on him and other 
        children and body slamming them.
          In the winter, we met with the school and explained that the 
        bullying needed to stop. The staff spent much of the rest of 
        the meeting talking about how well our grandson was doing. We 
        said that we wanted to work on him transitioning into regular 
        general education classroom. He was bored in the behavioral 
        classroom, and there was not enough to keep him interested.
          A few months later, the school called and said that my 
        grandson had been injured, when the teacher restrained him at 
        the wrist and he pulled away and dropped to his knees. He was 
        sent to the Emergency Room. One of his bones was dislocated.
          Soon after that, we had an IEP meeting. We were very upset 
        because we found out for the first time that our grandson was 
        being restrained and dragged into the seclusion room, `quiet 
        room' multiple times. It began soon after school started and 
        continued through the semester. We were told that his behavior 
        was regressing, which we had not been told before. All the 
        grabbing and pulling in the physical restraint made him more 
        and more upset, and all of the time alone in the seclusion room 
        upset him, and his behavior worsened. He does not like people 
        touching him. He is very fearful of being locked in a room and 
        being isolated. He has had that fear since he was a toddler.
          We asked for the notes the staff was writing. It is quite 
        sickening to read. My grandson went from this quiet kid to a 
        child that inflicted scratches on himself, yelling bad words, 
        kicking, spitting, and biting. We attribute this directly to 
        his having been placed in the quiet room since he was being 
        restrained and dragged forcibly to this room by para-educator 
        and/or teacher.
          We were told that his disability needs--including his fear of 
        touch--could not be accommodated by the school. We were told he 
        would just have to get used to people touching him. We were 
        told he would have to get used to the loud noises.
          We went online and began to educate ourselves about the IEP 
        process. We read about my grandson's rights and our rights as a 
        family. I found forms on the State Department of Education Web 
        site. The school never told us of our rights or these forms. We 
        contacted an advocate. I learned that we are part of the IEP 
        team. We told the school we would not agree to use of the quiet 
        room unless it was used only as a last resort after efforts to 
        de-escalate the situation.
          The school began to work with us and our advocate. We built 
        in steps before the quiet room could be used. His frustration 
        builds and causes meltdowns because he cannot communicate 
        adequately, the doctor who assessed him told us. So, he was 
        given communication cards so he had a way to communicate. We 
        built a system of positive supports and interventions, and 
        rewards for good behavior. He worked one-to-one with his 
        teacher some of the time. If he got upset, he could take a 
        break--not go in the quiet room, just take a break.
          The first 6 months were a nightmare, and no family or child 
        should have to go through that. As we worked together with the 
        school on positive interventions, things began to change. The 
        last few years have been terrific because of the positive 
        supports. We share our experience to help others.''

    Question 1. This story is not uncommon with dozens more in 
Washington State just like this. As you consider this story, what steps 
can parents take to advocate for their children who are being secluded 
or restrained?
    Answer 1. The very basic and reasonable restrictions of Senate bill 
2020 would go a long way toward protecting children from the 
destructive use of restraint and seclusion as described in this 
example. When use of these procedures is entirely at the discretion of 
school personnel and there is no requirement that parents be informed 
when they are used, the job of advocating becomes much more difficult 
for parents. That being said, the following are some options that 
parents could try.
    One option for parents is to advocate through the Individualized 
Education Plan (IEP) process for an inclusive education for their 
child. Very restrictive procedures like restraint and seclusion are out 
of place and even shocking within the context of a regular classroom, 
and are far less likely to be used there. When special education 
services are provided in an inclusive setting, there is strong 
motivation for staff to use preventive practices like positive behavior 
supports to avoid disrupting instruction for all. (See written 
testimony). The use of restraint and seclusion began in the example 
above when the child was placed in a ``special behavioral classroom.'' 
Within this segregated context, restrictive procedures often become 
commonplace and are even used for relatively minor offenses.
    A wide array of information on positive behavior interventions and 
supports (PBIS) is available on-line and in print. Parents can educate 
themselves on PBIS, use it at home, and request a functional behavior 
assessment and development of a PBIS plan for their child at school, as 
stipulated in IDEA. A PBIS plan is by definition preventive and 
instructional, and would not include dangerous reactive procedures like 
restraint and seclusion. An educational advocate could be helpful in 
supporting parents to monitor and collaborate in this process.
    Parents can become knowledgeable about how progress data is 
collected for their child. Data collection procedures should be spelled 
out in the IEP. Parents can ask to see regular progress data collected 
on their child's behavior and the effectiveness of the behavioral 
strategies used in reducing occurrences of problem behavior. In the 
story above, the grandparents became aware of the behavioral problems 
their grandson was having at school and the fact that restraint and 
seclusion were exacerbating symptoms associated with his autism when 
they asked to see the actual progress notes being collected by the 
staff. Data collected on the time this boy spent in the ``quiet room'' 
would certainly have shown this to be an ineffective practice in 
reducing meltdowns.
    The grandparents in this story were very knowledgeable about the 
symptoms associated with their grandson's autism and the kinds of 
conditions that serve to exacerbate these symptoms. There is a wealth 
of excellent programming information available on effective, positive, 
evidence-based instructional programming for students with autism and 
other disabilities. Parents can ask for a clear description of the type 
of programming being used by the school to address their child's 
disability, and to see the evidence base behind the strategies 
employed. An educational advocate would be helpful to parents in this 
process.
    It is distressing to hear and read so many stories like the one 
above, and to know that these situations happen every day throughout 
our country. The stipulations of IDEA strongly support inclusion, 
positive behavior supports, and parental collaboration in the 
development of individual educational plans for children. Parents are 
often exhausted by fighting their school districts for these basic 
services that should be readily available to any student with a 
disability. With more than four decades of solid research to support 
the effectiveness of positive behavior supports in reducing the 
occurrence of problem behaviors, the lack of evidence to support 
restraint and seclusion as effective in reducing occurrence of problem 
behaviors, and the numerous injuries and even deaths associated with 
use of restraint and seclusion, school divisions have no excuse for not 
changing their practices to keep up with the times and to ensure safety 
and progress for their students. It is my view that school divisions 
who continue to use the practices described in the story above will not 
discontinue them and turn to positive, preventive alternatives until 
they are required to do so.

    Question 2. This family feared repercussions from their 
grandchild's school if they were identified. Is this fear shared with 
other parents of children who are secluded or restrained?
    Answer 2. It is my understanding from talking with parents who have 
moved into our community from other areas and through consulting in 
other parts of the country, that many parents fear retribution from the 
school division if they refuse the use of restraint and seclusion with 
their children. Parents are often told that their child will lose her 
current educational placement if they refuse these procedures. 
Sometimes parents are asked to sign ``blanket'' permission forms as a 
``precautionary measure,'' without being informed of the dangers 
associated with restraint and seclusion or the positive, preventive 
alternatives available. When parents have given permission for these 
procedures to be used, usually without the privilege of truly informed 
consent, the only way to enforce a subsequent objection is through due 
process, an expensive and difficult process that is out of reach for 
many.

    Question 3. What could have been done to prevent the use of 
seclusion and restraint in this case, and other cases like it?
    Answer 3. The story above indicates that a program of positive 
behavior supports was effective for this child.

          ``After we advocated for positive behavioral supports, our 
        grandson began to grow and flourish. The meltdowns ended; the 
        injuries ended; and he began to bloom and make academic and 
        functional progress.''

    Positive behavior supports and educational programming that 
specifically addresses the issues associated with a student's 
disability (e.g., the sensitivities to sound and touch associated with 
autism described in this case) are just basic solid special education 
practice. They should be available in school to any student with a 
disability as required by Federal law, and it is the responsibility of 
school divisions to make these basic services available to their 
students with disabilities.
    Repetitive use of reactive procedures like restraint and seclusion 
often initiates a vicious cycle of escalation, as it appeared to do in 
this case; the more frequently these procedures are used the more 
frequently they appear to be needed because they have become part of 
the problem.
    The requirement provided by S. 2020 that restraint and seclusion be 
used only in emergency situations, and the stipulations around 
informing parents provided in the bill could possibly have prevented 
the situation described in this case, by putting more pressure on 
school staff to change their focus from punishment to effective 
programming in order to successfully meet the needs of this student, 
and by making the grandparents aware earlier of the seriousness of the 
situation.

    Question 4. As a parent, former teacher and school board member, I 
would want to know if my child was being restrained or secluded by 
school employees. Should there be a legal requirement for parents to be 
informed of their child being secluded or restrained? And, would a 
legal requirement of this nature be too burdensome for school and 
district administrators?
    Answer 4. It should absolutely be a legal requirement for parents 
to be promptly informed regarding the use of restraint or seclusion 
with their child. Our emergency procedures policy in Montgomery County 
Public Schools includes this provision. (See Written Testimony, 
Appendix E.)
    When effective positive behavior supports are in place for 
students, emergency situations in schools are extremely rare. If 
restraint and seclusion are only used in emergency situations, as 
stipulated in S. 2020, requirements associated with informing parents 
would only be needed on these rare occasions.
    If true emergency situations occur with frequency in schools, the 
problem is with the school's ability to effectively use positive 
behavior supports to prevent emergencies, not with the requirement to 
inform parents.

    Question 5. What is the legal liability for teachers when a child 
is injured during restraint or seclusion? Also, what is the school 
district's liability when a student is injured by an employee? Is the 
teacher's union liable for costs associated with defending teachers who 
injure children during seclusion or restraint?
    Answer 5. I do not have the information required to answer this 
question concerning teacher liability, as our teachers do not use 
restraint or seclusion as general practice. In an emergency situation, 
our staff would follow steps to de-escalate the situation and enlist 
the assistance of our school resource officers or local police as 
described in our emergency procedures policy. (See Written Testimony, 
Appendix E.)
 Additional Responses to Questions of Senator Murray by Cyndi Pitonyak
    Question 1. When positive behavioral interventions and supports are 
implemented we often hear of reductions in the number of office 
referrals and less frequent use of seclusion and restraint. However, we 
rarely hear about the academic benefits. Did you see any changes in the 
amount of time dedicated to instruction or other academic changes in 
Montgomery County Public School?
    Answer 1. A primary academic issue for students with problem 
behaviors is that of access to academic instruction. These students 
typically spend large amounts of time away from academic classes, 
because unaddressed problem behaviors can be disruptive to instruction 
for others. In schools that are not inclusive, students with problem 
behaviors are often assigned to segregated classes where academic 
expectations are considerably reduced, and their access to teachers 
highly qualified in the curriculum is limited. Under these 
circumstances, even if the student is technically ``in class'', access 
to quality academic instruction is very significantly reduced.
    Our experience in Montgomery County has been that positive behavior 
support planning reliably results in increased time in regular academic 
classes for our students with problem behaviors, which means increased 
access to academic instruction. In fact, documentation of time in and 
out of the classroom is a commonly used type of progress data monitored 
by student support teams.
    Important to note in any discussion of academic benefits associated 
with positive behavior supports is the fact that unaddressed academic 
weaknesses are a significant underlying cause of problem behaviors for 
students. This is usually easy to spot in functional behavior 
assessment, when problem behaviors occur more frequently in certain 
academic settings or under conditions associated with specific types of 
academic demands. When this is the case, addressing the academic 
problem typically results in resolution of the problem behavior as 
well. Our positive behavior support plan development process includes a 
preliminary step of assessing and addressing academic needs. (See 
written testimony, Appendix A.)

    Question 2. What teacher professional development was required to 
reduce the use of seclusion and restraint in Montgomery County Public 
School?
    Answer 2. In Montgomery County Public Schools, we have addressed 
professional development for our teachers on three levels concurrently 
over time. (See written testimony) We have found that it is important 
to consistently provide support and training for our staff at all three 
of these levels each year in an ongoing fashion.
    At the first level, leaders in each school (e.g., principals and 
assistant principals) and any others who would be called upon 
frequently to help when problems occur must have a groundwork of basic 
understanding to guide their decisions and actions. It is important 
that these staff understand the benefits of inclusion for these 
students, principles of positive behavior support, how to de-escalate 
crisis situations, and the emergency procedures policy. We provide this 
training to new administrators and staff on a yearly basis. Recently, 
we have taken advantage of stimulus funding to increase and systematize 
our training in basic de-escalation strategies to include counselors, 
classroom teachers, special education teachers, and instructional 
assistants.
    At the second level, we establish leadership and technical 
assistance in each school that is immediately available to teachers who 
serve students with significant problem behaviors. We do this through 
positions we call ``intervention specialists''. These are special 
education teachers who have the skills, responsibility and dedicated 
time to serve as leaders and models for teams of teachers supporting 
individual students who require behavior support. (See written 
testimony). The intervention specialist in each school leads individual 
student teams through the process of collaboratively conducting a 
functional behavior assessment and developing a positive behavior 
support plan for the student. (See written testimony, Appendices A & 
D). This person serves as a model for implementing interventions & 
monitoring progress and a support for planning and problem solving to 
all members of the student team, including classroom and special 
education teachers. This ``learn while doing'' training and support has 
been critical to our success in training our staff to use positive 
behavior supports, thus eliminating the need for restraint and 
seclusion in our schools. Our special education office at the district 
level has the responsibility for ensuring that intervention specialists 
are well-trained and supported as leaders in their buildings; 
principals have the responsibility of ensuring that circumstances in 
the building allow student teams to meet regularly with the 
intervention specialist. The principal is also responsible for 
establishing clear support and expectations for the consistent use of 
positive behavior supports in the school.
    At the third level, we provide a menu of training opportunities 
each year that are free and open to any interested staff and parents. 
We have found that positive models and success stories in each building 
are a powerful motivator to our teachers in learning to use positive 
behavior supports. Our training options for interested staff range from 
book groups and short after school training sessions on specific topics 
and interventions, to a semester-long intensive course in positive 
behavior supports. Motivated teachers take advantage of these 
opportunities, and go on to use what they have learned in their daily 
work at school. They talk about their successes with their colleagues. 
We have found over time that many teachers become more interested and 
confident in taking on the challenge of teaching a student with serious 
problem behaviors after they have seen their colleagues do it 
successfully.
    It is critically important to always present the ``why'' and the 
``how'' together when providing professional development in positive 
behavior support to teachers. Positive behavior support is a 
significant change from traditional behavior management. Teachers need 
to understand that traditional approaches have been highly unsuccessful 
for some students, and that practices like restraint and seclusion have 
not only been ineffective but very dangerous to students and staff as 
well. They are more open to changing their practices when they 
understand the reason for doing so, when help and support is 
immediately available, and when they have ready access to good 
information and positive examples to follow.

    Question 3. Some administrators claim they must use restraint or 
seclusion to control and subdue some students with severe emotional or 
behavioral disorders who have outbursts. Do you agree this is 
necessary?
    Answer 3. We have not found it necessary to use restraint or 
seclusion with our students except in very rare emergency situations 
for the past 23 years. Our emergency procedures policy (See written 
testimony, Appendix E) describes the circumstances under which 
restraint or seclusion would be used for any student, which would be an 
emergency situation that included immediate threat of serious bodily 
injury to the student or others.
    We use individualized positive behavior support planning for our 
students with severe emotional or behavioral disorders who have a 
history of behavioral outbursts. This process includes identifying the 
circumstances under which behavioral outbursts would be likely to occur 
for the student, modifying those circumstances to reduce or eliminate 
the likelihood that an outburst would occur, and teaching the student a 
positive alternative that serves the same function that the outburst 
served for the student; e.g., escape from demands, tension release, 
protest. (See written testimony). This highly preventive approach 
greatly reduces the likelihood of emergency situations occurring at 
school.
    As part of the positive behavior support planning process, we 
develop individual crisis plans for students who have a history of 
behavior outbursts. Part of this process includes identifying early 
warning signs that indicate potential for escalation, and spelling out 
specific steps for staff to take to avert the crisis. The crisis plan 
describes exactly what crisis level behavior looks like for each 
individual student, who to call, and specific steps to follow to help 
the student calm down and eventually resume his/her regular routine.
    There is a solid body of research to support positive behavior 
support as a preventive and effective approach to addressing serious 
problem behaviors, and our experience has certainly shown this to be 
true. When our efforts are focused on identifying causes, modifying the 
environment to prevent outbursts, and teaching positive alternatives, 
restraint and seclusion are simply not required. In our experience, 
focusing our efforts on how we can understand and prevent problems for 
our students works much better than focusing our efforts on how we can 
control and subdue them.

    Question 4. As an expert in the use of positive behavioral 
interventions and supports for students with emotional or behavioral 
disabilities, is it appropriate for any type of seclusion or restraint 
to be listed in a child's individualized education program?
    Answer 4. No. Individualized education programs should address 
instruction and accommodations for student learning and success. 
Seclusion and restraint are not instructional strategies or 
accommodations associated with student success. Positive behavior 
interventions and supports implemented with fidelity and grounded in 
data-based progress monitoring, should be addressed in student IEPs and 
have been proven to make use of restraint and seclusion unnecessary.
    It is important for our legislators to be aware that, even though 
positive behavior supports have been specified in IDEA for a number of 
years, their systematic use in public schools is by no means 
established, particularly for the students with the most serious 
problem behaviors--ironically, the students who need them the most. 
Allowing and planning for the use of these restrictive procedures on an 
``as-needed'' basis for some students by including them in student 
IEPs, will simply allow schools to continue using these outdated and 
dangerous practices, rather than taking the initiative and 
responsibility to comply with IDEA and effectively implement positive 
behavior supports for their students with disabilities.
    Restraint and seclusion are already used disproportionately on 
students with disabilities. Allowing these procedures to be included in 
student IEPs will only strengthen this disproportionality in their use, 
resulting in failure to provide students with disabilities with the 
protections afforded to students without disabilities under the 
provisions of Senate bill 2020.
    The bottom line is that services for individuals with mental health 
needs, the elderly, and even those in the penal system already prohibit 
the use of these dangerous procedures except in emergency situations. 
There is absolutely no reason why we should be using them on children 
in our schools in non-emergency situations.
  Response to Questions of Senator Murray by Deborah (Debbie) Jackson
    A family from Washington State recently shared their story with me 
about their grandchild. The family has given me permission to share 
their story, in their own words.

          ``We are a family who lives in Washington State; our 
        grandchild has autism. As a young child, he was very happy and 
        enjoyed his 2 years of preschool very much. When he entered 
        kindergarten a few years ago, he was full of hope. But placed 
        into a ``behavioral classroom,'' he was repeatedly restrained 
        and secluded, until he developed injuries, worse meltdowns, and 
        fear of school. Our family was never told this was happening. 
        The school district never informed us of our rights. We 
        discovered them ourselves online. After we advocated for 
        positive behavioral supports, our grandson began to grow and 
        flourish. The meltdowns ended; the injuries ended; and he began 
        to bloom and make academic and functional progress. I hate to 
        think of what would have happened if we had not discovered our 
        rights.
          During pre-K, my grandson had had a few ``meltdowns''--
        tantrums. My grandchild was sensitive to loud noises, and 
        covered his ears. Like several autistic children, he did not 
        like to be touched, and he reacted strongly. He could have 
        tantrums where he cried and told people not to touch him. His 
        teacher just talked him through them or gave him some quiet 
        down time--never a seclusion room.
          In Kindergarten, he was moved to a special behavioral 
        classroom. We were told the staff was more experienced and the 
        smaller setting would be better. There was a ``quiet room'' in 
        the classroom. We were told that it was only used to protect 
        children for their safety and that of others, and that we would 
        be notified immediately if it was used.
          We had informed the school in our forms that he was resistant 
        to being touched and very sensitive to it. We said that he 
        would react negatively by hitting, jerking away, and yelling. 
        We explained his other sensitivities. But it turned out that 
        our grandson was put in the quiet room frequently. He was 
        physically restrained and dragged into the quiet room. We were 
        never told. We saved every note from the school and they did 
        not mention the seclusion room or the restraints to take him 
        there. The only notes said that he was occasionally put in a 
        time out chair in the classroom--still able to be part of the 
        class.
          We did get notes that he was having a rough day; hitting 
        other children; they were hitting him; and we saw a long 
        scratch on his face from another student. We were concerned 
        about what was going on, but he would shut down and not talk. 
        We had told the school that he would react negatively to touch, 
        and if other children grabbed him, he would respond negatively, 
        and even aggressively. The school ignored us and the autism 
        specialist said that he would just have to ``adjust to someone 
        touching him.'' I was surprised that the autism specialist was 
        not aware of this characteristic trait within an autistic child 
        since it is so commonly known. I thought she would have been 
        trained on these issues.
          By mid-fall, things were getting really hard for our 
        grandson. We noticed a huge change in his behavior. He hated 
        school and would fight us to go to school, he resisted by 
        hitting, scratching us & himself, yelling, crying, spitting. 
        This was all new for us with him. It was truly unreal what we 
        were seeing and we knew something was going on but didn't know 
        what and wasn't getting anywhere with the school. It turned out 
        that another child was bullying him, jumping on him and other 
        children and body slamming them.
          In the winter, we met with the school and explained that the 
        bullying needed to stop. The staff spent much of the rest of 
        the meeting talking about how well our grandson was doing. We 
        said that we wanted to work on him transitioning into regular 
        general education classroom. He was bored in the behavioral 
        classroom, and there was not enough to keep him interested.
          A few months later, the school called and said that my 
        grandson had been injured, when the teacher restrained him at 
        the wrist and he pulled away and dropped to his knees. He was 
        sent to the Emergency Room. One of his bones was dislocated.
          Soon after that, we had an IEP meeting. We were very upset 
        because we found out for the first time that our grandson was 
        being restrained and dragged into the seclusion room, ``quiet 
        room'' multiple times. It began soon after school started and 
        continued through the semester. We were told that his behavior 
        was regressing, which we had not been told before. All the 
        grabbing and pulling in the physical restraint made him more 
        and more upset, and all of the time alone in the seclusion room 
        upset him, and his behavior worsened. He does not like people 
        touching him. He is very fearful of being locked in a room and 
        being isolated. He has had that fear since he was a toddler.
          We asked for the notes the staff was writing. It is quite 
        sickening to read. My grandson went from this quiet kid to a 
        child that inflicted scratches on himself, yelling bad words, 
        kicking, spitting, and biting. We attribute this directly to 
        his having been placed in the quiet room since he was being 
        restrained and dragged forcibly to this room by a para-educator 
        and/or teacher.
          We were told that his disability needs--including his fear of 
        touch--could not be accommodated by the school. We were told he 
        would just have to get used to people touching him. We were 
        told he would have to get used to the loud noises.
          We went online and began to educate ourselves about the IEP 
        process. We read about my grandson's rights and our rights as a 
        family. I found forms on the State Department of Education Web 
        site. The school never told us of our rights or these forms. We 
        contacted an advocate. I learned that we are part of the IEP 
        team. We told the school we would not agree to use of the quiet 
        room unless it was used only as a last resort after efforts to 
        de-escalate the situation.
          The school began to work with us and our advocate. We built 
        in steps before the quiet room could be used. His frustration 
        builds and causes meltdowns because he cannot communicate 
        adequately, the doctor who assessed him told us. So, he was 
        given communication cards so he had a way to communicate. We 
        built a system of positive supports and interventions, and 
        rewards for good behavior. He worked one-to-one with his 
        teacher some of the time. If he got upset, he could take a 
        break--not go in the quiet room, just take a break.
          The first 6 months were a nightmare, and no family or child 
        should have to go through that. As we worked together with the 
        school on positive interventions, things began to change. The 
        last few years have been terrific because of the positive 
        supports. We share our experience to help others.''

    Question 1. This story is not uncommon with dozens more in 
Washington State just like this. As you consider this story, what steps 
can parents take to advocate for their children who are being secluded 
or restrained?
    Answer 1. I think the most important step a parent can take to be a 
strong and positive advocate for their child is to first understand the 
disability of the child relating to triggers and positive steps/
interventions to de-escalate and most importantly, educate themselves 
on their rights as parents and the rights of your child. At that point, 
you take your knowledge to the schools and be a very active participant 
in the IEP process. Do not accept immediate evaluations from the school 
without documenting proof. Come to school unannounced and observe the 
classroom and format of teaching. There may be something happening in 
the classroom that triggers a response from your child and no one knows 
. . . but you will. Changing a seating arrangement will sometimes 
eliminate certain behaviors. All children are to be in the ``least 
restrictive environment'' first. Seclusion and restraint causes fear 
and immediately places a child in a defense mode, especially children 
along the autistic spectrum. My son still has that immediate 
``hitting'' action the second someone touches him in an aggressive way. 
At 9 years old, he knows now that is not the proper way to address 
issues. I have found with my son that allowing him to speak when 
addressed with something he may have done wrong is the best course of 
action. He feels justified or ``fair'' if he is heard. Autistic 
children do not always see things as they are. My son is very literal 
and does not have the ability to abstract at all. I advocate for my son 
by educating him on the way he thinks as well. I help him realize that 
his first immediate reaction is not always correct and try to teach him 
to broaden his judgment base. I teach him about ``estimating'' and 
``educated guesses'' that are the norm for others to use in everyday 
life and help him understand and interpret that information.

    Question 2. This family feared repercussions from their 
grandchild's school if they were identified. Is this fear shared with 
other parents of children who are secluded or restrained?
    Answer 2. I can confidently say that the fear of repercussion is a 
very real fear many parents have. However, and as for me in my 
situation, my fear of Elijah being hurt permanently mentally or 
physically far outweighed the aftermath or judgment from the school. If 
the school is properly handling the needs of the child there should be 
no concerns in identifying yourself. Additionally, the IEP should 
protect against any negative repercussions.

    Question 3. What could have been done to prevent the use of 
seclusion and restraint in this case, and other cases like it?
    Answer 3. Very detailed IEP meetings with all involved. It also 
sounds like a one-on-one aide or wrap around situation would have 
assisted in this as well. I also would have been in the classroom 
observing and offering assistance in de-escalating techniques. Further, 
the teachers need to be educated and trained to know how to identify 
and address behavioral concerns in a non-threatening manner.

    Question 4. As a parent, former teacher and school board member, I 
would want to know if my child was being restrained or secluded by 
school employees. Should there be a legal requirement for parents to be 
informed of their child being secluded or restrained? And, would a 
legal requirement of this nature be too burdensome for school and 
district administrators?
    Answer 4. Parents should absolutely know when their child is being 
restrained or secluded. In every situation I had a record sheet of my 
son's day where every minute was accounted for. This was a standard 
form and it identified periods of time out and restraint. In every 
case, I received paperwork on that. I responded with questions around 
what happened before, during and after the escalation occurred to help 
identify the trigger. It is our right to know. Additionally, talk to 
your child. Tell them to let you know what happens and why. My son was 
just as accountable for explaining what happened knowing this was a 
tool Mommy used to help him have more successful days in school.

    Question 5. What is the legal liability for teachers when a child 
is injured during restraint or seclusion? Also, what is the school 
district's liability when a student is injured by an employee? Is the 
teacher's union liable for costs associated with defending teachers who 
injure children during seclusion or restraint?
    Answer 5. I am not sure what the legal liability is for restraint 
injuries. What I do know is when my son started coming home with 
bruises I demanded answers and backup for the injuries. They were not 
able to present that to me. It was then that no matter what happened, 
big or small, I was informed in writing. When I was not satisfied with 
the teaching, handling or answers and demanded recourse, the school 
ultimately ended up paying for half of the tuition at the private 
school he attended. His medical coverage paid the rest. Again I have to 
stress the importance of the IEP and the details in it. I have retained 
an attorney to review my son's IEP and represent me and him with the 
school and requesting monthly update meetings and training for all 
people who will be involved with Elijah during this coming school year. 
Parents have the same amount of importance and leverage in the IEP 
process as the school--in fact, more so. It is our job to protect and 
fight for the needs of our children and be the strongest advocate we 
can be for them. An IEP is not complete unless all parties agree on the 
contents. That is the strongest piece of support we have. My attorney 
will ensure Elijah's safety and hold the school accountable for any 
slip ups. The goal for all should be a healthy and happy school year 
for the child.

    Question 6. In your testimony, you mentioned your son was asked to 
leave several child care centers. When advocating for your son, what 
challenges did you face when trying to work with child care providers?
    Answer 6. One of the biggest and most frustrating challenges is the 
lack of patience and understanding from the Day Care Centers. Many 
people do not want to know the issues that our children may have. They 
view the behaviors as acts of disobedience and disrespect. I was always 
being called to either pick him up or calm him down. The child care 
providers lacked the knowledge and training for intervention and 
communication for a child that has special needs.
    That being said, there was one daycare that was extremely helpful 
and that was the last one Elijah was in at age 3. That was the daycare 
where the supervisor told me about T Carl Buice School and the special 
schooling they had for young children. That referral resulted in 
Elijah's acceptance into that school and a chance of early 
interventions to begin molding Elijah's behavior in the school setting. 
It also identified many of the ``triggers'' that would result in a 
negative reaction from Elijah and we were able to develop a daily 
procedure that promoted positive reactions versus negative.
    After enrollment in T. Carl Buice I only placed Elijah in home care 
centers for before and after school care moving forward. There has only 
ever been two home cares that would not keep Elijah. The reasoning for 
that being the same as the public centers; they viewed Elijah as being 
bad. However, after I took my time and interviewed the home care givers 
and explained Elijah's situation I was blessed to find two caregivers 
who were extremely successful with Elijah.
    I stand firm on the need for training and education. Teachers of 
all sorts should be trained in the areas of special needs just for the 
simple fact that some children and parents do not even realize the 
needs until much later. That was exactly the case with me. When a 
parent knows ``something'' is wrong but does not know what it is--the 
professional with training may be able to identify certain behaviors 
and make suggestions for help that will ultimately change the course of 
a child's life and school experience for that child. Most importantly, 
they will be able to identify how best to handle a situation and avoid 
it from becoming a negative or dangerous situation.
    Thank you.

    [Whereupon, at 12:10 p.m., the hearing was adjourned.]

                                   [all]
                                   

      
</pre></body></html>
